<html>
<title> - RETHINKING THE CHILDREN'S TELEVISION ACT FOR A DIGITAL MEDIA AGE</title>
<body><pre>[Senate Hearing 111-485]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-485

    RETHINKING THE CHILDREN'S TELEVISION ACT FOR A DIGITAL MEDIA AGE

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 22, 2009

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation







                  U.S. GOVERNMENT PRINTING OFFICE
56-408 PDF                WASHINGTON : 2010
----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001











       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             KAY BAILEY HUTCHISON, Texas, 
JOHN F. KERRY, Massachusetts             Ranking
BYRON L. DORGAN, North Dakota        OLYMPIA J. SNOWE, Maine
BARBARA BOXER, California            JOHN ENSIGN, Nevada
BILL NELSON, Florida                 JIM DeMINT, South Carolina
MARIA CANTWELL, Washington           JOHN THUNE, South Dakota
FRANK R. LAUTENBERG, New Jersey      ROGER F. WICKER, Mississippi
MARK PRYOR, Arkansas                 JOHNNY ISAKSON, Georgia
CLAIRE McCASKILL, Missouri           DAVID VITTER, Louisiana
AMY KLOBUCHAR, Minnesota             SAM BROWNBACK, Kansas
TOM UDALL, New Mexico                MEL MARTINEZ, Florida
MARK WARNER, Virginia                MIKE JOHANNS, Nebraska
MARK BEGICH, Alaska
                    Ellen L. Doneski, Chief of Staff
                   James Reid, Deputy Chief of Staff
                   Bruce H. Andrews, General Counsel
   Christine D. Kurth, Republican Staff Director and General Counsel
              Brian M. Hendricks, Republican Chief Counsel

















                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 22, 2009....................................     1
Statement of Senator Rockefeller.................................     1
Statement of Senator Pryor.......................................     3
Statement of Senator Begich......................................    65
Statement of Senator Nelson......................................    67
Statement of Senator Klobuchar...................................    70

                               Witnesses

Hon. Julius Genachowski, Chairman, Federal Communications 
  Commission.....................................................     4
    Prepared statement...........................................     6
Gary E. Knell, President and CEO, Sesame Workshop................    18
    Prepared statement...........................................    19
Professor Sandra L. Calvert, Professor of Psychology and 
  Director, Children's Digital Media Center, Department of 
  Psychology, Georgetown University..............................    22
    Prepared statement...........................................    24
John Lawson, Executive Vice President, ION Media Networks, Inc. 
  on Behalf of The National Association of Broadcasters..........    26
    Prepared statement...........................................    29
Cyma Zarghami, President, Nickelodeon and the MTV Networks Kids 
  and Family Group...............................................    42
    Prepared statement...........................................    44
James P. Steyer, CEO and Founder, Common Sense Media.............    55
    Prepared statement...........................................    57

 
    RETHINKING THE CHILDREN'S TELEVISION ACT FOR A DIGITAL MEDIA AGE

                              ----------                              


                        WEDNESDAY, JULY 22, 2009

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:30 p.m. in room 
SR-253, Russell Senate Office Building, Hon. John D. 
Rockefeller IV, Chairman of the Committee, presiding.

       OPENING STATEMENT OF HON. JOHN D. ROCKEFELLER IV, 
                U.S. SENATOR FROM WEST VIRGINIA

    The Chairman. This hearing will come to order.
    And we will have some of our members coming. We just 
impeached a judge----
    [Laughter.]
    The Chairman.--so some may be emotionally upset, and 
they'll be a little bit slow getting here, but they will be 
here.
    Let me make my opening statement. The Ranking Member, Kay 
Bailey Hutchison, is not here today, so if nobody else comes 
we'll go right to you, Mr. Genachowski, and then we'll see what 
happens from there. We've got lots of questions----
    Mr. Genachowski. Great.
    The Chairman.--and then we have another panel, terrific 
panel, behind that.
    My approach to this, frankly, is not to start out 
controversially. I did that last year, because I am so put off 
by the whole concept of promiscuity and lasciviousness and all 
these things. And I'm, you know, a father and a grandfather of 
five and nine-tenths children. I care about that. And I've 
found out that this is very much of a First Amendment 
committee, and so we have to work carefully, but I am 
determined that we will eventually get to this.
    Now I want to talk just basically about the Commission. And 
the Committee will talk about the Committee, I guess, in other 
sessions. But, be at ease. I am absolutely delighted to see 
you. Every--and I explain to people that just the very fact 
that you've been appointed is a testament to the President and 
his interest in the best people--like John Holdren, who you 
know. John Holdren was ready to retire, but he just couldn't 
stay away from the opportunity to do the Office of Science and 
Technology, and so here he is--science policy, et cetera--OSTP.
    So, television obviously is a very, very powerful force in 
children's lives. Children in America typically watch between 2 
and 4 hours of television every day. I try to not think of that 
just in terms of my home, but homes where parents are both 
working, and the stress is on them, and whether to be 
sympathetic or not, and you sort of have to be, but then you 
have to think of the technology of, How do you handle all of 
this? And this is what I want to get into a bit today.
    Stunningly, by the time they reach first grade--it has been 
a long time since I was in first grade, but I think that's--
what, 7 or 8 years old? That sound about right?
    Voice. Six.
    The Chairman. Six. That sounds better. All right.
    [Laughter.]
    The Chairman. They have--well, that's more dramatic. They 
have spent what amounts to 3 school years in front of the 
television set by the time they're 6 years old. Three school 
years. And I have a hard time really even getting past that 
thought.
    Now, let me be clear. When used for good, television 
programming can enlighten, entertain, and, indeed, teach. That 
can come from television itself, it can come from, you know, 
classic DVDs that go back and review history--the History 
Channel. I mean, there are so many ways that we can really be 
fundamentally enlightened by what comes across our screen, 
which is now, of course, much more than just our screen. But, 
when used for less noble purposes, it can expose children to 
indecent, graphic, frightening scenes, which children, in the 
manner of not just children, but all people, never really get 
over. I think this has had a coarsening effect on our children. 
I think it has had a coarsening effect on our society. I regret 
that. I wish I could do something about that, and it may be 
that, together, we can.
    I think we have a right to be concerned, in other words. 
This is why, 20 years ago, Congress enacted the Children's 
Television Act. Now, 20 years ago is a long time. This law, 
back then, reduced the commercialization of children's 
programming, which was great. Less time on advertising, more 
time on programming. It also created a market for more 
quality--I hate the word, but I'll use it--educational, 
informational programming for our youngest viewers. Very, very 
important. So, these are the good things, these are the 
policies we still want to promote, these are the values that we 
hold dearly to, today. This is what we look to in our children 
as they grow up, that they will be a new generation of leaders, 
with a set of values that matches what is required.
    But, our media landscape has changed so dramatically during 
the last two decades. I mean, it's just like a blink of an eye, 
and it's a whole different world. So, we have a challenge. How 
do we take these values, and how do we apply them to a very 
different media universe that we're faced with today--and, 
particularly, our children are faced with today, and have 
mastered, and are part of, they're already comfortable with it, 
a world where television sets are only a part of the media mix, 
a world where a television screen is fast fusing with the 
computer screen, where cable channels have multiplied and young 
people view programs over their mobile phones? It's hard for me 
to imagine, but I know it's true, to see my son and his new 
wife reading The New York Times on an iPhone, on a Sunday 
morning.
    Now, I'm suspicious of that. I want the paper in my hand, 
because I have this weird feeling that the iPhone is leaving 
out some of the context, that certainly all you get is what you 
have right in front of you. You can't skip back to some other 
page.
    So, the way I see it, there are two needs here. First, 
there is a need to provide good media content for children. 
And, second, there is a need to protect our children from 
harmful content. To provide and to protect. That's it. And 
we've got to do them both.
    This is why the Committee would like to explore, today, how 
well the Children's Television Act has worked, in the judgment 
of our head of the FCC, and how it can be updated to reflect 
new digital media requirements, and whatever else may occur to 
you, sir.
    If we value what our children read, see, and hear, we need 
to hold discussions like this. If we respect parents and their 
need for tools to help monitor their children's viewing, we 
need to hold discussions like this. And if we believe that 
there is some content that is simply not suitable for children, 
we need to hold hearings and discussions like this.
    Finally, it will come as no surprise to anyone in this room 
that I continue to have grave concerns about violence, over 
which you do have some say, and indecency, over which you have 
no say. I continue to believe that programming with gratuitous 
sex and excessive violence harms our children and, in a broader 
sense, demeans our culture, not only to us, but to the rest of 
the world. And the ``rest of the world'' part is becoming 
larger and larger.
    But, this is not the central focus--having given this long 
speech--of today's hearing. So, let us now begin by identifying 
how we can work together to improve programming for children, 
in a general way.
    So, I thank you, Julius, for being here. I thank the panel 
that will follow you, who are all experts, one of whom has a 
West Virginia background, who I'm very anxious to see. None of 
them, I know, have an Arkansas background.
    [Laughter.]
    The Chairman. But, we've got to do the best by our young 
viewers.
    And so, that's my statement, and I now call upon Mark 
Pryor, who is our consumer guru. He does all the good things in 
this committee.

               STATEMENT OF HON. MARK L. PRYOR, 
                   U.S. SENATOR FROM ARKANSAS

    Senator Pryor. Thank you, Mr. Chairman. There are a lot of 
folks who do good things.
    Thank you for your interest in this, and always being a 
tireless advocate of protecting our children, not just on 
television, but in other media. And you are seen, obviously, as 
a leader on this, nationally, and we appreciate that very much.
    Chairman Genachowski, it's great to have you here. Thank 
you for your public service. And I just want to thank you for 
bringing a new approach and, really, a new atmosphere to the 
FCC. And I look forward to hearing your statement, and look 
forward to asking questions.
    Thank you.
    The Chairman. The floor, sir, is yours.

    STATEMENT OF HON. JULIUS GENACHOWSKI, CHAIRMAN, FEDERAL 
                   COMMUNICATIONS COMMISSION

    Mr. Genachowski. Thank you. Chairman Rockefeller, Senator 
Pryor, thank you for inviting me here today to discuss the 
Children's Television Act of 1990 and its role in a digital 
media age. I applaud Chairman Rockefeller and the Committee for 
commencing this timely and important inquiry.
    Mr. Chairman, your commitment to children, known by 
everyone through such provisions as the E-Rate, other 
initiatives, including those you mentioned today, is well 
known. The public appreciates it.
    Senator Pryor, your commitment to this issue, including the 
Child Safe Viewing Act, is well known and appreciated, and I 
want to thank you, in particular, for your recent contribution 
of your staff member to my staff----
    [Laughter.]
    Mr. Genachowski.--an important step in revitalizing the 
FCC. So, thank you for that.
    The historic role of this committee--the historic role that 
it has played with respect to children and TV, with 
contributions from so many of its members, is an important 
legacy to build upon for the future.
    The Children's Television Act is landmark legislation, 
enacted by Congress in 1990 to serve the dual purposes of 
promoting educational and informational programming for 
children, and placing limits on commercial advertising to which 
kids are exposed. As the Committee revisits this Act after 
almost two decades, three points stand out, as I see it:
    First, children remain our most precious national resource. 
It is as essential as ever to ensure that our kids are 
educated, healthy, and prepared for the 21st century, and that 
they are protected from commercial exploitation.
    Second, television continues to have a powerful effect on 
our children, and broadcast television remains a unique medium, 
the exclusive source of video programming relied upon by 
millions of households even today, as we saw in the recent 
digital television transition. The Commission's responsibility 
to enforce the Children's Television Act remains vital.
    Third, Senator Rockefeller, as you've said, much has 
changed since the Act was enacted in 1990. For instance, 
broadcasting has gone digital, offering new opportunities and 
new challenges. Multichannel video programming has grown 
dramatically since 1990, significantly expanding the 
programming choices of viewers who can afford to pay for 
television. The Internet has vastly proliferated. Video games 
have become a prevalent entertainment source in millions of 
homes, and a daily reality for millions of kids. Mobile 
services have exploded, as you mentioned. In my written 
statement we have data and facts around all of this, but I 
think these trends are well--are very well known.
    The bottom line is that, 20 years ago, parents worried 
about one or two TV sets in the house. Today, parents worry not 
only about the TV, but about the computer in the kitchen, the 
gaming console in the basement, and the mobile phones in their 
kids' pockets. No wonder parents increasingly find themselves 
playing the digital media equivalent of a zone defense across 
this expanding playing field, facing an array of new challenges 
not contemplated 20 years ago.
    Several of these issues are involved in an FCC examination, 
initiated by Senator Pryor, which is due at the end of August. 
That process, and the one launched today, Mr. Chairman, by this 
hearing, together reflect an appropriate and, I believe, 
widespread interest in the consequences for children and 
families of the new digital media landscape.
    As Congress and the Commission review this changing 
landscape, there are a number of issues to explore. These 
include the quantity and quality of educational programming 
currently available; the ability of parents to find educational 
programming and other useful information; the capability of new 
digital technologies to better inform parental choices; the 
current state of advertising on children's programming, as well 
as other programming that has children in the audience; and an 
assessment of the new concerns and opportunities presented by 
the changing digital media world.
    In exploring these and other issues, I believe certain 
goals and values endure:
    First, the importance of education. It is as essential as 
ever to ensure that our children have all the tools they need 
to become valuable members of our economy and democracy.
    Second, the importance of protecting children. Video 
content for our Nation's kids should not treat them as little 
consumers. Guarding against inappropriate marketing to children 
is as vital today, in the digital era, as it was 20 years ago, 
when Congress limited commercial advertising to kids in the 
Children's Television Act.
    Third, the importance of empowering parents. Parents should 
have access to a full range of information and tools in 
exercising their essential responsibilities.
    And fourth, the importance of recognizing the important, 
varied, and appropriate roles of the government, parents, and 
the private sector in this effort. Government and the private 
sector both have vital roles to play in helping parents and 
protecting the health and well-being of children, while 
honoring and abiding by the First Amendment.
    I'm hopeful that the evolving media landscape will produce 
innovation and new business models to increase the amount of 
quality programming, and educational programming, available to 
children, and enhance the ability of parents to pick and 
choose.
    I'm hopeful that all providers of video programming will 
apply their creative talents to meeting their responsibilities 
and obligations to the American public. Studies show that 
television--like Sesame Street, Sprout, and others--can be a 
force for good, and that positive public images and educational 
messages can affect behavior in healthy and productive ways.
    We also know that public service announcements have had 
real benefits, like reductions in teen pregnancy and drug use 
by children. This is a time for all providers of digital 
content to ask themselves, ``Are we acting responsibly, in view 
of our broad civic obligations?''
    I also believe that Congress and the FCC must remain 
vigilant. Given the importance of the enduring goals underlying 
the Children's Television Act, and the significant changes in 
the marketplace and technology, I believe that the FCC should, 
and it will, conduct an inquiry into how the FCC can best 
protect children and empower parents in the digital age.
    I've directed FCC staff to begin that process, and I will 
work with my colleagues on the Commission to launch such an 
inquiry, to refresh the agency's record and gather the 
necessary facts that will inform decisions on how best to 
promote, in a digital media world, the critical goals that 
animate the Children's Television Act. The inquiry will address 
both new concerns and new opportunities presented by the 
changing digital media world, and it will be a resource for 
Congress as it examines these issues.
    Meanwhile, I intend for the agency to take concrete action 
where appropriate. One such area involves interactive 
advertising on digital TV. Five years ago, the Commission 
reached the tentative conclusion for DTV that, absent a 
parental opt-in, it should prohibit interactivity during 
children's programming that connect kids to commercial 
material.
    I believe that the versatility of digital television will 
provide new and beneficial economic opportunities to 
broadcasters--a critical goal, especially in this time of 
economic challenge. At the same time, protecting kids from 
inappropriate commercialization remains an essential objective 
of the digital TV era. While, of course, the Commission will 
study the record fully, at this point I'm inclined to agree 
that the agency should make its tentative conclusion final, and 
say that interactive ads directed at children are off limits, 
without an opt-in by parents.
    One more action step: I believe the FCC itself can be a 
part of the solution to the issues we're discussing today, and 
I have directed the FCC staff to revamp, as soon as possible, 
the children's TV portion of FCC.gov. There is useful 
information, hidden deep in the site, about educational 
programming provided by broadcasters. It's hard to find, it 
requires a lot of clicks, but eventually there's information 
there; although even when it's there, it's not presented in the 
way that's most useful to parents and others interested in 
identifying and finding educational programming. That kind of 
information, other relevant information for parents, should be 
easier to find, and easier to use. My goal is for the FCC to 
have a model government website for parents and children.
    In sum, I commend the Chairman for commencing this crucial 
and essential examination of children and media in the digital 
age, and I look forward to answering your questions and working 
with the Committee.
    [The prepared statement of Mr. Genachowski follows:]

       Prepared Statement of Hon. Julius Genachowski, Chairman, 
                   Federal Communications Commission
    Good afternoon Chairman Rockefeller, Ranking Member Hutchison, and 
members of the Committee. Thank you for inviting me here today to 
discuss the Children's Television Act of 1990 and its role in a digital 
media age.
    I applaud Chairman Rockefeller and the Committee for commencing 
this timely and important inquiry. Mr. Chairman, your commitment to 
children through such provisions as the E-rate and other initiatives is 
well-known; the public appreciates it. Moreover, the historic role this 
Committee has played with respect to children and TV, with 
contributions from so many of its members, is an important legacy to 
build upon for the future.
    Since the Children's Television Act (``the Act'') was passed in 
1990, an array of new choices--direct broadcast satellite, Internet-
based video, mobile services, video offerings from telephone companies, 
and video games--have joined broadcast and cable television as a daily 
reality for millions of American families. Cable has grown 
substantially since 1990, and of course broadcasting has now gone 
digital.
    Much has changed since 1990, but much abides.
    Broadcast television remains an essential medium, uniquely 
accessible to all Americans. And the core concerns that prompted the 
Children's Television Act endure, particularly the effect of media on 
our children
    For these reasons, I believe an examination of the Children's 
Television Act in light of the current marketplace and technologies 
merits the attention of both this Committee and the Commission, and I 
look forward to working closely with the Committee as it proceeds on 
its work in this area.
    The Children's Television Act is landmark legislation. It was 
enacted by Congress in 1990 to serve the dual purposes of promoting 
educational and informational programming for children and placing 
limits on commercial advertising to which children are exposed while 
watching TV.
    In order to increase educational and informational content, the Act 
requires the Commission, when considering a license renewal application 
from a television broadcaster, to gauge the extent to which the 
broadcaster has served the educational and informational needs of 
children. The current FCC guideline for expedited renewals of broadcast 
licenses is for broadcasters to air at least 3 hours per week of core 
educational and informational children's programming. In addition, 
broadcasters are also required to prepare, place in their public 
inspection files, and file with the Commission, a quarterly Children's 
Television Programming Report identifying their core programming and 
other efforts to comply with their educational programming obligations. 
Finally, in order to assist parents in finding educational and 
informational programming, broadcasters must display an E/I symbol 
throughout the entire program.
    The second key feature of the Act--limiting commercial 
advertisements to children--applies to both broadcasters and cable 
operators. The Act requires that commercial television broadcasters and 
cable operators limit the amount of commercial matter aired during 
children's programs to not more than 10.5 minutes per hour on weekends 
and not more than 12 minutes per hour on weekdays.
    Congress passed the Act because it believed that television has the 
power to benefit the media lives of children. The Senate Committee 
Report at the time noted: ``There is a great deal of evidence that 
television can effectively teach children. . . . Television programming 
can make an important contribution to education at the national level, 
because television is accessible to all Americans. . . . It is well 
documented that television programming can be an effective way to teach 
children and to motivate them to learn.'' [S. Rep. 101-66, Nov 22, 
1990]
    Experience has confirmed that educational and informational fare on 
television can help prepare toddlers for school and can be a powerful 
complement to the classroom experience. Studies have shown, for 
example, that programs such as ``Sesame Street'' enhance attentiveness 
and perceptual abilities in young children. Children's television can 
also have beneficial effects on the social, emotional and physical 
development of our children.
    Despite all of the benefits educational television provides 
youngsters, Congress determined in 1990 that market forces were not 
producing a sufficient amount of children's educational and 
informational programming on commercial television and that government 
action was needed. Congress reminded broadcasters of ``the public 
interest responsibility of individual broadcast licensees to serve the 
child audience'' and concluded that ``total reliance on marketplace 
forces is neither sufficient nor justified to protect children from 
potential exploitation by advertising or commercial practices.'' [H.R. 
REP. 101-385 at 6, 1990 U.S.C.C.A.N. 1605, 1610]. Because broadcast 
television was the primary--and only freely available--means for 
families to receive video content, the programming goals for children 
were made requirements of broadcast television licensees, which use the 
public's airwaves.
    In addition, Congress was concerned about excessive advertising to 
children, particularly since young kids have difficulty distinguishing 
between programming content and promotional advertising. Provisions 
addressing this concern extend to cover cable operators in additional 
to television broadcasters.
    As the Committee revisits the Act after almost two decades, two 
initial points stand out:
    First, broadcasting remains an essential medium.
    Broadcasting is still the exclusive source of video programming 
relied upon by millions of households in the country, and it serves as 
a very significant source for millions of others. The Commission's 
responsibility to enforce the Act with respect to broadcast licensees 
remains vital.
    Second, much has changed. For instance:

  <bullet> Multi-channel video programming has grown dramatically, 
        significantly expanding the programming choices of viewers who 
        can afford pay television. For example, in 1990, broadcast TV 
        represented 77 percent of total TV viewership, while today it 
        is 41 percent. In the same period, satellite TV rose from 
        nonexistent to reach 27 percent of TV households. Overall, pay 
        TV today represents upwards of 83 percent of all television 
        households. Children are watching more cable and satellite TV 
        now than they did two decades ago, and cable and satellite TV 
        include some high-quality educational and information kids 
        programming, including Sprout, Noggin, and other cable 
        networks.

  <bullet> The Internet has vastly proliferated, with younger Americans 
        as the leading edge. A recent Nielsen survey reports that kids 
        from two to 11 years of age are spending 63 percent more time 
        online than they did 5 years ago. Meanwhile, video on the 
        Internet is expected to grow rapidly. For example, a recent 
        report noted that by 2013, global online video will represent 
        60 percent of consumer Internet traffic--up from 32 percent 
        this year.

  <bullet> Video games have become a prevalent entertainment source in 
        millions of homes and a daily reality for millions of kids. 
        According to one study, 65 percent of American households now 
        play video games, while another found that 97 percent of teens 
        play video games on a computer, game console, or mobile device.

  <bullet> Mobile services have increased significantly, with mobile 
        devices becoming more and more commonplace for kids. In 1990, 
        there were only 5.3 million cell phone subscribers in the U.S. 
        Today there are over 270 million. Mobile data of all sorts will 
        likely skyrocket in coming years. One report suggests it will 
        double every year through 2013, jumping 66 times from 2008. 
        Third- and fourth-generation mobile wireless services make 
        video programming available virtually anywhere a wireless 
        signal can reach. Video programming can now be seen on many 
        wireless phones or PDAs. Texting, often with pictures attached, 
        has become a principal pastime of many of America's youth.

    These are all elements of the digital revolution we have seen over 
the last two decades--with digital most recently coming to broadcast 
television itself. Now, instead of a single channel of programming, a 
full-power broadcaster can `multicast' as many as four or five streams. 
Digital transmission also creates possibilities for interactive 
programming that are just beginning to be explored, and that may create 
its own opportunities and issues.
    Twenty years ago, parents worried about one or two TV sets in the 
house. Today, parents worry not only about the TV in the den, but about 
the computer in the kitchen, the gaming console in the basement, and 
the mobile phones in their kids' pockets.
    No wonder parents increasingly find themselves playing the digital 
media equivalent of a ``zone defense'' across this increasingly wide 
playing field, facing an array of new challenges not contemplated 
twenty years ago.
    Several of these issues are involved in an examination the FCC is 
currently conducting as part of a report requested legislatively, 
initiated by Senator Pryor, due at the end of August. That process, and 
the one launched by this hearing, together reflect an appropriate and I 
believe widespread interest in the consequences for children and 
families of the new digital media landscape.
    As Congress and the Commission review this changing landscape, 
there are a number of issues to explore. These include the amount and 
quality of educational programming available in the changing 
marketplace; the ability of parents and others to find educational 
programming as well as reviews, recommendations and other useful 
information that can now be provided through digital technology to 
better inform parental choices; the current extent and nature of 
advertising on children's programming as well as other programming for 
which children are in the audience; and an assessment of the new 
concerns and opportunities presented by the changing digital media 
world.
    As these and other questions are explored, I believe certain goals 
and values remain constant.
    First, the importance of education. It is as essential as ever to 
ensure that our children have all the tools they need to become 
valuable members of our economy and democracy. Educational video and 
other digital content can play a very important role in that. Also, in 
a digital world, digital media literacy programs can play an important 
role, assisting children to make wise media decisions as they grow 
older and more independent.
    Second, the importance of protecting children. They are our most 
cherished, valuable resource. Video content for our Nation's children 
should treat them as such and not as ``Little Consumers.'' Guarding 
against inappropriate marketing to children is as vital today as it was 
twenty years ago when Congress limited commercial advertising to kids 
through the Act.
    Third, the importance of empowering parents. Parents should have 
access to a full range of information and tools in exercising their 
essential responsibilities. They should easily be able to find those 
tools, to learn about programming choices, and to take action they deem 
appropriate. In a digital world, technology can and should be part of 
the solution.
    Fourth, the importance of recognizing the appropriate roles of the 
government, parents, and the private sector. Government has a vital 
role to play in helping parents and protecting children, while honoring 
and abiding by the First Amendment. The private sector has real 
responsibilities in this area--and, potentially, opportunities. I'm 
hopeful that the evolving media landscape will produce innovation and 
new business models to increase the amount of educational programming 
and content available to all children, and enhance the ability of 
parents to pick and choose.
    To conclude, although the digital media landscape has changed 
dramatically since the adoption of the Children's Television Act, the 
core principles endure. It is appropriate to recognize the economic 
challenges faced by many broadcasters, especially in the current 
economic environment. But enforcement of the Children Television Act 
remains essential, even as it is equally essential that we contemplate 
a new children's media policy for the digital age. I commend the 
Chairman for commencing this crucial and essential examination of 
children and media in the digital age. I look forward to answering your 
questions.
                                 ______
                                 
                                Appendix
      FCC Implementation of the Children's Television Act of 1990
    Educational and Informational Programming. The CTA requires the 
Commission to consider, during its review of television stations' 
license renewal applications, whether commercial television licensees 
have served the educational and informational needs of children through 
the licensees' overall programming, including programming specifically 
designed to serve such needs. In 1991, the Commission adopted rules to 
implement the CTA's educational programming mandate, concluding that 
``programming that furthers the positive development of the child in 
any respect, including the child's cognitive/intellectual or emotional/
social needs, can contribute to satisfying the licensee's obligation to 
serve the educational and informational needs of children.'' At that 
time, however, the Commission chose not to quantify that obligation.
    In 1996, the Commission concluded that its initial regulations 
implementing the CTA had not been fully effective in prompting 
broadcasters to increase the amount of educational and informational 
broadcast television programming available to children. Accordingly, 
the Commission issued new rules, adopting a definition of ``core'' 
children's programming and establishing guidelines for processing 
broadcasters' renewal applications as they relate to children's 
programming. Under these guidelines, a broadcaster can receive staff-
level approval of the CTA portion of its renewal application if it 
aired at least 3 hours per week of core children's programming. Core 
programming is defined as programming that has as a significant purpose 
serving the informational and educational needs of children, is at 
least 30 minutes in length, and is aired on a regularly scheduled, 
weekly basis between the hours of 7 a.m. and 10 p.m. Core programming 
must be identified as such when it is aired and must be listed in 
children's programming reports in the station's public inspection file. 
The educational and informational objectives and the target child 
audience of core programming must be specified in writing in these 
programming reports.
    Additionally, the rules adopted in 1996 provide public access to 
information about the availability of core programming, including a 
requirement that children's programming be explicitly identified in 
information supplied to the publishers of program guides and listings. 
Broadcasters are also required to prepare, place in their public 
inspection files, and file with the Commission, a quarterly Children's 
Television Programming Report identifying their core programming and 
other efforts to comply with their educational programming obligations.
    The advent of digital television promised new opportunities for 
broadcasters, including high definition TV and multicasting, and the 
Commission set out to ensure that children would benefit from the 
additional flexibility and capacity inherent in digital technology. In 
a 2004 Order, the Commission adopted new children's television rules 
that, among other things, increased the core programming benchmark for 
digital broadcasters in proportion to the increase in free video 
programming offered by the broadcaster on multicast channels. For 
example, a station that provides one 24-hour stream of free video 
programming in addition to its main programming stream would be 
required to air an additional 3 hours of core programming per week to 
meet the processing guidelines for staff level approval of its renewal 
application. In order to assist parents in finding educational and 
informational programming, this Order also required that all core 
programming carried on commercial and noncommercial broadcast stations 
display an E/I symbol throughout the entire program.
    The 2004 Order included additional changes and generated 
substantial controversy. Both children's advocates and members of the 
broadcast and cable industries filed petitions for reconsideration of 
and court challenges to the Order. These parties ultimately negotiated 
a joint proposal to resolve their issues and submitted it to the 
Commission. After putting the proposal out for public comment, the 
Commission adopted a Second Order on Reconsideration and a Second 
Report and Order. This Second Order affirmed the proportional increase 
in the weekly, 3-hour core programming benchmark adopted in the 2004 
Order, and clarified restrictions regarding program repeats.
    When the Commission adopted the core programming benchmark, it 
attempted in the definition of core programming to provide licensees 
with clear guidance regarding what is required, and to be as objective 
as possible to avoid injecting the Commission unnecessarily into 
sensitive decisions regarding program content. Nonetheless, when 
necessary, the Commission must step in. In 2007, the Commission entered 
into a consent decree with Univision to resolve petitions to deny filed 
against a number of that broadcaster's then-pending license renewal 
applications. Petitioners alleged that the stations involved had failed 
to comply with the children's programming rules because the programs 
relied on by the stations as ``core'' did not serve the educational and 
informational needs of children. This consent decree resulted in a 
voluntary payment in the amount of $24 million and a compliance plan to 
ensure future adherence to the CTA.
    Commercial Time Limits. The CTA also set commercial time limits, 
which protect children from the harmful effects of advertising, while 
at the same time allowing broadcasters to earn revenue to help support 
producing quality children's programming. Specifically, the CTA 
requires that commercial television broadcast licensees and cable 
operators limit the amount of commercial matter aired during children's 
programs to not more than 10.5 minutes per hour on weekends and not 
more than 12 minutes per hour on weekdays.
    The Commission's 1991 implementing Order incorporated the statutory 
time limits into the Commission's rules and reaffirmed and clarified 
the Commission's ``separation,'' ``program length commercial,'' and 
``host selling'' policies. The separation policy aids children in 
distinguishing advertising from program material by requiring that 
broadcasters separate the two types of content by use of special 
measures, sometimes known as ``bumpers.'' Under the program length 
commercial policy, an entire program is counted as commercial time 
whenever a program associated with a product includes commercials for 
that product. Similarly, under the host selling policy, the whole 
program is counted as commercial time whenever program characters or 
show hosts are used to sell products in commercials during or adjacent 
to the shows in which the characters or hosts appear.
    In 2004, the Commission changed these rules as well to account for 
the transition to DTV, applying the commercial limits to all digital 
video programming, whether aired on a free or pay digital stream. The 
2004 Order modified the rules regarding commercial limits in a number 
of respects, some of which were further modified in 2006 following the 
joint proposal from industry and advocates. For example, the Commission 
restricted the display by broadcasters and cable operators of the 
addresses of Internet websites that contain commercial matter during 
children's programs and during promotions that appear in or adjacent to 
children's programs.
    Finally, the Commission revised the definition of commercial matter 
to include promotions for any television programs or video programming 
services other than educational and informational programs or other 
age-appropriate programming. This was done to ensure that all 
promotional material aired during commercial blocks will be appropriate 
for the child viewing audience.
    The Commission has worked to enforce these commercial limits. Since 
1996, the Commission has issued Notices of Apparent Liability and 
entered into consent decrees totaling more than $4.4 million for 
violations of the commercial time limits and public file requirements.

    The Chairman. Thank you.
    What would you feel about a little red button, on the TV 
monitor, which a child could push, or a child's parent could 
push--just a button, a little button, just sitting right up 
there, bright red--and you push it, and you find out how what 
is to follow is rated, in terms of family values and things of 
this sort?
    I think--was it the Pew Charitable Trust that came out and 
showed that 16 percent of people know how to work the V-Chip--
you know, all the stuff where you can--I mean, my own--I hate 
to embarrass them, but there are a couple of fellows sitting 
behind me, and ladies, who can't work it themselves, OK? Now--
and that includes the Chairman.
    Easy ways to make people--to empower people to make 
decisions about what they're about to see. Easy ways for 
children. Now, how do you make children, if they see that it's 
not rated very well, find appropriate programs that will entice 
them? And I can't answer those things. But, I'm looking for a 
way to solve our problems in a family-friendly way which works.
    OK. Enough of that. The Children's TV Act is, as we've 
said, two decades old. The technology has changed, indifferent 
to what's a broadcast channel, what is a cable channel. 
Everything has sort of gone under the broadcast role, because 
that's where we were back then. They watch programming over the 
Internet, they anticipate the future fusion of television 
screening and the computer screen; in increasing numbers, they 
use mobile phones--all of which we've talked about.
    But, the bulk of the Children's Television Act really does 
only apply to broadcasting. It's a function of 20 years ago. 
While the advertising restrictions apply to children's programs 
on both broadcast and cable, the 3-hour rule is only for 
broadcasting. So, the law is fairly narrow in its scope and 
broadcast-centric in its focus.
    So, the question: Does this limitation make sense today? 
Should we only be concerned about children's interaction with 
media when it occurs over the airwaves? Or do all these other 
new forms of media, and new ways of watchdogging programming 
do--does that also merit our concern, if there's a way of 
making that happen?
    Final question: what do you believe the FCC or the Congress 
should do to update the Children's Television Act so that the 
law better reflects the digital media world our kids know 
today?
    Mr. Genachowski. Senator, in some ways we have two sets of 
parents in the country. We have parents who receive both 
broadcasting and cable, and parents who receive just 
broadcasting. Broadcasting-only is still the prevalent form of 
distribution in millions of homes--roughly 15 million homes, I 
think--and for that reason, I think, making sure that broadcast 
television continues to provide quality educational programming 
for children is important.
    With respect to cable, parents who receive both kinds of 
programming in their home, I think, are most interested in 
making sure that, across the array of channels that are coming 
into the home, they have choices. And there is some quality 
programming on cable.
    I suspect a big part of the frustration that parents have 
with respect to cable is the first issue that you mentioned, 
which is, How do we find it? What tools do we have to both 
identify quality programming for our kids--depending on their 
age, their level of interest? How do we exercise the control 
that we, as parents, want to exercise, if there are certain 
things that come into our home that we don't want our kids to 
see?
    To your earlier point, where you started, I'm an optimist 
on the power of technology, if it's unleashed in this area, to 
empower parents. I think we should think big, and we should 
expect big things from innovators, entrepreneurs, and the media 
industry. We should have a world where if a parent has a 6-
year-old who is doing great on math but has vocabulary 
challenges, that a parent can say easily, Where can I find 
programming that's high quality and that will help with 
vocabulary, or help with history, or help with math? It should 
be easy to find----
    The Chairman. Which has to do with the website.
    Mr. Genachowski. Which has to do with the website. It may 
also have to do with the forms of distribution that are coming 
into the living room.
    The fact that broadcasting is now digital is a significant 
fact. It should, over time, allow for more empowerment, more 
choices, through the television in the living room, than there 
used to be. I think we're at the beginnings of that. And one of 
the reasons I'd like to see the FCC do an inquiry into the--in 
this area--is to ask exactly these questions.
    One, what is the state of the marketplace now? The FCC 
could use much better data on what's actually going on. And 
second, what are the tools that are available now? Some of 
this, we'll be addressing in the report that the Senate has 
requested, but that'll be a status report and, I think, the 
beginning of this inquiry. What are the ways that we can 
empower parents to make choices of the sort you've identified?
    The Chairman. I think we should maintain, since there are 
only three of us here--I mean, talking--so, I think we should 
sort of be loose on our restrictions. I crushed the 5-minute 
rule in my opening statement; adhered to it precisely in my 
questions; and am dissatisfied with myself on both accounts.
    [Laughter.]
    The Chairman. So I present to you, now, Senator Mark Pryor.
    Senator Pryor. Well, thank you, Mr. Chairman.
    I want to thank you for mentioning the Child Safe Viewing 
Act, and, you know, hopefully, some good will come of that.
    And I actually encourage you to think about what Chairman 
Rockefeller said a few minutes ago about a button, either on 
the TV set or the remote control, or both, because I think it's 
an interesting concept, that you could almost get a status 
report of what you're watching, and hit the button, and it 
would come up with the ratings, and how it's rated. And that 
would be very--a useful tool for parents, a very quick, easy 
tool for parents.
    But, also, it would bring awareness, to anybody that's 
paying attention, that the television set does have the V-Chip 
technology in it. And it would probably prompt millions of 
parents to go in and set the settings that I think the vast 
majority right now probably don't even know are in there, but--
or if they do, they just don't take the time to set it up.
    So, I just--as you're going through your process, I think 
you ought to at least consider that as an option, and there may 
be some good technology out there that may make a big 
difference.
    Another concern I have, and this is just the changing 
nature of technology, is the fact that our children now have 
access to video streaming, just--over-the-air broadcasts, all 
kinds of media, Internet, through their cell phones, through 
their mobile devices. And to me this just mushrooms the 
challenges that we have, because now, even if we are parents 
who try to pay attention and either set up our cable or 
satellite box, or we try to do the V-Chip on our television, or 
all of the above, if our child gets a telephone that has that 
capability, all of a sudden the entire Internet can be open to 
them. Does the FCC have any plans to look at that and try to 
work on that from the parents' perspective, as well?
    Mr. Genachowski. Yes. The first thing, Senator, is, in 
response to the Child Safe Viewing Act, we'll begin the process 
of cataloging the tools that are available, and identifying 
what's available to parents now.
    I think, as part of the, sort of--the companion inquiry 
that I'm envisioning, we should ask all of these questions 
about this changed landscape. I couldn't agree with you more. 
You know, we all--when I grew up, it was a handful of broadcast 
television signals in the home. It was--my parents had a hard 
job, for many reasons, but this part of it was--they knew when 
I was watching TV and when I wasn't watching TV, and it was 
relatively easy to have rules.
    We all have experiences now, with our children, where the 
landscape is vastly different, and you have to think about the 
mobile phone. We want our kids to be on computers, to have 
access to information. More and more schools require kids to be 
on computers to do their homework. It opens vistas to education 
that we haven't seen before. At the same time, we need to make 
sure--parents are concerned about, How do I make sure that 
while my kids are doing their homework, they're not accessing 
other kinds of information that are there?
    It's in our collective interest to give parents confidence 
that--and tools--to exercise the responsibilities that they 
want. I don't--I think there's no--every parent wants more and 
better quality programming across all media. No parent wants 
their kids exploited. And they want simple, easy-to-use tools 
that can help them exercise their choices. They prefer to do it 
themselves, and not have the government do it for them. And I 
think one of the things we can do with this inquiry is take a 
very hard look at what we can do to prompt innovation that I 
think parents want.
    What is the reason why there are more and better filtering 
tools on the Internet than there is with respect to television? 
Let's ask that question. Let's understand why that is. And 
let's see whether there are things that can be done to increase 
the level of innovation on all distribution platforms.
    Senator Pryor. Right. Let me also ask, while I have just a 
minute here, and that is--as I understand it, in 2007 the FCC 
began an inquiry about--you know, in response to whether 
educational and informational programming actually had any 
significant educational value. And you may not know, because 
you're new there, but do you know the status of that, and when 
the FCC will complete this review?
    Apparently, Dale Kunkel recently released a study that 
highlights this fact, that a lot of programming that may be 
called ``educational'' or ``informational'' really doesn't have 
any educational value.
    Mr. Genachowski. Yes. It's a concern that I've heard, and 
that I share. I don't have a timetable to share with you today 
on when the Commission will address it. I do think it's in 
everyone's interest for broadcasters, who have to comply with 
the Act, to understand what the rules are, so that there are no 
surprises.
    Senator Pryor. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Carrying on--the distinguished Chairman of the Consumer 
Subcommittee, who really does do an incredible amount of good 
work around here--I mean, whatever it is, he takes it on.
    My wife works for a Washington public television station, 
and you get the whole routine of children's programming. And 
one of the things, as I watch my grandchildren--I mean, the 
last several weeks has been a real education for me, because it 
has been a while since I've been around grandchildren. I watch 
them very closely, and I watch what they watch, and, boy, are 
they all over the place. And the oldest one is 4, and the 
second-oldest one is 1-and-a-half, and they've just mastered 
all of it. And it's just--it's amazing.
    And I'm thinking to myself, well, I mean, if you've got, 
like, Mr. Rogers, when he was around, and you've got Sesame 
Street, and they're around, and you've got all of these things, 
which have worked, traditionally, because they're considered 
safe and confidence-building, and they buy the little copies 
and products and--you know.
    I have absolutely no idea if, as generations are able to 
begin--and, granted, older than my grandchildren--to do all 
these multimedia convergences--whether the standard of 20 years 
ago, about what children should see and can hear and watch and 
learn from, get excited by--whether it still works, but, going 
right after Mark Pryor's question, whether it advances, 
according to what is appropriate these days, their knowledge.
    Mr. Genachowski. It's a good question. I grew up with 
Sesame Street and Zoom and other programs that I thought were 
great programs for the time. I'm sure if the generation before 
had seen those programs, and Oscar and Elmo jumping around, 
they wouldn't quite understand it. And every generation of kids 
finds different forms of entertainment compelling.
    I'm glad Gary Knell is here and, I think, he will be able 
to address these questions with respect to Children's 
Television Workshop, and Sesame Street 2.0.
    I'm not a programmer, and I don't pretend to know what kind 
of quality and educational programming will most attract 
viewers. I do believe that there are--that our creative talent 
can continue to develop high-quality educational programming 
that meets the evolving tastes and interests of children in a 
way that's consistent with standards that don't change: 
quality, education, giving parents something to choose for 
their kids that they actually like. I don't think that, if we 
think of this as medicine that our children have to take, we'll 
accomplish much. Kids won't watch it, and we'll have 
programming on TV that is like the tree falling in the forest. 
But, I do think we have enough creative talent that, if we can 
create platforms, create demand, and create choice, we can make 
progress.
    Let me add one thing to that. I think we have creative 
talent. I think we have demand on the part of parents. And I'm 
hopeful that technology can now bridge that, so that our 
creative talent can supply the demand for parents in a way that 
I hope, in a digital world, are supported by strong business 
models. And it'll--I look forward to hearing Gary Knell on this 
topic.
    The Chairman. OK. The FCC--this whole question of, How do 
you stimulate the production of educational programming for our 
youngest?--it's really--I've just got to say, at this point, 
it's a profoundly important question, to me. I almost, sort of, 
translate it into where our Nation is headed. And if we do this 
right, we can make an enormous difference. And if we do it 
wrong, we will get into the--all the kinds of violence and 
things, which is easy to attribute to TV, movies, or whatever. 
But, it is enormously important. It is enormously important in 
what it does to the American image overseas. They see things 
they cannot believe, and our kids are taking them for granted, 
and letting it roll off their back or letting it sink in, in 
unfortunate ways.
    Now, the broadcasters were required by the FCC to do 
something called the 3-hour rule. And those 3 hours had to be 
dedicated to programming which is really good for children. And 
it was designed for children. And it was not meant to deviate 
from their erudition. Do you believe the 3-hour rule is 
working? Under the Children's Television Act, the FCC has the 
authority to increase the 3-hour rule, unilaterally, and 
require more. Well, I guess I just said that. Is that something 
the agency would consider doing?
    Third, since the rule was adopted, the FCC has done, quite 
frankly, over recent years, quite frankly, very little to 
enforce it, and has very little--and has had very little 
interest in it. What can the FCC do better to monitor the 
quality of programs that are aired, to comply with this sort of 
3-hour rule?--if you can figure out where the 3 hours is. See, 
that's my problem. It used to be that kids did their homework 
starting at 7 o'clock or 6 o'clock, and went til 9 o'clock, so 
it was 7 o'clock to 10 o'clock. Now it's my impression that a 
lot of kids start doing their homework at 10 o'clock, so 
they're watching all the parental stuff, which isn't subject to 
any of this muster. So, ponder a little on that, will you? Out 
loud?
    Mr. Genachowski. I'd be happy to.
    The--let me start with your last point, which is, there 
have to be things that the FCC can do to give the public easy-
to-use access to the information the FCC has. An important part 
of the thinking behind the Children's Television Act, in its 
original implementation, was the public check on what 
broadcasters would be doing. And so, there are rules around 
identifying programs on TV as educational/information, putting 
the information in broadcasters' public files. Those rules, I 
think, made sense for the technologies, as they existed when 
the rules were implemented.
    We're now in an Internet world, where this information 
should be very easily accessible to parents. As I mentioned in 
my opening remarks, I've directed the Media Bureau at the FCC 
to revamp the portion of the FCC website that lists the shows. 
They should be easily accessible to parents. I'd like to think 
that the original philosophy of the Act, which is that sunlight 
can help make sure that we get quality programming--it at least 
needs a fair test. And it's not getting one now.
    With respect to your broader question--to me, the right 
next step for the agency to take is to analyze what really is 
going on in the marketplace, both with respect to broadcasting, 
with respect to cable, and satellite.
    Anecdotally, I think we can see areas of concern, and also 
some good news. There's programming available on cable that 
wasn't available 20 years ago, when the Act was passed. That's 
good news. That programming isn't available to Americans who 
don't have cable. I have questions about how easy it is for 
parents to find both the quality programming that's on cable 
and also the so-called EI programming that's on broadcasting.
    So, the inquiry that I expect the FCC will launch will look 
at the quantity issue that you raised, the quality issue that 
you raised, the parental-tools issue that you raised, and the 
enforcement issue that you raised.
    The Chairman. Mark, can I make one more comment?
    I have--just to emphasize my feeling about the importance 
of all this--I hardly go back to West Virginia but that I don't 
have a roundtable with parents, schoolteachers, psychiatrists, 
psychologists, principals, guidance counselors, who are scared, 
horrified, helpless, in many respects, who feel alienated from 
the process, who have absolutely no idea what the FCC does, 
because--well, I can talk about a website, you can talk about a 
website--well, what do they know about a website, unless 
they've heard about it?
    And they don't know what to do, and they desperately want 
to do well by their children, and they feel that they can't. 
I'm not asking for a response, I'm simply saying how important 
I think this is.
    Mark Pryor?
    [Off microphone.]
    The Chairman. No, it isn't.
    [Laughter.]
    Senator Pryor. I've totally just beaten him down and worn 
him out, so we're ready to----
    The Chairman. No, you can't beat him down, wear him out. 
I'll guarantee you that.
    [Laughter.]
    Senator Pryor. No, but thank you. I do thank you, Mr. 
Chairman.
    The Chairman. OK, now, do you have to go? I wanted to ask 
you another question.
    Mr. Genachowski. No, thank you, this--I'm--I, again, thank 
you, and commend the Committee and you for launching this 
inquiry. It's a very important topic, and America's parents are 
grateful that you're doing this.
    The Chairman. OK. I think that means he has to go, don't 
you?
    Senator Pryor. Yes, he does----
    [Laughter.]
    Senator Pryor. Thank you.
    The Chairman. All right. Well, bless you, and--dig in. I 
mean----
    Mr. Genachowski. Thank you.
    The Chairman. I mean, we are so lucky to have you, I cannot 
tell you.
    Mr. Genachowski. Thank you, sir.
    The Chairman. All right.
    [Pause.]
    The Chairman. Well, welcome. Are you all good friends and 
on speaking terms and all that kind of thing? We have a Nation 
to save, and a young generation to save, and an older 
generation to save.
    Let me introduce the panel. It's Mr. Gary Knell, who's 
President and CEO of Sesame Workshop, at One Lincoln Plaza. And 
I take it that means Lincoln Center.
    Mr. Knell. Right across the street.
    The Chairman. Yes, right across the street.
    Dr. Sandra Calvert--and here's where my West Virginia pride 
just starts----
    Dr. Calvert. Absolutely.
    The Chairman. I mean it's a very hokey thing to do----
    [Laughter.]
    The Chairman.--but I can't help it. You are considered an 
absolute master of the subject, and--I mean it--at the 
Children's Digital Media Center. And you work in Georgetown. 
And there are other kinds of titles and things, but we're going 
to wait to hear from you. And I'm really thrilled that you're 
here.
    Mr. John Lawson, Executive Director of ION Media Networks, 
of Arlington, Virginia.
    Ms. Cyma Zarghami, who is President of Nickelodeon, which 
my grandchildren watch a great deal, and the MTV and Family 
group, from New York.
    Mr. James Steyer--is that right?
    Mr. Steyer. Yes.
    The Chairman. I'm terrified of names like that.
    Mr. Steyer. You got it right, Senator.
    The Chairman. I did. OK.
    CEO of Common Sense Media--sounds like a very dangerous 
group----
    [Laughter.]
    The Chairman.--from San Francisco, California. Did you come 
all the way for this hearing?
    Mr. Steyer. I actually came from Lake Tahoe and my family 
vacation, so that's a really important hearing to be here for 
you.
    The Chairman. Well--have we got any chocolate chip cookies 
or anything?
    [Laughter.]
    The Chairman. Can we just start?
    And, incidentally, we're joined by our good Senator from 
Alaska. And he just got here too late to make a statement, 
don't you think, Mark?
    Senator Pryor. Just barely missed it.
    The Chairman. Just barely missed it, yes.
    [Laughter.]
    The Chairman. But, he is absolutely terrific. He's 47 years 
old, former Mayor of Anchorage. First term, walks in here, 
doesn't use a note, everything occurs up here, he seems to know 
everything. And he's part of the new eagerness of this 
committee, which I want to make very, very clear to you. We are 
a different committee. We have hired investigators, like Henry 
Waxman has. We look into dark corners. We want to know who's 
doing what. We love beating up on the insurance industry. And 
we're very, very good at it. And we don't want to have to do 
that on television.
    So, Mr. Gary Knell, can we start with you, sir?
    Senator Begich. Welcome.
    [Laughter.]

        STATEMENT OF GARY E. KNELL, PRESIDENT AND CEO, 
                        SESAME WORKSHOP

    Mr. Knell. Thank you very much, Mr. Chairman and members of 
the Committee. I'm Gary Knell. And we are delighted that you 
have a new vigor added to this committee, for one. And focusing 
on children's television, as you articulated, is so welcome, 
and so necessary, I think, as we move forward in the 21st 
century.
    You know, we're celebrating Sesame Street's 40th birthday 
already. And when you think about how much the world has 
changed in the last 40 years--it was started with the premise 
of using the power of television to teach preschoolers, and 
give them a heads up, to get them better prepared for school. 
And I think--you know, we all know about the success. I wish I 
could have brought Elmo; he would have been a much, you know, 
more vibrant witness than I am. But, he's busy taping and 
trying to do positive media for kids.
    So, today we focus again on the Children's Television Act. 
And there were two things, when Sesame Street was created, 40 
years ago, that were repeated in the Act. It was about trying 
to harness the power of children's--the educational role of 
media, because we knew that television was teaching. And, of 
course, what the Act focused on was limiting the negative 
impacts of our children's health that media sometimes, 
unfortunately, walks into.
    And since 20 years ago, as you pointed out earlier, and 
Chairman Genachowski pointed out, the whole idea of the Act 
promoting better media on broadcast stations or limiting 
commercial time on broadcast stations, was very well intended, 
but, in a 2010 context, in my view, almost irrelevant today, as 
we look at a world where your grandchildren will never know a 
world before cell phones, will never know a world before iPods, 
never know a world before Nintendo, Wii, or PlayStations, or 
DS, or iPods.
    So, everything is changed, Mr. Chairman, but the needs are 
the same. The needs are really about education for our kids, as 
we have 30 percent of our children in this company--in this 
country, rather--dropping out of high school. And we know, by 
the fourth grade, if they are not readers in an appropriate 
grade-level way, the chances of them dropping out of high 
school are so great.
    And today, we don't have as big a need in preschool 
programming. There's a lot of educational preschool 
programming. There were two preschool shows in 1988--Fred 
Rogers and Sesame Street; today there are 47.
    The big dearth is in 6- to 11-year-old programming, that 
critical age group when children go from ``learning to read'' 
to ``reading to learn.'' And that's where I think we need to 
take a look. And I hope that Chairman Genachowski, in his 
inquiry, will take a look at how we can incentivize the 
creation of educational content for this targeted age group 
that really needs our help, in terms of using media, which we 
know teaches, and making a difference in their lives.
    We're pleased that the new broadband act that you helped 
enact earlier this year promotes education in serving 
underserved communities. That's really important. We've got to 
make that stick.
    It's critically important, as we go through the next 
decade, as we are going to see a merger of formal learning, 
digital learning--more and more into our classrooms--and 
informal learning, at home. These things are going to get more 
merged as technologies get more sophisticated.
    And finally, on the public health issues--there are just 
huge public health issues. I want to just point to one. I 
chaired a task force for Senator Brownback, who's a member of 
this committee, and Senator Harkin, and the former FCC 
Chairman, Kevin Martin, to try to get voluntary guidelines 
around food marketing to kids. We made a lot of progress, but 
there were a couple of holes that still were not filled.
    One was, there's still confusion out in the marketplace 
about so-called ``uniform nutrition standards,'' so that 
parents understand, and broadcasters understand, and food 
companies understand, about what is a healthy food and what is 
an unhealthy food. These are things which I think our 
government still needs to focus on and clarify. And at the same 
time, media companies, who play such a strong gatekeeper role, 
whether they admit that or not, they are still in many ways a 
channel between a child and the content. How can they step up 
to understand their powerful role in making a difference in 
children's lives as we face this great epidemic around 
childhood obesity in this country, where children today are 
expected to live fewer years than their parents. There's a very 
important role that the media needs to play here.
    So, the importance of education continues in 2010, just as 
it did back in 1969 with Sesame Street, and in 1990 with the 
Children's Television Act, and the ability to promote media as 
a health solution, as opposed to part of the problem, are the 
two things I'd like the Committee to focus on as you hone in on 
taking a new look at children's television.
    Thank you.
    [The prepared statement of Mr. Knell follows:]

Prepared Statement of Gary E. Knell, President and CEO, Sesame Workshop
    Good afternoon, Chairman Rockefeller, Senator Hutchison, and 
distinguished members of the Senate Commerce Committee. Thank you for 
your leadership in holding today's hearing, ``Rethinking the Children's 
Television Act for a Digital Media Age.'' My name is Gary Knell, and I 
am the President and CEO of Sesame Workshop, the nonprofit educational 
organization that is perhaps best known as the independent producer of 
Sesame Street, now celebrating its 40th anniversary, and The Electric 
Company. We appreciate the opportunity to participate in this very 
important discussion, examining the intent and effect of the Children's 
Television Act in the new day of digital media and multiple screens. We 
are strongly committed to the belief that the media environment we 
create for our children today will have a lasting impact on their 
education and health, and ultimately, on our Nation's future.
    Forty years ago, in 1969, Sesame Street was created to help 
disadvantaged preschool children prepare for school. It was a 
groundbreaking experiment, proving that the power of television could 
be harnessed to educate our Nation's children. Once described by former 
FCC Chairman Newton Minow as ``a vast wasteland,'' \1\ television, we 
discovered in study after study through Sesame Street, had the power to 
positively impact children's educational and social-emotional 
development.
---------------------------------------------------------------------------
    \1\ Minow, Newton, ``Television and the Public Interest.'' Speech 
given at the National Association of Broadcasters, Washington, D.C., 
May 9, 1961. Available at http://www.american
rhetoric.com/speeches/newtonminow.htm.
---------------------------------------------------------------------------
    Understanding the potential benefits of television on our children, 
Congress passed the Children's Television Act of 1990. In doing so, 
Congress determined that market forces by themselves had not produced a 
sufficient amount of educational programming on commercial broadcast 
television and that government action was necessary.\2\ Accordingly, 
one of the legislation's main goals was to increase the amount of 
educational programming available to children. Another goal was to 
protect young viewers' vulnerability to commercial persuasion by 
limiting advertising time.\3\
---------------------------------------------------------------------------
    \2\ Federal Communications Commission Fact Sheet, ``Children's 
Television Programming,'' April, 1995. http://www.fcc.gov/Bureaus/
Mass_Media/Factsheets/kidstv.txt.
    \3\ Kunkel, D. and Wilcox, B. (2001). ``Children and Media Policy'' 
in D. G. Singer and J. L Singer (Eds.), Handbook of Children and the 
Media (pp. 589-604). Thousand Oaks, CA: Sage Publications.
---------------------------------------------------------------------------
    Since 1990, the media landscape has evolved such that there now 
exists tremendous consolidation of children's media in which the top 
three media companies (Nickelodeon, Disney and Cartoon Network) account 
for 92 percent of 6 to 11 year-olds' viewing on the main kids' 
broadcast and cable networks \4\ and control a lion share of the market 
on the web. Although these media companies offer our children some 
excellent entertaining and educational programs, consolidation has made 
it quite challenging for independent producers to emerge and prosper as 
the three maintain effective ``control'' of the means of content and 
the means of distribution.
---------------------------------------------------------------------------
    \4\ Nielsen Media Research. Marketbreaks. 9/28/08-6/29/09. K2-5 and 
K6-11 Live+7 AA(000). Percentage totals based upon the percentage of 
AA(000) for each network among the core kids' focused networks (PBS, 
Nickelodeon, Noggin, Nicktoons, The N, Disney Channel, Disney XD and 
Cartoon Network).
---------------------------------------------------------------------------
    Children are not only watching the television screen in the living 
room, but they are engaging with multiple screens. Television has gone 
everywhere, it has become interactive, and children are using it. 
According to the Kaiser Family Foundation, children ages six and under 
are spending about 2 hours a day with television, computers and video 
games, which is just about the same amount of time they spend playing 
outside and about triple the time they spend with books.\5\ Older 
children ages eight to 18 years spend six and a half hours a day with 
media for recreational purposes, which is more time than they spend 
doing anything else, except for sleeping.\6\
---------------------------------------------------------------------------
    \5\ Rideout, V., Vandewater, E. A. and Wartella, E. A. (2003). Zero 
to Six: Electronic Media in the Lives of Infants, Toddlers and 
Preschoolers. Menlo Park, CA: Henry J. Kaiser Family Foundation.
    \6\ Rideout, V., Roberts, D. and Foehr, U. (2005). Generation M: 
Media in the Lives of 8-18 Year-Olds. Menlo Park, CA: Henry J. Kaiser 
Family Foundation.
---------------------------------------------------------------------------
    Consider how quickly the media landscape is changing. The Pew 
Research Center's Internet and American Life Project offers an 
illuminating description of the evolving nature of media in a young 
person's life today. Imagine a child born in 1990, the year that the 
Children's Television Act was enacted. It was the same year that the 
World Wide Web was created. By the time this child was 3 years old and 
walking, the first web browser was used. When she was in first grade, 
instant messaging was available and Palm Pilots emerged in the 
marketplace. By second grade, blogging had begun. In third grade, TiVo 
and Napster could be used to access content; by sixth grade, she had an 
iPod. As a young teenager, at age 13 or 14, she could use social 
networking sites, tag online content, post photos online and download 
podcasts. Finally, when she was old enough to get her driver's learning 
permit, she could post on Facebook to spread the news to her 
friends.\7\ This child cannot remember a time when television or radio 
was the only way to access media. To this child, a computer screen is 
really not much different from a television screen, and in this rapidly 
evolving digital media world, these screens are converging everyday.
---------------------------------------------------------------------------
    \7\ Rainie, Lee, ``Teens and the Internet.'' Presentation of the 
Pew Internet and American Life Project at the Consumer Electronics 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="792a11160e5432101d0a3929151800">[email&#160;protected]</a> Summit. January 9, 2009. Available at 
www.pewinternet.org/Presentations/2009/Teens-and-the-internet.aspx.
---------------------------------------------------------------------------
    Yet while in some ways the world of children's media has changed 
completely since 1990, the irony is that, in other ways, it's exactly 
the same. Media content--whether it's delivered through the television 
screen, a hand-held device or in a video game--still plays a powerful 
role in children's education and if it is not harnessed to serve 
children's interests, can play a potentially negative role in their 
health and social-emotional development. So the issues that Congress 
raised in 1990 about a lack of children's educational media and an 
overabundance of marketing to kids are still the very issues that we 
must address today.
    In rethinking the Children's Television Act, therefore, we 
respectfully request that Congress:
    1. Incentivize the creation of more educational content to children 
across digital media platforms.
    While it appears that children have more choices available than 
ever before, the truth is that today's media environment is cluttered 
with all sorts of programming, some much better than others. From our 
point of view, there is a real lack of quality, educational content now 
for school-aged children, especially 6 to 9 year-olds. At a time when 
it is critical for these children to master certain literacy and 
numeracy skills, we do not have enough quality content to address this 
need. If America is to compete in a 21st century global world, as 
President Obama has stated, our children need a strong, competitive 
education. Digital media can be a powerful partner.
    Just as, looking at television, Congress created PBS and pushed 
commercial broadcasters to air educational/informational programming, 
we must now look inside today's tool kit to see how innovative 
technologies can be deployed to create a learning environment for our 
Nation's children.\8\ That is why we started the Joan Ganz Cooney 
Center for Educational Media and Research, exploring the ways in which 
digital media can promote literacy for our 6 to 9 year-olds and even 
accelerate their learning through video games, cell phones and other 
digital media. It is time for media at large to take on groundbreaking 
experiments in education, similar to the unchartered path Sesame Street 
embarked on 40 years ago, to raise the bar and think creatively on how 
we educate our children and prepare them for a global world.
---------------------------------------------------------------------------
    \8\ See ``Learning English, in Virtual World'' New York Times, July 
20, 2009, p. B7.
---------------------------------------------------------------------------
    Government can play a significant role in ensuring that media is 
harnessed in innovative ways to enhance and support our children's 
education. Here is one example. As the Federal Communications 
Commission considers how to develop a broadband strategy to best serve 
the nation, the educational needs of children must be a top priority. A 
national broadband plan must extend beyond hardwiring alone to include 
a content software strategy so that children can benefit from engaging 
educational content available online. And beyond the delivery of 
broadband, Congress should explore ways to ensure the creation of more 
and better educational content for children that could extend across 
media platforms and serve as powerful learning tools.
    2. Provide a better framework for protecting children's health in 
the digital age.
    As children now navigate the digital media landscape, they are now 
exposed to advertising and marketing across media platforms--on their 
favorite websites, in video games and on mobile devices. Congress has 
long recognized children's unique vulnerability to commercial 
persuasion which is why it set limits on advertising under the 
Children's Television Act.\9\ These rules should be updated for the 
digital age to reflect the dramatic changes in the children's media 
landscape.
---------------------------------------------------------------------------
    \9\ Kunkel, D. and Wilcox, B. (2001). ``Children and Media Policy'' 
in D. G. Singer and J. L. Singer (Eds.), Handbook of Children and the 
Media (pp. 589-604). Thousand Oaks, CA: Sage Publications.
---------------------------------------------------------------------------
    One relevant example has been the need to protect our children's 
health as they face a very serious public health crisis; this is the 
first generation of children whose life expectancy may be lower than 
that of their parents due to childhood obesity.\10\ While many factors 
contribute to this crisis, the Institute of Medicine has stated that 
food marketing is one of them.\11\ We know that a significant amount of 
marketing targeted to children, both on television and online, is food 
products,\12\ which nutritionists will tell you are too often not 
healthy. We also know that advertising and the use of licensed 
characters to promote certain foods influences children's preferences, 
purchase requests and consumption habits.\13\
---------------------------------------------------------------------------
    \10\ S. Jay Olshanksy, et al, ``A Potential Decline in the Life 
Expectancy in the United States in the 21st Century,'' New England 
Journal of Medicine: 352: 11: 1138-1145.
    \11\ Institute of Medicine, Food Marketing to Children and Youth: 
Threat or Opportunity, National Academy of Sciences Press, December 
2005.
    \12\ Rideout, V. (2007). Food for Thought: Television Food 
Advertising to Children in the United States. Menlo Park, CA: Henry J. 
Kaiser Family Foundation. Rideout, V. and Moore, E. (2006). It's 
Child's Play: Advergaming and the Online Marketing of Food to Children. 
Menlo Park, CA: Henry J. Kaiser Family Foundation.
    \13\ Institute of Medicine, Food Marketing to Children and Youth: 
Threat or Opportunity, National Academy of Sciences Press, December 
2005.
---------------------------------------------------------------------------
    Two years ago, I was asked to lead a joint Senate/Federal 
Communications Commission Task Force on Media and Childhood Obesity. 
Working with Senators Tom Harkin (D-IA) and Sam Brownback (R-KS) and 
former FCC Chairman Kevin Martin, I facilitated discussions with food 
companies, children's media companies and advertisers, along with 
public health and children's advocates, aimed at creating voluntary 
standards to increase exposure to healthy food messages and limit 
exposure to the unhealthy ones.
    While the Task Force made progress in achieving some of these 
voluntary industry commitments, two key issues were left unresolved. 
Primarily, we need to implement a uniform nutrition standard for food 
marketing to children. Right now, food/beverage companies each have a 
different definition for what constitutes a healthy food. This is 
ultimately confusing to parents and creates a situation where similar 
foods will be considered ``healthy'' by one company's criteria while 
``unhealthy'' by another company's criteria. Second, media companies 
need to step up their role in protecting children by monitoring their 
advertising environments. They need to do more to ensure that unhealthy 
food advertising is significantly reduced. ION Media has already 
restricted the airing of advertisements that don't meet nutritional 
standards in their children's programming.
    Given how much time children spend with media and the pervasiveness 
of food marketing across digital platforms, Congress should address 
this issue. The former United States Surgeon General identified 
childhood obesity as ``the fastest growing cause of disease and death 
in America.'' \14\ As Congress focuses on health care reform, the 
prevention of childhood obesity must be a top priority and successful 
outcomes will be a sure fire way to prevent huge costs to individuals 
and taxpayers later.
---------------------------------------------------------------------------
    \14\ Richard H. Carmona, ``The Obesity Crisis in America,'' 
Testimony of the United States Surgeon General before the Subcommittee 
on Education Reform, Committee on Education and the Workforce, U.S. 
House of Representatives, July 19, 2003. http://www.surgeongeneral.gov/
news/testimony/obesity07162003.html.
---------------------------------------------------------------------------
    In closing, I want to thank members of the Senate Commerce 
Committee for their leadership on helping focus attention on the needs 
of our Nation's children. As we consider how the children's media 
landscape has changed over the last 20 years, we must update the 
Children's Television Act into a Children's Media Act, if you will, 
which supports children's education in a competitive, global economy 
and also protects their health. Thank you and I am happy to answer any 
questions.

    The Chairman. No, thank you. And that's well said, had not 
previously been said.
    Dr. Sandra Calvert--once again, Director of the Children's 
Digital Media Center at Georgetown.

             STATEMENT PROFESSOR SANDRA L. CALVERT,

             PROFESSOR OF PSYCHOLOGY AND DIRECTOR,

                CHILDREN'S DIGITAL MEDIA CENTER,

        DEPARTMENT OF PSYCHOLOGY, GEORGETOWN UNIVERSITY

    Dr. Calvert. Good afternoon, Chairman Rockefeller and 
members of the Senate Committee on Commerce, Science, and 
Transportation.
    I am Sandra Calvert, a Professor of Psychology at 
Georgetown University, the Director of the Children's Digital 
Media Center, and a native of West Virginia.
    Twenty-first-century work skills require knowledge of, and 
a facility with, digital technologies. My own work at the 
Children's Digital Media Center, and that of my colleagues, 
includes an examination of how we can harness the power of 
21st-century digital media to enlighten and educate children, 
as well as prepare them for our future. The Children's 
Television Act is an important vehicle for accomplishing this 
goal.
    From the cradle throughout their development, children's 
lives are embedded in digital media. In the first 6 years of 
life, children spend an average of 2 hours per day in front of 
a screen. From age 8 through the adolescent years, the amount 
of media time jumps to 6\1/2\ hours per day, or to more than 8 
hours of daily use if multitasking is considered. While 
television is still the dominant medium of choice, newer 
interactive media are rapidly making inroads into children's 
daily media experiences.
    Congress recognized the potential of media for children's 
development when it passed the Children's Television Act in 
1990, which required broadcasters to provide educational and 
informational television programs to child viewers, as well as 
to restrict the amount of commercial advertisements broadcast 
during those programs.
    Since the passage of the Children's Television Act, 
commercial broadcasters have had to provide no more than a mere 
3 hours of educational television content per week. Even so, a 
2008 content analysis reported by Children Now revealed that 
children's educational television programs were educationally 
insufficient.
    With the implementation of digital television as the 
standard format for televised broadcast, the time to reconsider 
the requirements of the Children's Television Act is now. We 
have many children who are struggling or failing in school. Our 
children's standardized scores on mathematics, science, and 
reading literacy assessments trail behind their international 
peers. This state of affairs is appalling. Our country knows 
how to create quality media, and well-designed educational 
content is effective in lifting the scholastic success of our 
youth.
    Digital television allows broadcasters to transmit high-
definition images, multicast four to six channels in standard 
definition format, and provide ancillary services, such as 
interactive options. Noncommercial PBS stations are taking 
advantage of the newer digital media by creating website 
content that supplements the educational messages they transmit 
via television programs. These newer digital media interfaces 
allow children to create, to interact directly with educational 
material, and to extend the learning that they get from viewing 
television content to a different platform that allows them to 
control what they are learning at a rate that fits their own 
current skill level.
    The commercial broadcasters, by contrast, have been far 
less likely to take advantage of this powerful option. At this 
point, it is timely for the commercial broadcasters to return 
something in kind to the American public for the use of our 
bandwidth. Therefore, I recommend that Congress, in conjunction 
with the Federal Communications Commission, consider the 
following steps:
    One, require commercial broadcasters to expand their 
educational and informational program offerings on the airwaves 
and on websites.
    Two, expand the number of players who are part of the 
educational and informational mix. Those who create interactive 
media should be high on this list.
    Three, allocate funds for a center that is a public-private 
partnership to serve as a think tank for creating, for testing 
the efficacy of, and for distributing high-quality media, 
particularly interactive media.
    The Children's Television Act was passed by Congress almost 
20 years ago as a way to use our media in a constructive way 
for our children's development. The promise envisioned by 
Congress at that time, of a quality children's media 
environment, remains just that: a promise. I ask you to act so 
that the dream of a quality media environment for children can 
become a reality in the early part of the 21st century.
    Chairman Rockefeller and Committee members, thank you for 
your time. Please regard the Children's Digital Media Center as 
a resource to the Committee as you consider this and other 
issues.
    [The prepared statement of Dr. Calvert follows:]

    Prepared Statement of Professor Sandra L. Calvert, Professor of 
Psychology and Director, Children's Digital Media Center, Department of 
                   Psychology, Georgetown University
    Good morning, Mr. Chairman and members of the Senate Committee on 
Commerce, Science, and Transportation. I am Sandra Calvert, a Professor 
of Psychology at Georgetown University and the Director of the 
Children's Digital Media Center.
    Twenty-first century work skills require knowledge of, and a 
facility with, digital technologies. President Obama believes that 
education should be reformed, in part, by harnessing the power of 
digital technologies to transform the way that children learn in the 
21st century.\1\<SUP>,</SUP>\2\ My own work at the Children's Digital 
Media Center, and that of my colleagues, includes an examination of how 
we can use digital media to enlighten and educate children as well as 
prepare them for their future. The Children's Television Act is an 
important vehicle for accomplishing this goal.
---------------------------------------------------------------------------
    \1\ Issues: Technology. (2009). Office of Science and Technology 
Policy, Executive Office of the President. Retrieved July 20, 2009, at 
http://www.ostp.gov/cs/issues/technology.
    \2\ Issues: Education. (2009). Retrieved July 20, 2009 at http://
www.whitehouse.gov/issues/education.
---------------------------------------------------------------------------
    Knowledge of how to use digital media to educate and inform our 
youth is critical for our Nation's future. From the cradle throughout 
their development, children's lives are embedded in digital media. In 
the first 6 years of life, children spend an average of 2 hours per day 
in front of a screen.\3\ From age 8 through the adolescent years, the 
amount of media time jumps to 6.5 hours per day, or to more than 8 
hours of daily use if multitasking is considered. While television is 
still the dominant medium of choice for children and youth, newer 
interactive media are rapidly making inroads into their daily media 
experiences.\4\
---------------------------------------------------------------------------
    \3\ Rideout, V. J. and Hamel, E. (2006). Zero to six: Electronic 
media in the lives of infants, toddlers, and preschoolers. Menlo Park, 
CA: Kaiser Family Foundation.
    \4\ Roberts, D. F., Foehr, U. G. and Rideout, V. (2005). Generation 
M: Media in the lives of 8-18-year-olds. Menlo Park, CA: Kaiser Family 
Foundation.
---------------------------------------------------------------------------
    Congress recognized the potential of media for children's 
development when it passed the Children's Television Act in 1990, which 
required broadcasters to provide educational and informational 
television programs to child viewers as well as to restrict the amount 
of commercial advertisements broadcast during those programs.\5\ Since 
the passage of the Children's Television Act, commercial broadcasters 
have had to provide no more than a mere 3 hours of educational 
television content per week. Even so, a 2008 content analysis reported 
by Children Now revealed that children's educational television 
programs were educationally insufficient, not at all what Congress 
intended when it required commercial broadcasters to provide 
educational and informational (EI) television programs.\6\ While the 
success of this law remains a matter of public debate, what the 
Children's Television Act will mean in the 21st century is a key to 
children's future scholastic and occupational success.
---------------------------------------------------------------------------
    \5\ Children's Television Act of 1990 (CTA). (1990). Publ. L. No. 
101-437, 104 Stat. 996-1000), codified at 47 USC Sections 303a, 303b, 
394.
    \6\ Children Now. (2008, November). Educationally/insufficient? An 
analysis of the availability and educational quality of children's E/I 
programming. Accessed July 20, 2009 at http://
publications.childrennow.org/publications/media/eireport_2008.htm.
---------------------------------------------------------------------------
    With the implementation of the digital television as the standard 
format for televised broadcasts, the time to reconsider the 
requirements of the Children's Television Act is now. We have many 
children who are struggling or failing in school. Our children's 
standardized scores on mathematics, science, and reading literacy 
assessments trail behind their international peer group.\7\ This state 
of affairs is appalling. Our country knows how to create quality media, 
and well-designed educational content is effective in lifting the 
scholastic success of our youth. For instance, preschool-aged children 
who were frequent viewers of educational television programs such as 
Sesame Street and Mister Rogers' Neighborhood were more successful at 
school entry and during their high school years than those who viewed 
these kinds of programs infrequently.\8\ In addition, well-designed 
commercially broadcast educational and informational television 
programs are understood quite well by grade-school children, and many 
children view these programs on a regular basis. Consider the following 
academic science lesson reported online by a child who said that The 
Magic School Bus (originally broadcast by PBS but used as an 
educational and informational television program by FOX during the time 
that these data were collected) was his favorite program:
---------------------------------------------------------------------------
    \7\ National Center for Education Statistics. (2009). Comparative 
indicators of education in the United States and other G-8 countries: 
2009. U.S. Department of Education Institute of Education Sciences. 
Retrieved July 20, 2009, from http://nces.ed.gov/pubs2009/2009039.pdf.
    \8\ Anderson, D. R., Huston, A. C., Schmitt, K. L., Linebarger, D. 
L., and Wright, J. C. (2001). Early childhood television viewing and 
adolescent behavior. Monographs of the Society for Research in Child 
Development, 66, vii-156.

        I watched The Magic School Bus. The episode that I watched was 
        the episode where all of the class except for Arnold go into 
        Arnold's body. By watching The Magic School Bus I learned that 
        the villi is what sucks up the food in the small intestine. And 
        I learned that all of the water is sucked out of the food in 
        the large intestine. I also learned that not all food can be 
        completely broken down. The episode also told me that the food 
        that can not be completely broken down remains in a solid form 
        when you eliminate it. And the food that is completely broken 
        down comes out as a liquid.\9\
---------------------------------------------------------------------------
    \9\ Calvert, S. L., and Kotler, J. A. (2003). Lessons from 
children's television: Impact of the Children's Television Act on 
children's learning. Special issue of the Journal of Applied 
Developmental Psychology, 24, 275-335.

    Noncommercial PBS stations are taking advantage of the newer 
digital media by creating website content that supports and supplements 
the educational messages they transmit via television programs. These 
newer digital media interfaces allow children to create, to interact 
directly with educational material, and to extend the learning that 
they get from viewing television content to a different platform that 
allows them to control what they are learning at a rate that fits their 
own current skill level.\10\ Interactive media can create scaffolds 
that build on individual knowledge bases, thereby maximizing 
effectiveness. The commercial broadcasters, by contrast, have been far 
less likely to take advantage of this powerful option. Financial 
incentives or legal restrictions are simply not present to press the 
commercial broadcasters to meet their 21st century responsibility for 
educating our youth.
---------------------------------------------------------------------------
    \10\ Calvert, S. L., Strong, B. L., Jacobs, E. L. and Conger, E. E. 
(2007). Interaction and participation for young Hispanic and Caucasian 
children's learning of media content. Media Psychology, 9(2), 431-445.
---------------------------------------------------------------------------
    Our Nation missed a golden opportunity to expand the Children's 
Television Act when we gave a gift of new bandwidth to the existing 
commercial broadcasters. Digital television allows broadcasters to 
transmit high-definition images, multi-cast 4-6 channels in standard 
definition format, and provide ancillary services such as interactive 
options and video on demand.\11\ The Federal Communications Commission 
(2004) ruled that broadcasters had to provide educational and 
informational programs that were consistent with the total amount of 
time they had available to broadcast programs.\12\ Many of the 
commercial broadcasters, however, did not choose to use that new public 
bandwidth to create multiple channels that would have required them to 
expand their educational and informational television programs.
---------------------------------------------------------------------------
    \11\ Federal Communications Commission (2000). In the matter of 
children's television obligations of digital television broadcasters: 
Notice of proposed rulemaking. (FCC MM Docket No. 00-167).
    \12\ Federal Communications Commission (2004). In the matter of 
children's television obligations of digital television broadcasters: 
Report and order and further notice of proposed rulemaking. (MM Docket 
No. 00-167).
---------------------------------------------------------------------------
    At this point, it is timely for the commercial broadcasters to 
return something in kind to the owners of our airwaves--the American 
public--for the use of our bandwidth. Therefore, I recommend that 
Congress, in conjunction with the Federal Communications Commission, 
consider the following avenues to take advantage of the potential of 
our newer digital media:

        1. Require commercial broadcasters to expand their educational 
        and informational program offerings. Expansion could be 
        accomplished by increasing the number and kind of educational 
        and informational television program offerings broadcast for 
        children on a weekly basis and by creating websites of existing 
        programs that will supplement those messages.

        2. Expand the number of players who are part of the educational 
        and informational mix. Those who create interactive media 
        should be high on this list. Tax incentives can sweeten the pot 
        for broadcasters and other relevant businesses that create 
        quality media for children.

        3. Take steps to facilitate a constructive conversation among 
        broadcasters, academics, policymakers, and public interest 
        groups who are concerned with quality children's media. In 
        particular, I recommend that the government establish and 
        allocate funds for a Center that is a public-private 
        partnership. By bringing diverse groups to the same table, an 
        innovative approach for creating quality children's media 
        content could be fostered. This Center could serve as a think 
        tank for creating, for testing the efficacy of, and for 
        distributing high quality media, particularly interactive 
        media.

    The Children's Television Act was passed by Congress almost 30 
years ago as a way to use our media in a constructive way for our 
children's development. The promise envisioned by Congress at that time 
of a quality children's media environment remains just that: a promise. 
I ask you to act so that the dream of a quality media environment for 
children can become a reality in the early part of the 21st century.
    Chairman Rockefeller and Committee members, thank you for your 
time. Please regard the Children's Digital Media Center as a resource 
to the Committee as you consider this and other issues.

    The Chairman. We surely will. And I like your idea very, 
very much.
    Dr. Calvert. Thank you.
    The Chairman. Dr.--sorry, John Lawson--you may be a 
doctor----
    Mr. Lawson. I'm not, sir, but I've played one on 
television.
    [Laughter.]
    The Chairman. OK. I love that.
    Executive Vice President, ION Media Networks, from the 
distant City of Arlington, Virginia.

 STATEMENT OF JOHN LAWSON, EXECUTIVE VICE PRESIDENT, ION MEDIA 
    NETWORKS, INC. ON BEHALF OF THE NATIONAL ASSOCIATION OF 
                          BROADCASTERS

    Mr. Lawson. Thank you, Mr. Chairman, Senator Pryor, Senator 
Begich. Thank you very much for having me here to discuss 
broadcasters' continuing dedication to children's television 
and the groundbreaking efforts made by ION Media in this area.
    I'm John Lawson, Executive Vice President of ION Media 
Networks, which is the Nation's largest broadcast television 
group.
    I testify today in my role as a member of the NAB Board of 
Directors of the National Association of Broadcasters, and, 
more importantly, as a parent. And I'm happy, Mr. Chairman, 
that my wife, Nan, and twin sons, Jackson and Thaddeus, are 
here with me today.
    The Chairman. Right over there?
    Mr. Lawson. Yes, sir.
    The Chairman. You know, they are such great-looking kids.
    [Laughter.]
    The Chairman. And I have been wondering, so I want them to 
stand up.
    Mr. Lawson. They take after their mother.
    [Applause.]
    The Chairman. You're right about that.
    [Laughter.]
    The Chairman. Thank you, boys.
    Mr. Lawson. I hope that statement added credibility to the 
rest of my statement.
    Senator, we don't--we live in Virginia, but we do have a 
home in West Virginia that we love.
    Voice. It's a conspiracy.
    [Laughter.]
    The Chairman. This is not a conspiracy. I am locationally 
neutral.
    [Laughter.]
    Mr. Lawson. Mr. Chairman, to make certain, ION and local 
television stations across the country share Congress's goal of 
promoting quality educational and informational children's 
programming. I don't think it's lost on anyone that children 
are a precious resource, and we must provide them with the 
tools to allow them to succeed.
    To this point, local broadcasters remain the foundation in 
communities across the country as the leading source of news, 
safety information, culture, education, entertainment, and 
sports.
    As we look at the Children's Television Act, almost 20 
years after enactment, a number of issues surface. First, local 
broadcasters continue to provide high-quality, diverse 
educational and informational programming to meet the needs of 
these young viewers; and with DTV, we're doing even more.
    Thanks to the efforts of you, Chairman Rockefeller, and the 
leadership of this committee, full-power broadcasters have now 
successfully transitioned to all-digital broadcasting. On June 
12, America became the first large country in the world to 
complete the transition to DTV, and millions of households 
across the country are now enjoying dramatically better 
pictures and sound, as well as new platforms for children's 
programming.
    For example, ION airs three digital multicast streams that 
include Qubo, a full-time kid's channel, that fills the gap, 
that Gary was mentioning, between preschool and 'tween 
channels. We also broadcast ION Life, a channel dedicated to 
active living, as well as our main service, ION Television. 
Broadcasters are also preparing to deploy mobile DTV that would 
allow anyone with an enabled cell phone or laptop to receive 
free television wherever they go.
    And, Mr. Chairman, I'm very proud that I can demonstrate, 
for you and the Committee, mobile digital television. This is 
our kid's service, Qubo, displayed through an over-the-air 
signal, coming from our local ION station on an LG cell phone 
that was equipped to receive mobile television. And we will be 
displaying these and other devices at a hearing--at an event on 
the House side next week.
    So this is DTV, sir, this is----
    The Chairman. I'm impressed, I would love to be able to see 
it.
    Mr. Lawson. I will----
    [Laughter.]
    Mr. Lawson.--be glad to bring it to you, Mr. Chairman, at 
your convenience.
    In fact, I'll close it now so it won't distract me.
    [Laughter.]
    Mr. Lawson. So, we're excited by DTV and the new services 
it brings, including mobile. Since its debut in 2007, Qubo 
remains the only 24/7 children's television service, the only 
one that is distributed nationally, free, and over the air. 
This groundbreaking bilingual destination for children features 
programs that focus on literacy, values, and healthy 
lifestyles, and celebrates the unlimited possibilities of a 
child's imagination.
    Moreover, Qubo recently voluntarily adopted a set of 
nutritional guidelines for acceptable foods that can be 
advertised on-air. Qubo has been called the ``gold standard'' 
in the media's efforts to combat childhood obesity. And we 
commend Senator Brownback, and others, for their work in this 
area. We hope these efforts send a strong message to parents, 
policymakers, and business partners about our dedication to the 
wellness of America's kids.
    At this time, however, we hope this committee will examine 
and support ways to encourage distribution for broadcasters 
like ION who are attempting to provide positive media 
alternatives to children and families. As recognized in today's 
hearing, parents have abundant additional choices, beyond the 
services provided by the Nation's commercial broadcast 
stations, of programming that is specifically designed to meet 
their needs. Children access media through a number of devices 
and services, including cable and satellite, DVDs, videos, and 
game systems, not to mention the Internet.
    And, of course, in any discussion of children's programs, 
we must make special mention of the efforts of our 
noncommercial educational stations, which have enriched the 
lives of American children for years. And I'm honored to be on 
this panel with my friend, Gary Knell.
    As we sit here today, broadcasters are looking ahead to the 
next 20 years of children's television. First and foremost, we 
remain committed to providing quality children's educational 
and informational programming that serves the public interest. 
At the same time, we must also remain vigilant against content 
that is not suitable for young children. In this regard, we 
must utilize technologies and the most effective tool of all: 
parental control. Broadcasters also recognize the leadership of 
Senator Pryor in this area, and agree on the importance of 
continued innovation.
    In conclusion, broadcasters look forward to working with 
this committee as it reexamines the Children's Television Act. 
Broadcasters' commitment to children is not limited to 3 hours 
a week. As many of you know, and it's highlighted in my written 
testimony, broadcasters work very closely every day to serve 
their local communities.
    And again, thank you for the opportunity to speak with you 
today about this important subject, and I look forward to 
answering any questions you may have.
    [The prepared statement of Mr. Lawson follows:]

Prepared Statement of John Lawson, Executive Vice President, ION Media 
  Networks, Inc. on Behalf of The National Association of Broadcasters
    Good afternoon Chairman Rockefeller, Ranking Member Hutchison and 
members of the Committee. My name is John Lawson and I am the Executive 
Vice President of ION Media Networks, Incorporated. I am also a member 
of the Board of Directors of the National Association of Broadcasters 
(NAB), on whose behalf I am testifying today. NAB is a trade 
association that advocates on behalf of free, local radio and 
television stations and also broadcast networks before Congress, the 
Federal Communications Commission (FCC) and other Federal agencies, and 
the courts.
    I am pleased to appear before you to speak about broadcasters' 
continuing dedication to children's television and to the 
groundbreaking efforts made by ION Media in this area. But before I 
discuss children's television, I want to thank this Committee for its 
leadership and commitment to the television industry switch to all-
digital broadcasting. On June 12, some 971 full-power television 
stations in 195 markets ceased analog broadcasting. They joined the 
over 800 stations that had already made the switch, thereby completing 
the shift of all full-power television stations to digital 
broadcasting. America is the first large country in the world to 
complete the transition to digital television (DTV), and millions of 
households across the country are now enjoying dramatically better 
pictures and sound in digital. Free high definition broadcasts are also 
available in every market in the country with just an antenna and a DTV 
set. In addition, viewers now benefit from the hundreds of stations 
that use digital technology to air new, free (multicast) channels 
carrying a wide variety of programming, including news, weather, 
sports, and foreign language programming. And exciting new digital 
services, including Mobile DTV, are being developed and launched by 
America's broadcasters.
    Utilizing the extra months made possible by the DTV Delay Act, NAB 
worked closely with the FCC, the Commerce Department's National 
Telecommunications and Information Administration (NTIA), state 
broadcast associations and the 241-member DTV Transition Coalition to 
extend a robust two and one-half year consumer education campaign that 
drove viewer awareness and action on the transition to near-universal 
levels. And I want to assure you that broadcasters will continue to 
work in the days and weeks ahead to resolve any remaining reception 
issues and lend a helping hand to consumers that still may need 
assistance.
I. ION Media Networks Has Created an Entire Broadcast Channel 
        Dedicated to Serving Children and Families
    ION Media Networks owns and operates the largest U.S. broadcast 
television station group and ION Television, the country's only 
independent broadcast television network. ION Television is broadcast 
on its owned stations in each of the top 20 U.S. markets and 39 of the 
top 50, reaching over 96 million U.S. television households. ION Media 
Networks has 59 full-power broadcast television stations.
    Reflecting ION's dedication to serving the public interest with 
quality programming, we provide family-friendly, high-quality 
educational programming for kids and their parents. Our brand Qubo 
originated in May 2006 when ION, NBC Universal, Scholastic 
Entertainment, Corus Entertainment and Classic Media, announced their 
plan to launch a new entertainment network that views the FCC's 
children's educational and informational television requirements not as 
an obligation, but as the core of its proposition. Beyond ION's digital 
broadcasting outlets, this collaboration extends to an interactive 
website visited by millions of families every month, the educational, 
literary, and creative assets of Scholastic, and the combined content 
libraries and production facilities of Nelvana, Classic Media, Big 
Idea, and NBC Universal, which also dedicated its Saturday morning 
lineups to Qubo programming. Additionally, Telemundo airs Qubo 
programming in Spanish on weekend mornings.
    Qubo launched its dedicated 24-hour digital channel across ION's 
nationwide station group in January 2007. Since its debut, Qubo 
continues to be the only full-time children's television service that 
is distributed nationally, for free over-the-air on a 24/7 basis. Qubo 
features a line-up of popular educational children's programming from 
the libraries of Qubo's leading content partners, including Nelvana's 
Jane and the Dragon, NBC Universal's Boo!, Classic Media's 3-2-1 
Penguins, and Scholastics's Dragon. ION stations offer the Qubo channel 
on one of their free-over-the air digital broadcast feeds.
    With its own dedicated channel, our goal at ION is that Qubo 
becomes a popular destination for children and their parents in the 
digital age, especially when Qubo expands its reach to other markets 
nationally by securing carriage on cable and satellite systems. 
Currently, AT&T's U-verse TV and Verizon FiOS TV, Mediacom 
Communications, several of Comcast's local systems, and a number of 
smaller cable systems carry Qubo. Speaking on behalf of ION, we hope 
this Committee will examine and support distribution for broadcasters 
like ION who are attempting to provide positive media alternatives for 
children and families.
II. Qubo Programming Serves the Needs and Interests of Children
    Qubo is a groundbreaking bilingual, multi-platform entertainment 
destination for children, featuring programs that focus on literacy, 
values, and healthy lifestyles and that celebrate the unlimited 
possibilities of a child's imagination. A very high percentage of 
Qubo's 24/7 programming meets the FCC's educational and informational 
(E/I) requirements. All of the programming aired on ION TV, NBC and 
Telemundo is E/I programming. Several of Qubo's most popular shows are 
also aired in Spanish on Telemundo on weekend mornings. Most of Qubo's 
shows are associated with popular children's books, and the network's 
interstitial programming also reinforces messages about early literacy 
and healthy living.
    For example, Qubo recently voluntarily adopted a set of nutritional 
guidelines for acceptable foods that can be advertised on air. To 
create these nutritional guidelines, Qubo enlisted the help of 
nationally renowned author and expert on childhood obesity, Goutham 
Rao, MD., clinical director of the Weight Management and Wellness 
Center at the Children's Hospital of Pittsburgh and a member of the 
faculty at the University of Pittsburgh School of Medicine. The 
guidelines list acceptable nutritional intake limits for meals and 
snacks broken down by calories, grams of fat, as well as saturated and 
trans fats, sugar, protein, fiber and sodium. We are committed to 
combating childhood obesity through all of our networks, digital, 
online and mobile, and we hope that our guidelines send a strong 
message to parents, policymakers and business partners about our 
dedication to the wellness of America's kids.
    Offering educational and informational programming is a 
responsibility that broadcasters take very seriously. We regard serving 
our child audiences as an integral part of our duty to serve the public 
interest. As parents, we recognize that our children are our most 
precious resource. And broadcasters are pleased with our collaboration 
with Congress, the FCC and children's advocates during the past several 
years to address challenging issues, such as the quantitative 
guidelines established by the FCC for stations' airing of children's E/
I programming; appropriate displays of Internet website addresses 
during children's programming; and limitations on preemptions of 
children's programming. NAB previously described some of the high 
quality, diverse programming offered by television stations throughout 
the country in a submission to the FCC, which is attached to my 
testimony.
    At ION, we are very proud of the programming we offer, both at Qubo 
through our network partners at NBC Universal and Telemundo. Some 
examples of the outstanding educational and informational programming 
we air for young children include:

  <bullet> My Friend Rabbit (Mi Amigo Conejo) is based on an award-
        winning book by the same title. The lead characters, Rabbit and 
        Mouse, work together to tackle challenges that are 
        characteristic of the childhood experience. In each episode 
        they face a unique dilemma that compels them to think 
        creatively about how to approach and solve their problem by 
        trying out different solutions and persisting with new ideas 
        when one fails.

  <bullet> By reaching pre-kindergarten and early elementary students, 
        The Zula Patrol (La Patrolla Zula) can provide a critical 
        foundation in understanding science concepts and content. This 
        television program provides science education and character 
        building lessons in an entertaining format through characters 
        that travel in space. The Zula Patrol's comprehensive program 
        addresses the national call for science literacy education 
        among the very audience for whom research demonstrates that 
        early intervention is the most effective.

  <bullet> 321 Penguins (321 Penguinos) features two children, Jason 
        and Michelle, whose vacation at their grandmother's cottage 
        ends up being more adventurous than they expect when their toy 
        spaceship with four toy penguins comes to life. Each story 
        begins with a moral dilemma that affects one of the siblings' 
        relations with the other, and ends after the children have 
        learned an important social emotional message through their 
        adventure. The show communicates messages on topics such as 
        honesty, being patient with others, and jealousy.

  <bullet> Based on the popular books by Laurent de Brunhoff, Babar is 
        an animated show about a young orphaned elephant who finds the 
        strength to rise above the challenges he faces as he journeys 
        through life. Babar and his family experience many challenges 
        and they learn to rise above them through strength and 
        optimism. Each episode of the show communicates social 
        emotional messages that draw upon the bond of family and 
        combine traditional values with a modern lifestyle.

  <bullet> Turbo Dogs (Perros Turbo) is an animated show based on the 
        books Racer Dogs by Bob Kolar. The series follows a group of 
        six dogs from Racerville who love to compete with one another 
        in races. In each story, one or more of the dogs encounter and 
        solve problems that teach them social emotional lessons on good 
        sportsmanship, teamwork, cooperation, playing fair, and 
        friendship using action and humor. The show also imparts 
        information on the mechanics of racing, such as directionality 
        and the concepts of time and distance. The tags at the end of 
        each episode reiterate and establish the educational message 
        learned by the dogs.

  <bullet> Postman Pat takes place in an English village and mines the 
        social interdependencies of rural life for teaching children 
        about problem solving and getting along with others. Postman 
        Pat has a mail route that takes him throughout the countryside 
        delivering mail and advice to his constellation of neighbors. 
        While Pat may encounter a problem of his own, he also 
        frequently comes to the aid of his friends and family who run 
        into seemingly unfixable dilemmas drawn from everyday life. 
        Within each episode, the characters learn, for example, how to 
        get things done on time, fulfill their commitments, work 
        cooperatively as a team, have confidence in their abilities, 
        and are inclusive of others in order to get along. Children 
        will see adults and children living and interacting with others 
        respectfully and thoughtfully in trusting and kindhearted 
        relationships.

  <bullet> Set in medieval times, Jane and the Dragon is an animated 
        show that hails from Martin Baynton's best-selling book about a 
        middle class girl named Jane. Jane is raised in the Royal Court 
        as a Knight in Training after she demonstrates her courage by 
        leaving the castle to conquer the local dragon. In each 
        episode, Jane encounters a challenge that tests her problem 
        solving skills and requires her to demonstrate her strength of 
        character as a Knight of the King's Guard. Sometimes Jane 
        learns a moral lesson, and other times she uses her analytical 
        ability to illustrate how a problem can be made less 
        complicated and easily solved.

    Beyond its quality television offerings, Qubo also maintains an 
interactive website, www.Qubo.com, that extends Qubo's educational 
programming beyond the television set. The website content includes 
episodes and clips from series including those listed above. In 
addition to these videos, and information about Qubo programming, the 
website maintains web-based games which are free to play online and are 
based on show characters and themes. Some of these games are 
educational, such as Babar's Painting Game, which promotes creativity, 
and problem-solving puzzle games, such as Babar's Hedge Maze and 
Zephir's Card Trick. The Qubo website is compliant with the Children's 
Online Privacy Protection Act and other safety measures to help protect 
children.
III. Broadcasters' Commitment To Children Is Exemplary
    Broadcasters' service to children in their local communities goes 
well beyond the airing of educational, informational and entertainment 
programming. From fundraisers, to public service announcements (PSAs) 
to community outreach, every day across the nation, radio and 
television stations are committed to ensuring that they serve child 
audiences and address issues affecting children and their families. 
Here are some recent examples of broadcasters' service:

  <bullet> Evan Thompson had a wish very close to the heart of the 
        staff at WGCL-TV in Atlanta, Ga. The child with neuroblastoma 
        wanted his own television show. WGCL lent the use of its 
        studio, and with the help of Make-A-Wish, Thompson's dream came 
        true. As media sponsor for all local Make-A-Wish events, WGCL 
        has a hand in bringing hope and joy to many young Atlantans. 
        PSAs, live remotes, news stories, website support and staff 
        participation in Make-A-Wish events are all part of the 
        partnership. The station aids with fundraising by promoting the 
        annual Celebration of Wishes Gala on the air. This past year, 
        anchor Bill Gaines emceed the event, which raised $350,000. 
        During the holiday season, the station participated in the 
        ``Stories of Light Wish-A-Thon,'' a five-day news campaign, 
        which allowed children to tell their wish stories and 
        encouraged viewers to visit the station website and donate to 
        the foundation. Money raised goes toward the 400 wishes planned 
        this coming year for local children. ``A dedicated and dynamic 
        media partner to Make-A-Wish, WGCL has effectively spread the 
        word about our wish children,'' said Chandra McLean, 
        communications and marketing manager for Make-A-Wish Foundation 
        of Georgia and Alabama. ``We have received numerous e-mails and 
        phone calls from people in the community who have been 
        motivated to share the power of a wish after tuning in to WGCL 
        and watching children's dreams become reality.''

  <bullet> Helping children find ``forever homes'' is one of the many 
        ways KDAF-TV in Dallas, Texas, puts its community first. The 
        station's ``A Child to Love'' program, which involves the 
        Gladney Center for Adoption and the Texas Department of Family 
        and Protective Services, is now in its third year. Each week, a 
        child in need of a permanent home is featured during the Monday 
        ``News at Nine'' broadcast. The station promotes the segment 
        with PSAs profiling the child and through the station's 
        website. Since its inception, the station has shared the 
        stories of 167 children, 74 of whom have found permanent homes. 
        Last year, the station celebrated the airing of its 100th child 
        profile with its Dolls & Balls Toy Drive, Easter Egg Hunt and 
        Adoption Expo. At the event, viewers donated toys for children 
        in foster care, 100 foster children participated in an egg hunt 
        and information about adoption was distributed to prospective 
        families. The station's efforts to produce, promote and air ``A 
        Child to Love'' total more than $160,000 in donated airtime 
        annually. KDAF was the recipient of the 2007 Bonner McLane 
        Public Service Award presented by the Texas Association of 
        Broadcasters.

  <bullet> Whether it's a tip on how to wear a bike helmet properly or 
        encouragement to stand up and tell the truth, KUSI-TV in San 
        Diego, Calif., has dedicated a regular PSA series to its 
        youngest audience. The station's ``Tips for Kids'' campaign 
        provides advice on an array of topics and airs each Saturday 
        during the station's children's programming. In addition to 
        tips featuring KUSI news anchors and reporters, this year the 
        station gave kids the opportunity to share tips with their 
        fellow youngsters by inviting all first- through sixth-grade 
        teachers in the county to write PSAs with their classes. 
        Morning meteorologist Renee Kohn, accompanied by a camera 
        person, visited each school to record the announcements. During 
        these classroom visits, the children also appeared live on 
        ``Good Morning San Diego,'' where they were able to pass along 
        their tips to the many adults tuned in throughout the viewing 
        area.

  <bullet> The creativity of staff at KNIN-TV in Boise, Idaho, provided 
        Northwest Children's Home with an award-winning PSA, which uses 
        animation to show the safe haven the organization represents 
        for troubled girls. These animated drawings have become the 
        ``face'' of the group's brand. The detailed process of creating 
        the PSA started with the station arranging for still photos to 
        be taken of models; these photos were transformed into line 
        drawings and, finally, animation accompanied by a voiceover 
        that explains what the organization does and how the community 
        can support it. The station has played the PSA year-round for 3 
        years, updating it as needed. In the upcoming year, when the 
        children's home celebrates its 100th year, the station will 
        provide 30-second spots that feature the achievement. Northwest 
        Children's Home also receives inclusion of its events and 
        fundraisers on the station's community calendar and a link to 
        the organization from the station's website.\1\
---------------------------------------------------------------------------
    \1\ Numerous other examples of broadcasters' service to their 
communities generally and to children specifically can be found at 
http://www.broadcastpublicservice.org/campaigns.asp.
---------------------------------------------------------------------------
IV. Broadcasters Are Looking Ahead to the Next 20 Years of Children's 
        Television
    Broadcasters remain fully committed to providing quality children's 
educational and informational programming. Simultaneously with their 
on-going efforts to serve children and the public interest, local 
broadcasters are striving to ensure economic survival during these 
challenging times for broadcast stations and, indeed, for all 
advertising-supported media. Television stations are developing 
exciting new digital applications, such as new free, digital channels 
and Mobile DTV, to retain and attract viewers in a rapidly changing 
media environment. If anything, reaching young viewers may be 
broadcasters' greatest challenge because children and teenagers today 
routinely utilize other media, especially DVDs, the Internet and video 
games.
    Clearly, the electronic media landscape has changed dramatically 
since the Children's Television Act of 1990 \2\ was first enacted. 
According to SNL Kagan, in 1990 cable and satellite penetration was at 
less than 58 percent; today it is at nearly 84 percent. Full time 
children's cable channels such as Nickelodeon, Noggin' and the Disney 
Channel were not available. The Internet and its vast offerings simply 
did not exist for consumers. In addition to all the child-oriented 
video programming available through other platforms, broadcasters are 
providing an abundance of high quality programming meeting the needs of 
children, as detailed in NAB's attached comments to the FCC. And of 
course in any discussion of children's television, we must make special 
mention of the educational programming aired by our noncommercial 
educational stations, which have enriched the lives of American 
children with programs such as Sesame Street, Clifford the Big Red Dog 
and Maya and Miguel. Public television stations have also begun to 
utilize their multicasting capabilities to aim channels at child 
audiences.
---------------------------------------------------------------------------
    \2\ Children's Television Act of 1990, Pub. L. No. 101-437, 104 
Stat. 996-1000, codified at 47 U.S.C.  303a, 303b, 394.
---------------------------------------------------------------------------
    Today, children and parents have at their disposal a multitude of 
broadcast and non-broadcast choices for video programming specifically 
designed for children. Technological developments will also continue to 
aid parents in selecting appropriate video programming for their 
children. We agree with Senator Pryor about the importance of continued 
innovation in this area. Both NAB and ION are participating in the 
FCC's current examination of parental control technologies, on which 
the agency will report to Congress later this year. The television 
industry voluntarily developed the current TV parental guidelines over 
a decade ago as a simple-to-use ratings system to help parents manage 
the television viewing of their children. The industry has invested 
substantial resources in educating parents about the ratings system and 
the V-chip, and has established a Monitoring Board to respond to 
consumer questions and complaints about the guidelines and to help 
ensure that the ratings are applied as accurately and consistently as 
possible to television programs. As a result of these efforts, the 
overwhelming majority of parents are aware of the guidelines and the V-
chip, and the vast majority of parents using these tools find them to 
be helpful in managing their children's television viewing.\3\
---------------------------------------------------------------------------
    \3\ See The Henry J. Kaiser Foundation, Parents, Children and 
Media: A Kaiser Family Foundation Survey, at 8, 10, 20-21 (June 2007).
---------------------------------------------------------------------------
    Furthermore, there are a number of other tools available to parents 
today (including cable and satellite set-top boxes) for monitoring 
their children's viewing of video programming. Additional tools are 
coming to market for a variety of video platforms, and the government 
can play an important role in encouraging the use and development of 
such technologies. However, government intervention, in the form of a 
mandatory ratings system or technology mandates, would likely deter 
innovation and investment in new solutions and limit parental options 
for supervising their children's television viewing.
    In light of all these developments, broadcasters urge this 
Committee to look carefully at how children receive their educational, 
informational as well as entertainment programming in the current 
diversified, online and broadband-enriched environment. Policymakers 
must take all these far-reaching technological and marketplace changes 
into account when evaluating the children's programming requirements 
placed on local television stations.\4\ Given today's diverse array of 
video options, children may well prefer to receive their programming 
from non-broadcast sources such as cable channels dedicated to kids' 
programming, DVDs or on-line. Thus, children's programming regulations 
applicable only to local television stations may not serve child 
audiences or the public interest effectively.
---------------------------------------------------------------------------
    \4\ See, e.g., Children's Television Report and Policy Statement, 
50 FCC 2d 1, 23-24 (1974), aff'd sub nom. Action for Children's 
Television v. FCC, 564 F.2d 458 (D.C. Cir. 1977) (when examining the 
state of children's programming in the 1970s, the FCC looked at the 
three commercial television networks, network-affiliated stations, 
independent stations, public television stations ``[w]here available,'' 
and syndicators producing programming for these stations).
---------------------------------------------------------------------------
    If this Committee were to consider changes to the Children's 
Television Act, it should examine the full range of video content--both 
broadcast and non-broadcast--available to children and their parents 
today before taking action. Only after carefully examining today's 
diverse digital, multichannel, multi-screen video marketplace could 
Congress make reasoned determinations about any need for and the costs 
and benefits of altering the obligations imposed on the Nation's free, 
over-the-air broadcasters. In this regard, I note that the FCC has 
already adopted new rules that apply the Children's Television Act to 
the digital age.\5\
---------------------------------------------------------------------------
    \5\ See In the Matter of Children's Television Obligations Of 
Digital Television Broadcasters, Second Report and Order and Order on 
Reconsideration, MM Docket No. 00-167 (Sept. 29, 2006) (the FCC 
established quantified E/I guidelines for each multicast digital 
channel broadcast free over-the-air; limited the display of Internet 
website addresses during children's programming; and revised its 
policies on promotions during children's programming with respect to 
commercial limits). This Order was the result of the collaborative 
efforts of industry, government and advocacy groups.
---------------------------------------------------------------------------
    Broadcasters deeply value our commitment to America's children and 
we will continue to create programming to serve their needs in the 
digital age. I thank you very much for the opportunity to appear before 
this Committee and I look forward to answering any questions this 
Committee may have.
                                 ______
                                 
                               Before the
                   FEDERAL COMMUNICATIONS COMMISSION
                          Washington, DC 20554
Children's Television Obligations of Digital Television Broadcasters
MM Docket No. 00-167
          Comments of the National Association of Broadcasters
National Association of Broadcasters
1771 N Street, NW
Washington, DC 20036

Marsha J. MacBride
Jane E. Mago
Jerianne Timmerman

September 4, 2007
                           Executive Summary
    The National Association of Broadcasters (``NAB'') hereby responds 
to the Commission's Public Notice regarding the status of children's 
television programming. NAB continues to share the Commission's goal of 
promoting quality educational and informational children's programming. 
In enacting the Children's Television Act of 1990 (``CTA''), Congress 
enlisted broadcasters to advance the Nation's interest in educating its 
youth. As shown by NAB, broadcasters, who have provided beneficial free 
over-the-air programming for America's youth since the inception of 
television, are today providing more high-quality, diverse educational 
and informational programming for children than ever before, and are 
amply meeting the needs of these young viewers. Television broadcasters 
are fulfilling the goals of the CTA both by offering programming 
specifically designed to serve the educational and informational needs 
of children, as well as programming aimed at broader audiences that 
nonetheless serves those needs.
    Furthermore, parents have abundant additional choices, beyond the 
services provided by the Nation's commercial broadcast stations, of 
educational and informational programming that is specifically designed 
to meet children's unique needs. These choices include programming on 
noncommercial broadcast stations; children's programming carried on 
numerous cable/satellite channels and on-demand from cable/satellite 
systems; programming and content available via the Internet; and child-
oriented DVDs and videos. This is a sea change in the amount, quality 
and availability of children's programming since the adoption of the 
CTA.
    In light of this strong record of services and options, as well as 
bedrock First Amendment principles counseling a light regulatory touch 
in the area of program content, the Commission should adhere to its 
long-standing practice of relying on broadcasters' good faith judgments 
as to whether programming serves the educational and information needs 
of children. Given the Commission's extremely limited authority to 
adopt rules significantly implicating program content, regulations 
increasing its oversight regarding whether particular programs meet 
children's educational and informational needs would raise serious 
First Amendment concerns.
                                 ______
                                 
                               Before the
                   FEDERAL COMMUNICATIONS COMMISSION
                          Washington, DC 20554
Children's Television Obligations of Digital Television Broadcasters
MM Docket No. 00-167

To: The Commission
          Comments of the National Association of Broadcasters
    The National Association of Broadcasters (``NAB'') \1\ hereby 
submits these comments in response to the Commission's Public Notice 
regarding the status of children's television programming.\2\ NAB 
continues to share the Commission's goal of promoting quality 
educational and informational children's programming. In enacting the 
Children's Television Act of 1990 (``CTA''), Congress, as the 
Commission previously has recognized, ``enlisted the creativity of 
broadcasters to advance the Nation's powerful interest in educating its 
youth.'' \3\ As discussed in detail below, broadcasters, who have 
provided beneficial free over-the-air programming for America's youth 
since the inception of television, are today providing more high-
quality, diverse educational and informational programming for children 
than ever before, and are amply meeting the needs of these young 
viewers. Furthermore, parents have abundant additional choices, beyond 
the services provided by the Nation's commercial broadcast stations, of 
educational and informational programming that is specifically designed 
to meet children's unique needs. This is a sea change in the amount, 
quality and availability of children's programming since the adoption 
of the CTA. In light of this strong record of services and options, as 
well as bedrock First Amendment principles counseling a light 
regulatory touch in the area of program content, the Commission should 
adhere to its long-standing practice of relying on broadcasters' ``good 
faith judgments'' as to whether programming serves the educational and 
informational needs of children.\4\
---------------------------------------------------------------------------
    \1\ NAB is a nonprofit trade association that advocates on behalf 
of more than 8,300 free, local radio and television stations, as well 
as broadcast networks, before Congress, the FCC and other Federal 
agencies, and the Courts.
    \2\ Commission Seeks Comment on the Status of Children's Television 
Programming, DA 07-1716, MM Docket No. 00-167 (rel. Apr. 17, 2007) 
(``Public Notice''); see also Extension of Time to File Comments on the 
Status of Children's Television Programming, Public Notice, DA 07-2287, 
MM Docket No. 00-167 (rel. May 31, 2007).
    \3\ Policies and Rules Concerning Children's Television 
Programming, Report and Order, 11 FCC Rcd 10660, 10663 ( 8) (1996) 
(``1996 Children's Television Report and Order'').
    \4\ 47 C.F.R.  73.671, Note 1 (2007); see also 1996 Children's 
Television Report and Order, 11 FCC Rcd at 10663 ( 7) (referencing the 
need to ensure that the children's programming rules are 
``appropriately tailored to provide flexibility for broadcasters'' in 
order for them to pass constitutional muster); Policies and Rules 
Concerning Children's Television Programming; Revision of Programming 
Policies for Television Broad. Stations, Notice of Proposed Rulemaking, 
10 FCC Rcd 6308, 6341 ( 66) (1995) (recognizing that the Commission, 
in adopting requirements related to broadcast content, must carefully 
``consider any limitations imposed by the First Amendment of the 
Constitution'') (``1995 Children's Television NPRM'').
---------------------------------------------------------------------------
I. Broadcasters Are Providing an Abundance of High Quality, Diverse 
        Programming That Amply Meets the Educational and Informational 
        Needs of Children
    As the Public Notice explains, the CTA requires the Commission, in 
its review of each television broadcast station's license renewal 
application, to ``consider the extent to which the licensee . . . has 
served the educational and informational needs of children through the 
licensee's overall programming, including programming specifically 
designed to serve such needs.'' \5\ In enacting this mandate, Congress 
recognized, as the Commission itself has acknowledged, that 
broadcasters should be afforded ``flexibility in determining how to 
meet their obligation to children.'' \6\ Allowing broadcasters to rely 
on ``general audience programming'' to at least partially satisfy their 
statutory duty is an important part of the flexibility that Congress 
intended to provide, as the Commission itself has stated.\7\ It is 
plain that, in considering whether the goals of the CTA are being met, 
the FCC must consider not only programming that is specifically 
directed at the educational and informational needs of children and 
meets other specified criteria (referred to as ``Core Programming''), 
but also other programming that serves those needs. After all, children 
can clearly benefit from programming that may not fit within the 
Commission's definition of Core Programming; for example, programming 
that is aimed at a broader audience or is not regularly scheduled can 
obviously educate and inform young viewers.
---------------------------------------------------------------------------
    \5\ Public Notice,  2 (quoting 47 U.S.C.  303b).
    \6\ 1996 Children's Television Report and Order, 11 FCC Rcd at 
10672 ( 24) (citing 136 Cong. Rec.S. 10121 (daily ed. July 19, 1990) 
(remarks of Sen. Inouye)).
    \7\ See 47 U.S.C.  303b (directing FCC to focus on licensee's 
service of educational and informational needs of children via 
``overall programming, including programming specifically designed to 
serve such needs'') (emphasis added); see also 1996 Children's 
Television Report and Order, 11 FCC Rcd at 10672 ( 24) (citing S. Rep. 
No. 227, 101st Cong., 1st Sess., at 3 (1989) (``Senate Report'')). 
Despite this clear statutory language, the Commission has historically 
focused primarily on the extent to which broadcasters provide 
programming that is ``specifically designed'' to serve children's 
needs. In particular, the Commission has adopted a specific regulatory 
definition of ``Core Programming''--i.e., programming specifically 
designed to serve the educational and informational needs of children, 
among other factors. 47 C.F.R.  73.671(c). The FCC has also adopted a 
``processing guideline'' that permits staff-level approval of the CTA 
portion of the television license renewal application of any station 
that has provided at least 3 hours of ``core programming'' per week 
throughout its license term. Id.  73.671(d). Under the ``processing 
guideline,'' the CTA portion of a station's television license renewal 
application can also be approved by the staff ``if the licensee 
demonstrates that it has aired a package of different types of 
educational and informational programming that, while containing 
somewhat less than 3 hours per week of Core Programming, demonstrates a 
level of commitment to educating and informing children that is at 
least equivalent to airing 3 hours per week of Core Programming.'' Id. 
As the D.C. Circuit has recognized, however, numerical ``safe harbors'' 
such as the three-hour Core Programming requirement tend to become de 
facto rules. See Lutheran Church-Missouri Synod v. FCC, 141 F.3d 344, 
353 (D.C. Cir. 1998) (explaining that an FCC licensing ``screening 
device'' ``create[s] a strong incentive to meet the numerical goals'' 
because ``[n]o rational firm--particularly one holding a government-
issued license--welcomes a government audit'' and thus ``broadcasters, 
in order to avoid the inconvenience and expense of being subjected to 
further review, will treat the guidelines as safe-harbors'') (internal 
quotation and citation omitted). As a result, the vast majority of 
broadcasters opt to provide the 3-hours per week of Core Programming.
---------------------------------------------------------------------------
    The statutory requirement that the Commission expressly consider 
children's programming issues in the license renewal process was 
adopted based on Congress' finding--made in reliance on a record that 
is now nearly two decades old--that market forces were not at that time 
sufficient to ensure that commercial television stations would provide 
a sufficient quantity of children's educational and informational 
programming.\8\ Today, however, it is clear that broadcasters (as well 
as many other players in the video marketplace, see infra Section II) 
are serving the needs of children by providing a wide array of high-
quality, diverse programming. The programs below provide but a few 
examples of the educational and informational fare that is currently 
aired by the Nation's broadcasters.
---------------------------------------------------------------------------
    \8\ See Senate Report at 9.

  <bullet> NBC Weather Plus, a twenty-four-hour multicast weather 
        programming channel, offers ``Weather Plus University,'' that 
        provides educational programming about the weather and earth 
        sciences geared to teenagers. One segment featured a lesson on 
        how geysers erupt, and another showed viewers how to make snow. 
        Shows are hosted by NBC Weather Plus meteorologists and 
        reporters, and feature an entertaining combination of taped 
        vignettes and timely segments designed to show young people how 
        and why the weather changes, how forecasters try to predict the 
        weather, the nature and scope of significant weather events, 
        and how teens can better understand or react to weather, both 
        in their hometowns and around the world.\9\
---------------------------------------------------------------------------
    \9\ See NBC Weather Plus University, http://www.weatherplus.com/
university/index.html; FCC Form 398 for WRC-TV, 2nd Quarter 2007, 
http://svartifoss2.fcc.gov/KidVid/public/report/10/query.faces (query 
for WRC, 2007 Q2) (last visited Aug. 23, 2007).

  <bullet> NBC, ION Media Networks, Scholastic Media, Classic Media and 
        Corus Entertainment have formed Qubo to acquire and create 
        children's programming. Qubo programming currently airs on NBC 
        and ION stations in English and on Telemundo stations in 
        Spanish, and is targeted at children four to 8 years of age. 
        These programs, including ``Veggie Tales'' and ``Jacob Two-
        Two,'' emphasize problem solving issues of daily living--such 
        as getting along with friends and family, how to accept 
        responsibilities and fulfill obligations, be honest and stand 
        up for the truth, overcome fears, and aim for mastery of new 
        ideas and challenges. Qubo plans to expand its children's 
        program offerings during the 2007 Fall season with the addition 
        of ``My Friend Rabbit,'' a playful series inspired by the 
        popular book, and ``Postman Pat,'' a top-rated show in the 
        United Kingdom offering lessons about neighborliness and 
        community through the adventures of a friendly neighborhood 
        postman.\10\
---------------------------------------------------------------------------
    \10\ See Qubo, Shows, http://www.qubo.com (last visited Aug. 23, 
2007); Qubo Bounces into Fall 2007 with Exciting Slate of New and 
Returning Series, Entertainment World, Aug. 7, 2007, http://
entertainmentworld.us/EW1/templates/
Television2.aspx?articleid=9944&zoneid=16; FCC Form 398 for WRC-TV, 2nd 
Quarter 2007, http://svartifoss2.fcc.gov/KidVid/public/report/10/
query.faces (query for WRC, 2007 Q2) (last visited Aug. 23, 2007). In 
addition, NBC stations previously featured ``Time Warp Trio,'' an 
action-adventure series that transports kids on journeys into history 
using a ``magic book'' that was nominated for a 2007 Emmy Award in the 
category of ``Outstanding Children's Animated Program,'' among their 
children's programming lineup. See Discovery Kids On NBC, http://
www.nbc.com/nbc/Discovery_Kids_on_NBC/ (last visited Aug. 23, 2007); 
Nominees For The Children's Programming Emmy Awards Announced At 
Kidscreen Summit, National Television Academy, Feb. 7, 2007, http://
www.emmyonline.org/releases/pdf/
34th_daytime_entertainment_childrens_noms.pdf. The program now airs on 
the Discovery Kids cable network.

  <bullet> ION Media offers a twenty-four-hour children's digital 
        channel, which airs the Qubo programming described above along 
        with other children's programming.\11\
---------------------------------------------------------------------------
    \11\ See Qubo 24/7, http://www.qubo.com/qubo247.asp (last visited 
Aug. 23, 2007).

  <bullet> Among other children's programs, ABC stations air ``The 
        Replacements,'' an original comedy series that features a 
        brother and sister in their ``tweens'' with a fantasy-like 
        ability to change adults (despite consequences of those 
        changes). Geared toward kids aged six to eleven, the series 
        features comedic hi jinx of a brother and sister with fast-
        paced humor and quick wit to keep youngsters engaged as they 
        watch the show's characters attempt to change situations that 
        viewers will likely relate to, thereby learning lessons about 
        self-esteem and accepting responsibility for choices.\12\
---------------------------------------------------------------------------
    \12\ See ABC Medianet, The Replacements, http://
www.abcmedianet.com/web/showpage/
showpage.aspx?program_id=002082&type=lead (last visited Aug. 23, 2007).

  <bullet> CBS network programming includes both animated and live 
        action programming, including ``Cake,'' a live-action show-
        within-a-show about teenagers who produce and host a cable 
        access show called ``Cake TV,'' where the teens show their 
        audience how to take ordinary, everyday items (e.g., t-shirts, 
        CD cases, lamp shades) and make them extraordinary with a 
        little imagination (and a glue gun).\13\
---------------------------------------------------------------------------
    \13\ See CBS Entertainment Shows, Daytime, 2007-2008 Children's 
Programming, About the Show, http://www.cbspressexpress.com/div.php/
cbs_entertainment/original?id=1384&dpid=57.

  <bullet> Local stations, including those unaffiliated with major 
        networks, also offer quality children's programming. For 
---------------------------------------------------------------------------
        example:

    --A large number of stations, including WJAL, Channel 68 in 
            Hagerstown, MD, airs ``Teen Kids News,'' with a target 
            audience of kids between eleven and sixteen years of age. 
            The mission of ``Teen Kids News'' is to produce a weekly 
            news program that provides information and news to children 
            in a manner that is not only educational but also 
            entertaining. The show features teenagers reporting the 
            news and interviewing other children.\14\
---------------------------------------------------------------------------
    \14\ See Teen Kids News, http://www.teenkidsnews.tv/ (last visited 
Aug. 23, 2007); Mike Lipton, New Kids on the Block, People, Dec. 13, 
2004, at 159-160, available at http://www.teenkidsnews.tv/
tkn_people.pdf.

    --WMAR, Channel 2 in Baltimore, MD, airs the ``Kinderman Show,'' 
            with a target audience of children seven to 10 years old. 
            The program is an interactive one in which the host 
            introduces a different topic each week through graphical 
            presentation, explanation and field trips in order to 
            promote children's intellectual and physical development, 
            as well as educate viewers about the performing arts.\15\
---------------------------------------------------------------------------
    \15\ See The Kinderman Show, Home, http://www.kinderman.us/
home.html (last visited Aug. 23, 2007); ABC2, TV Listings, http://
www.abc2news.com/entertainment/listings/default.aspx (set time to 6:30 
am and view Saturday listing) (last visited Aug. 23, 2007); FCC Form 
398 for WMAR-TV, 2nd Quarter 2007, http://svartifoss2.fcc.gov/KidVid/
public/report/10/query.faces (query for WMAR, 2007 Q2) (last visited 
Aug. 23, 2007).

    --A number of stations in North Carolina air ``Smart Start Kids,'' 
            a locally-produced, award-winning children's television 
            program where preschoolers are the ``stars'' of the show. 
            The children interact with show host ``Willa'' and travel 
            to fun, educational places across the state of North 
            Carolina to learn from hands-on activities and create their 
            own memorable stories and music. Child viewers can also 
            participate from home or a childcare center by calling the 
            Smart Start toll-free phone number and sharing their own 
            personal stories.\16\
---------------------------------------------------------------------------
    \16\ See Smart Start Kids, http://www.smartstartkidstv.com/kids.htm 
(last visited Aug. 23, 2007). The program is produced in cooperation 
with the North Carolina Partnership for Children and is a three-time 
nominee (and one-time winner) of a MidSouth Regional Emmy Award. See 
id.
---------------------------------------------------------------------------
    Furthermore, broadcasters air a vast quantity of additional 
programming that, while perhaps not meeting the FCC's definition of 
Core Programming, satisfies children's educational and informational 
needs. For example, seventy television stations throughout the 
country--ABC, NBC, CBS and FOX affiliates--air the Emmy award-winning 
``Connect with Kids'' series of half-hour specials, which feature real 
kids sharing their true stories about important topics, including 
issues such as teenage depression, risky teenage behavior, drug abuse, 
literacy, and school attendance.\17\ ``K.E.Y.S. Kids,'' which airs on 
WMYD Channel 20 in Detroit, MI, is a locally-sponsored and -produced 
program designed to entertain and educate children and families about 
the importance of living a happy, healthy, drug-free life.\18\ WPVI-TV 
in Philadelphia airs ``Youth Perspective with Rick Williams,'' which 
focuses on panel discussions of major issues affecting young people and 
features regular panelists from local high schools.\19\ KXAS in Fort 
Worth, TX last year aired ``Latin American Treasures,'' a 1-hour 
special showcasing over 270 works of art from fourteen countries which 
reveals much of the Latin culture and heritage dating back to 1492 and 
encourages young people to explore their history and take pride in what 
Latin Americans have accomplished in the areas of music, dance, art and 
cuisine.\20\ And KNTV in San Jose, CA, among other NBC stations, has 
previously aired the ``Quills Literary Awards,'' a special awards 
program designed to inspire energy and focus around the importance of 
reading, and will air the 2007 awards program on October 27.\21\ Many 
stations also air news and weather specials that are aimed at children. 
KSEE in Fresno, CA, for example, recently produced an interactive 
weather special featuring a visit to a local classroom that had 
participated in an ongoing educational exchange with the station by 
KSEE on-air weather reporters.\22\ Local television stations 
additionally include short segments targeted to children in their 
newscasts.
---------------------------------------------------------------------------
    \17\ See Connect with Kids, The Best Family-Oriented Content on 
Television, http://www.connectwithkids.com/programs/ (last visited Aug. 
23, 2007); Connect with Kids, 2007-08 Connect with Kids Half-Hour 
Specials, http://www.connectwithkids.com/content/aboutus/pdf/CWK_Half-
HourSpecials.pdf.
    \18\ See K.E.Y.S. Kids, K.E.Y.S. Kids TV Overview, http://
www.keyskids.net/Keystv.html (last visited Aug. 23, 2007).
    \19\ FCC Form 398 for WPVI-TV, 2nd Quarter 2007, http://
svartifoss2.fcc.gov/KidVid/public/report/10/query.faces (query for 
WPVI, 2007 Q2) (last visited Aug. 23, 2007).
    \20\ FCC Form 398 for KXAS, 4th Quarter 2006, http://
svartifoss2.fcc.gov/KidVid/public/report/10/query.faces (query for 
KXAS, 2006 Q4) (last visited Aug. 23, 2007).
    \21\ NBC 11, Stephen Colbert To Open Quill Awards, http://
www.nbc11.com/thequills/13413369/detail.html (last visited Aug. 23, 
2007).
    \22\ FCC Form 398 for KSEE, 2nd Quarter 2007, http://
svartifoss2.fcc.gov/KidVid/public/report/10/query.faces (query for 
KSEE, 2007 Q2) (last visited Aug. 23, 2007).
---------------------------------------------------------------------------
II. Parents Today Have at Their Disposal a Multitude of Additional 
        Choices for Programming and Products Specifically Designed to 
        Meet the 
        Educational and Informational Needs of Children
    In addition to the substantial amount of children's educational and 
informational programming aired by commercial broadcasters, today's 
larger--and ever-expanding--multi-platform media marketplace provides a 
myriad of additional choices for parents and children. These 
programming options not only provide alternatives to the wide variety 
of commercial broadcast programs that serve child audiences, but also 
place considerable competitive pressure on commercial broadcasters to 
offer quality children's programming themselves. And, as the variety of 
platforms capable of distributing content continues to expand, the 
programming and service choices that are available for children and 
parents will grow exponentially as well.
    For example, noncommercial broadcast stations affiliated with the 
Public Broadcasting Service (``PBS'') provide a substantial amount of 
children's programming. In fact, some PBS stations air children's fare 
for eleven hours each weekday.\23\ Many also have begun to multicast 
children's programming on additional digital streams, providing still 
more choices for educational and informational programming.\24\ And, in 
the many markets where viewers have access to more than one PBS 
station, there may be multiple showings of PBS children's programs at 
various times throughout the day.\25\
---------------------------------------------------------------------------
    \23\ See, e.g., WETA, WETA TV 26 Schedule, http://www.weta.org/tv/
whatson/index.php?
station=WETA&time=All+Day&fromtime=true&sd 
ate=&cal_month=08&cal_year=2007 (last visited Aug. 23, 2007). In August 
of 2007, for example, Washington, DC's WETA Channel 26 aired children's 
shows beginning at 7 a.m., with ``Between the Lions'' (an award-winning 
series designed to foster the literacy skills of four- to seven-year 
olds, see About the Program, http://pbskids.org/lions/parentsteachers/
program/summary.html (last visited Aug. 23, 2007)), and ending at 6 
p.m., with ``Arthur'' (another award-winning series that is designed to 
encourage four- to eight-year-olds to develop an interest in reading 
and writing, and to encourage positive social skills, see About the 
Program, http://pbskids.org/arthur/parentsteachers/program/prog
_summary.html (last visited Aug. 23, 2007)).
    \24\ See WETA, WETA Family Schedule, http://www.weta.org/tv/
whatson/index.php?station=
FAMILY&time=All+Day&fromtime=&sdat e=&cal_month=08&cal_year=2007 
(listing additional children's shows on WETA's ``Family'' programming 
stream (channel 26.3) from 6 a.m. to 7:30 a.m. and 12 p.m. to 1:30 
p.m.) (last visited Aug. 23, 2007); Maryland Public Television, Program 
Schedule, http://www.mpt.org/schedule/ (set channel to MPT Select, MPT 
V-me, and MPT HD) (last visited Aug. 23, 2007) (listing numerous 
children's shows on the programming lineups of three Maryland Public 
Television (``MPT'') digital and high-definition program streams, 
including Spanish-language children's programs from the new V-me 
network).
    \25\ In Washington, D.C., for example, many viewers have access to 
both WETA and MPT stations, including WMPB, WMPT, WFPT, WWPB, WCPB, and 
WGPT. WETA airs ``Sesame Street'' at 10 am, while MPT stations air it 
at 9. See http://www.weta.org/tv/whatson/index.php?
station=WETA&time=All+Day&fromtime=true&sd 
ate=&cal_month=08&cal_year=2007 (last visited Aug. 23, 2007); http://
www.mpt.org/schedule/home.cfm?thisday=2007-8-23&channel
selected=mptv (last visited Aug. 23, 2007).
---------------------------------------------------------------------------
    On top of commercial and noncommercial broadcast offerings, there 
are now many more children's programming networks offering educational 
content carried by cable, DBS and other multichannel video programming 
distributors (``MVPDs'') than ever before in history. These include: 
Discovery Kids (which airs a daily, commercial-free, award-winning 
``Ready Set Learn!'' preschool programming block); \26\ Noggin (a 
commercial-free educational channel dedicated to preschoolers that airs 
12 hours a day, 7 days a week); \27\ Nickelodeon (which airs children's 
educational shows such as ``Blue's Clues,'' ``Dora the Explorer,'' ``Go 
Diego, Go!,'' and the new series ``Yo Gabba Gabba,'' a fun live-action 
program for young children that is designed to teach simple life 
lessons and get parents and children up off the floor to dance and sing 
along); \28\ The Disney Channel (with its morning ``Playhouse Disney'' 
block designed to teach preschoolers a variety of skills); \29\ and PBS 
KIDS Sprout (a partnership between Comcast Corporation, HIT 
Entertainment, PBS, and Sesame Workshop that provides programming for 
two- to five-year olds).\30\ In addition, the Sorpresa! network, 
America's first Hispanic children's television network, is now widely 
available on cable, DBS, and other platforms.\31\ On top of these 
networks that air scheduled children's programming, there is also an 
abundance of children's programming that is now available on an on-
demand basis from cable and DBS operators.\32\ As the FCC has found, 
almost 86 percent of the Nation's television households subscribe to an 
MVPD, meaning that these programming sources are widely available.\33\
---------------------------------------------------------------------------
    \26\ Discovery Kids, http://kids.discovery.com/ (last visited Aug. 
23, 2007); Disney Communications, http://corporate.discovery.com/
brands/discoverykids.html (last visited Aug. 23, 2007).
    \27\ Noggin, http://www.noggin.com/ (last visited Aug. 23, 2007).
    \28\ Nick, http://www.nick.com/ (last visited Aug. 23, 2007); 
http://www.nickjr.com/shows/yo-gabba-gabba/yo-ga-about-the-show/yo-ga-
about-the-show.jhtml (last visited Aug. 23, 2007).
    \29\ Disney Channel, http://home.disney.go.com/tv/index (last 
visited Aug. 23, 2007); Disney, Guide for Grown-Ups, http://
tv.disney.go.com/playhouse/grown-ups/phd_about.html (last visited Aug. 
23, 2007).
    \30\ PBS Kids Sprout, http://www.sproutonline.com/sprout/Info/
About.aspx (last visited Aug. 23, 2007).
    \31\ Firestone Communications, http://www.sorpresatv.com/
goout.asp?u=http://www.firestone
inc.com (last visited Aug. 23, 2007).
    \32\ See, e.g., Kids On Demand Preschool, http://
www.timewarnercable.com/CentralNY/Programming/ondemand/
KOD_Preschool.html (last visited Aug. 23, 2007) (indicating that 
programming from PBS KIDS Sprout, Noggin, and BBC Kids is available on 
demand on Time Warner); Optimum, Free On Demand, http://
www.optimum.com/io/on_demand/free/free.jsp (last visited Aug. 23, 2007) 
(indicating that children's programming from Nickelodeon and PBS is 
available on demand on Cablevision systems); Comcast ON DEMAND Tops 
Three Billion Views, Comcast, Sept. 6, 2006, http://www.cmcsk.com/
phoenix.zhtml?c=118591&p=irol-newsArticle
&ID=902620 (indicating that Comcast's On Demand programming includes 
programs from PBS KIDS Sprout, Nickelodeon, Cartoon Network, Boomerang, 
Noggin and Discovery Kids).
    \33\ Annual Assessment of Competition in the Market for the 
Delivery of Video Programming, 21 FCC Rcd 2503, 2506 ( 8) (2006) 
(``Twelfth Annual MVPD Competition Report'').
---------------------------------------------------------------------------
    On top of the choices available through MVPDs, the 81.2 percent of 
American households with DVD players and the 79.2 percent of American 
households with VCRs \34\ have access to still more and, indeed, almost 
unlimited, options for children's educational and informational 
programming.\35\ At the end of 2005, 95 percent of households with 
children under 13 had at least one DVD player, and many children even 
have DVD players in their rooms.\36\ In addition, the Internet, widely 
available not only through residential Internet access subscriptions 
\37\ but also in public libraries, offers still more choices for 
programming and other children's content. For example, the increasing 
popularity of MP3 players has spawned a wide variety of podcasts for 
children.\38\ And, of course, there are thousands more websites devoted 
to educating and informing the Nation's youth in other ways, through 
interactive lessons, games, and downloadable tools for parents, 
teachers, and children.\39\
---------------------------------------------------------------------------
    \34\ See Nielsen Study Shows DVD Players Surpass VCRs, Nielsen 
Media Research, Dec. 19, 2006, available at http://
www.nielsenmedia.com. The FCC has reported that, as of 2004, 90 percent 
of U.S. television households had at least one VCR and nearly 75 
percent had at least one DVD player, and that household penetration of 
DVD players was predicted to reach 80 percent by the end of 2005. 
Twelfth Annual MVPD Competition Report, 21 FCC Rcd at 2569 ( 141).
    \35\ A search on Amazon.com for DVDs in the ``Kids & Family'' 
category, for example, yielded 20,514 results.
    \36\ Holiday Gift Ideas, ICR, Nov. 17, 2005, http://
www.icrsurvey.com/Study.aspx?f=
DEG_Holiday_Gift_Ideas_1105.html.
    \37\ The FCC has reported that, as of June 2005, there were 70.3 
million residential Internet access subscribers. See Twelfth Annual 
MVPD Competition Report, 21 FCC Rcd at 2509 ( 18). The Pew Institute 
found that, as of April 2006, 73 percent of Americans have Internet 
access. See Internet Penetration & Impact, Pew Internet & American Life 
Project, Apr. 2006, http://www.pewinternet.org/pdfs/
PIP_Internet_Impact.pdf. According to Arbitron/Edison Media Research, 
81 percent of Americans ages twelve and older are now online, and 71 
percent have the Internet at home. Bill Rose and Joe Lenski, Internet 
and Multimedia 2006: On-Demand Media Explodes, Arbitron/Edison Media 
Research at 10 (2006).
    \38\ Such podcasts include ``Classic Fairy Tales,'' 
www.alphadvd.com/ClassicFairyTales.htm (last visited Aug. 23, 2007); 
the ``Children's Story Podcast,'' www.storynory.com (last visited Aug. 
23, 2007); and ``My Baby Monsters,'' http://mybabymonsters.com/stories/
archive/podcasts/ (last visited Aug. 23, 2007), to name but a few.
    \39\ See, e.g., Ask Dr. Math, http://mathforum.com/dr.math (last 
visited Aug. 23, 2007); Math Playground, www.mathplayground.com (last 
visited Aug. 23, 2007); iKnowThat.com, www.iknowthat.com (last visited 
Aug. 23, 2007); Kinder Printables, www.kinderprintables.com (last 
visited Aug. 23, 2007); Kinder Helper, www.kinderhelper.com (last 
visited Aug. 23, 2007); Gamequarium.com, www.gamequarium.com (last 
visited Aug. 23, 2007); HowStuffWorks, www.howstuffworks.com (last 
visited Aug. 23, 2007); Starfall.com, www.starfall.com (last visited 
Aug. 23, 2007); Math Cats, www.mathcats.com (last visited Aug. 23, 
2007). Numerous Federal and state government agencies also have 
websites devoted to children. See, e.g., NASA Quest, http://
quest.arc.nasa.gov (last visited Aug. 23, 2007); NASA, Space Place, 
http://spaceplace.jpl.nasa.gov/en/kids/ (last visited Aug. 23, 2007); 
Kids.gov, The Official Kid's Portal for the U.S. Government, 
www.kids.gov (last visited Aug. 23, 2007); Kids' Capital, http://
kids.dc.gov/kids_main_content.html (last visited Aug. 23, 2007); 
Maryland Kids Page, http://www.mdkidspage.org/ (last visited Aug. 23, 
2007).
---------------------------------------------------------------------------
    The fact that all of these varied sources of educational and 
informational programming and products exist over and above the 
substantial amount of such programming that is available on free, over-
the-air television demonstrates without doubt that the needs of child 
audiences are being met in today's multimedia marketplace. And of 
course the amount of children's programming on broadcast television is 
increasing because digital broadcasters offering multicast programming 
streams must air additional core programming. It is also important to 
bear in mind that media and technology make up only a small part of the 
mix of elements--including school, family life, entertainment, and 
play--that vie for the attention of, and contribute to the educational 
and social development of, today's youth. Broadcasters, for their part, 
are continuing to serve child audiences by offering a wide variety of 
choices in commercial television programming.
III. The Commission Should Adhere to its Long-standing Practice of 
        Relying on Broadcasters' Good Faith Judgments Regarding Whether 

        Programs Serve the Educational and Informational Needs of 
        Children
    The Commission has long relied on broadcasters' ``good faith 
judgments'' regarding whether particular programming serves the 
educational and informational needs of children.\40\ This approach has 
served the Commission, broadcast stations, and the viewing public 
remarkably well, as broadcasters, who take seriously their special 
historical role of service to their local communities, have provided 
and today continue to provide quality educational and informational 
programming for children. In light of this strong record of service, as 
well as the numerous other sources of children's programming available 
in the modern video marketplace, NAB respectfully submits that the 
Commission should adhere to its long-standing practice of reliance on 
the good faith judgment of broadcasters. Moreover, principles 
underlying the Administrative Procedure Act and, more importantly, the 
First Amendment, counsel strongly in favor of such adherence.
---------------------------------------------------------------------------
    \40\ 47 C.F.R.  73.671, Note 1.
---------------------------------------------------------------------------
    As a matter of administrative law, it is elementary that regulatory 
intervention is inappropriate in the absence of a record establishing 
the existence of a problem, for ``a regulation perfectly reasonable and 
appropriate in the face of a given problem may be highly capricious if 
that problem does not exist.'' \41\ Furthermore, when the Commission 
first decided to limit its direct scrutiny of the content of children's 
programming, it appropriately recognized that the First Amendment 
dictates a restrained approach.\42\ Indeed, the Commission's authority 
to adopt rules significantly implicating program content--as an 
increase in governmental oversight regarding whether particular 
programs meet children's educational and informational needs would 
undoubtedly do--is extremely limited.\43\ For a content-based 
restriction on broadcast speech to pass constitutional muster, it must 
be ``narrowly tailored to further a substantial governmental 
interest.'' \44\
---------------------------------------------------------------------------
    \41\ HBO v. FCC, 567 F.2d 9, 36 (D.C. Cir. 1977) (citation 
omitted); see ALLTEL Corp. v. FCC, 838 F.2d 551, 560 (D.C. Cir. 1988) 
(finding that FCC failed to justify adoption of a rule because there 
was ``no showing that [the] abuse'' to which the rule was directed 
actually existed and ``no showing that the rule target[ed] companies 
engaged in [the] abuse'').
    \42\ 1996 Children's Television Report and Order, 11 FCC Rcd at 
10663 ( 7) (referencing the need to ensure that the children's 
programming rules are ``appropriately tailored to provide flexibility 
for broadcasters'' in order for them to pass constitutional muster); 
1995 Children's Television NPRM, 10 FCC Rcd at 6341 ( 66) (recognizing 
that the Commission, in adopting requirements related to broadcast 
content, must carefully ``consider any limitations imposed by the First 
Amendment of the Constitution'').
    \43\ E.g., Motion Picture Ass'n of Am. v. FCC, 309 F.3d 796, 802-03 
(D.C. Cir. 2002).
    \44\ FCC v. League of Women Voters, 468 U.S. 364, 380 (1984).
---------------------------------------------------------------------------
    NAB agrees that the government's interest in ensuring that the 
needs of child audiences are met may well qualify as a ``substantial'' 
one in the abstract. However, the Supreme Court has clearly held that 
the FCC does not have the power to require broadcasters to air 
particular program content, stating that:

        [T]he FCC's oversight responsibilities do not grant it the 
        power to ordain any particular type of programming that must be 
        offered by broadcast stations; for although the Commission may 
        inquire of licensees what they have done to determine the needs 
        of the community they propose to serve, the Commission may not 
        impose upon them its private notions of what the public ought 
        to hear.\45\
---------------------------------------------------------------------------
    \45\ Turner Broad. Sys., Inc. v. FCC, 512 U.S. 622, 650 (1994) 
(internal citation omitted).

    In light of the evidence that broadcasters are providing a wide 
array of high-quality, diverse programming that meets the educational 
and informational needs of children, there is simply no basis or need 
for the Commission to increase its oversight of programming 
content.\46\ And, the large, and ever-increasing, amount of additional 
media and other sources of programming and products that are available 
to meet those needs only serve to lessen any possible justification for 
intruding on broadcasters' good faith judgments, from both an 
administrative law and a First Amendment perspective.\47\
---------------------------------------------------------------------------
    \46\ See supra Section I. Recent Commission action in connection 
with Univision's request for a transfer of control does not provide 
substantive precedent as to the definition of Core Programming. See 
Shareholders of Univision Commc'ns Inc. (Transferor) & Broad. Media 
Partners, Inc. (Transferee), for Transfer of Control of Univision 
Commc'ns Inc., and Certain Subsidiaries, Mem. Op. and Order, 22 FCC Rcd 
5842 (2007). Univision did not admit to any rule violation, and the 
Commission did not purport to adjudicate whether violations in fact had 
occurred. Under these circumstances, the consent decree cannot be used 
as evidence of noncompliance. It has long been clear that ` ``consent 
decrees constitute proof of no fact, nor any admission.' '' 
Applications of Gross Telecasting Inc., For Renewal of Licenses, 51 FCC 
2d 313 ( 4) (1975) (quoting Cowles Fla. Broad., Inc., 32 FCC 2d 436, 
449 ( 30) (1971)); see also Policy Regarding Character Qualifications 
in Broad. Licensing, 6 FCC Rcd 3448 ( 6) (1991) (``[w]here . . . 
litigation has ended in a settlement agreement, consent decree, or 
acquittal and there is no admission or finding of unlawful misconduct, 
we believe it is generally inappropriate for us to reach legal 
conclusions on the basis of any stipulated facts''). Case law further 
makes clear that consent decrees such as Univision's can have no legal 
or precedential value with respect to other broadcasters. See, e.g., 
Langton v. Hogan, 71 F.3d 930, 935 (1st Cir. 1995); Beatrice Foods Co. 
v. FTC, 540 F.2d 303, 312 (7th Cir. 1976).
    \47\ Furthermore, to the extent that the Commission does believe 
there is a problem regarding broadcasters' compliance with the 
children's programming rules sufficient to justify increased oversight, 
it would be required to provide broadcasters with clear notice 
regarding the substance of the alleged problem, by explaining why the 
Commission thinks that certain programs do not serve children's 
educational and informational needs. As the D.C. Circuit has 
instructed, ``[t]raditional concepts of due process incorporated into 
administrative law preclude an agency from penalizing a private party 
for violating a rule without first providing adequate notice of the 
substance of the rule.'' Satellite Broad., Inc. v. FCC, 824 F.2d 1, 3 
(D.C. Cir. 1987) (citing Gates and Fox Co. v. OSHRC, 790 F.2d 154, 156 
(D.C. Cir. 1986)). When, as here, First Amendment rights are 
implicated, even greater specificity is required. See, e.g., Smith v. 
Gogven, 415 U.S. 566, 573 (1974); see also Hill v. Colorado, 530 U.S. 
703, 732 (2000) (a regulation of speech is unconstitutionally vague if 
it ``fails to provide people of ordinary intelligence a reasonable 
opportunity to understand what conduct it prohibits'' or if it 
``authorizes or even encourages arbitrary and discriminatory 
enforcement'').
---------------------------------------------------------------------------
    The Commission's original and wise decision to credit broadcasters' 
judgments as to the nature of specific programming in terms of its 
educational and informational value for children has worked well in 
practice, to the benefit of viewers, and at the same time has honored 
these important legal principles.
IV. Conclusion
    Educating and informing the Nation's children is a laudable goal, 
and is a goal that NAB shares with the Commission. It is clear that 
commercial broadcasters are doing much to meet the needs of children, 
and that there are an overwhelming number of additional resources 
available today--via alternative programming sources, DVDs and videos, 
the Internet, and many others--for parents and children. In light of 
this vast array of options, there is no need for the Commission to 
intrude further into the judgments made by television broadcasters 
about the content of children's programming, and, indeed, the First 
Amendment strongly counsels otherwise.
            Respectfully submitted,

                       National Association of Broadcasters
                                          1771 N Street, NW
                                       Washington, DC 20036
                                         Marsha J. MacBride
                                               Jane E. Mago
                                         Jerianne Timmerman

    The Chairman. Thank you, sir.
    And now, Ms. Cyma Zarghami, President of Nickelodeon and 
MTVN Family Group, from New York.

STATEMENT OF CYMA ZARGHAMI, PRESIDENT, NICKELODEON AND THE MTV 
                 NETWORKS KIDS AND FAMILY GROUP

    Ms. Zarghami. Thank you, Chairman Rockefeller, for inviting 
me to be part of today's hearing. My name is Cyma Zarghami, and 
I am President of Nickelodeon, and I will be buying a house in 
West Virginia shortly.
    [Laughter.]
    Ms. Zarghami. I have been working at Nickelodeon for 24 
years, basically half my life. When I first came to 
Nickelodeon, cable TV was relatively new, and you still had to 
get off the couch to change the channel.
    I was at Nickelodeon when the Children's Television Act was 
written. The media landscape, as you've heard from my 
colleagues, was a very different place then. Kids basically 
watched TV on broadcast networks on Saturday mornings, or on 
weekdays in syndication. The latchkey kid phenomenon had just 
begun. There were much smaller percentages of divorced and two-
working-parent families, and channels like the Cartoon Network 
did not even exist. Ninety-nine percent of Nickelodeon's 
content came from Canada, and ``My Three Sons'' was the top-
rated program in prime time on Nickelodeon.
    Today, I have three sons. Nickelodeon is 30 years old, it 
produces close to 100 percent of its own content, and we've 
been the number one-rated cable channel for 15 straight years.
    It has been the opportunity to serve kids that has kept me 
here this long. Nickelodeon was created originally to serve 
older kids who were watching a lot of adult-targeted TV. It was 
also meant to be a place where kids could relax and laugh, 
because we knew that it was tough to be a kid in a grownup's 
world. And it still is.
    We wrote and made promises to our audience that made up our 
core brand attributes, and they are as true today as when we 
first wrote them. We put kids first, we respect them, we're 
inclusive of all kids, and we listen to them. We've fielded 
many thousands of studies over the years to better understand 
their lives, and I believe that has been one of the keys to our 
success.
    Nickelodeon has always followed the guidelines set forth by 
the Children's Television Act, and we believe that the 
commercial limitations set forth in the Act have been valuable 
and good for the audience. We at Nickelodeon do not feel, 
however, the need for any additional regulation.
    Today, Nickelodeon's audience ranges from preschoolers to 
families. We serve them all on television, online, and in many 
other areas. Nickelodeon's overall programming day is carefully 
constructed to serve the audience that is prevalent in that day 
part: mornings are for preschool, afternoons for bigger kids, 
and evenings are for families.
    For older kids, we always strive to tell authentic and 
relatable stories that allow them to feel good about 
themselves. On Nickelodeon, they see kids that look like them, 
dealing with universal kid issues on shows like iCarly and True 
Jackson, VP.
    For families, we just added an hour of prime-time 
programming, starting at 8 p.m., with Emmy- and Peabody-Award 
winning Malcolm in the Middle. Recent research we conducted 
told us that kids and parents want to spend more time together. 
We've seen co-viewing increase on shows like George Lopez and 
Home Improvement, and we couldn't be more pleased that families 
are gathering to watch our shows together.
    At the other end of the spectrum, Nickelodeon has been 
making gold-standard preschool programming for 15 years, with 
shows like Blue's Clues, and Dora the Explorer. Recently, 
parents told us that they wanted more quality educational 
programming in the evening hours, so last year we extended our 
commercial-free preschool channel, Noggin, to 24 hours, and the 
response has been terrific. Between Nickelodeon and Noggin, we 
air 200 hours of educational content a week. And you should 
know that each episode of shows like Dora the Explorer and 
Diego cost approximately $650,000 to produce.
    We also promised kids that we would celebrate the important 
moments of their lives with them, as well as address issues in 
the world that affect them. We created the Kids Choice Awards 
to allow kids to vote for the people and things that they love 
in entertainment, and it has grown to become a version of the 
Oscars for kids.
    Nick News, on the other hand, with Linda Ellerbee, has been 
on our channel for 17 years, and has helped explain major news 
events that impact kids in a kid-appropriate way. And, since 
1988, we've let kids have their own vote for President. It's 
one of our favorite campaigns, that teaches kids about how our 
country chooses its President. And it happens, usually, before 
the Presidential election, and kids just about always predict 
the actual winner.
    Our pro-social initiatives, like The Big Help and Let's 
Just Play, have helped inform, empower, and activate kids about 
everything, from how they can improve their neighborhoods, the 
environment, and their own personal health and wellness. And 
every year, we select a day to go off the air and offline to 
remind kids to go outside, be active, and play.
    Thanks to our affiliate partners, we have followed our 
audience as they've moved toward new technologies and 
platforms. This generation of kids seamlessly navigates between 
television, online, and mobile for entertainment. Today, a 
child or a parent can watch a Nickelodeon program at its 
scheduled time on television, on Video on Demand, on the 
Internet, from iTunes, or use a digital video recorder to store 
hours of self-selected programming. These new platforms are 
growing in numbers as they serve the needs of the consumer, and 
families in particular.
    We have a multitude of safety tools on all of our websites, 
including a partnership with the National Center for Missing 
and Exploited Children.
    I believe that today's generation of children and parents 
are being far better served with quality programming and pro-
social initiatives than any previous generation. In my 25 years 
in this business of serving kids, I've met hundreds of 
executives, like many here today, who are devoted to doing 
right by this audience. And, after 30 years, we at Nickelodeon 
have a generation of young parents who knew us when they were 
kids, and understand what to expect when they allow their kids 
to access our content. We've earned their trust, and look 
forward to continuing to earn it, moving forward in years to 
come.
    Thank you.
    [The prepared statement of Ms. Zarghami follows:]

Prepared Statement of Ms. Cyma Zarghami, President, Nickelodeon and the 
                   MTV Networks Kids and Family Group
    Thank you, Chairman Rockefeller and Ranking Member Hutchison for 
inviting me to be a part of today's hearing. My name is Cyma Zarghami, 
and I am President of Nickelodeon and the MTV Networks Kids and Family 
Group. I am proud to say that I have been with Nickelodeon for 24 
years, beginning as a data entry clerk, and now work on a wide range of 
programs including Dora The Explorer, SpongeBob SquarePants, Rugrats 
and Bill Cosby's Little Bill. I've also worked on our pro-social 
initiatives, such as our Kids Pick the President Campaign. During my 
time at Nickelodeon, I have watched the American family change and our 
networks grow in amazing and important ways. So I am excited to share 
our story with the Committee this afternoon.
    Nickelodeon's Kids and Family Group is comprised of four television 
networks: the flagship Nickelodeon channel; Noggin, The N, and 
Nicktoons.\1\ The Group also includes online, digital, consumer 
products and recreation businesses focused on children and families.
---------------------------------------------------------------------------
    \1\ Nickelodeon has announced plans to rename Noggin as Nick Jr. 
and The N as TeenNick on September 28, 2009.
---------------------------------------------------------------------------
    Nickelodeon was launched 30 years ago and it has been the #1 rated 
cable network for the past 15 years, reaching over 98 million American 
households. It is the most widely distributed channel in the world and 
can be viewed in over 175 countries. Evenings on Nickelodeon are called 
Nick-at-Nite and feature family-friendly fare like the Emmy-winning 
Malcolm In the Middle and The George Lopez Show, which our research 
shows many children co-view with their parents. Mornings on Nickelodeon 
feature educational programming for pre-schoolers.
    In 1999, in partnership with Sesame Workshop, we launched Noggin, 
initially as a 12 hour per day channel for pre-schoolers. Now, the 
channel provides commercial-free programming for pre-schoolers 24 hours 
per day, 7 days a week. Every program that appears on Noggin, 24 hours 
per day, is educational/informational content specifically designed to 
serve the needs of pre-school children. We do this without any 
government requirement (and without accepting traditional commercial 
advertisements)--not because we have to, but because it's the right 
thing to do for kids and their families. We take great pride in serving 
pre-schoolers and offering content that is curriculum-based and of the 
highest quality. Today, Noggin ranks as parents' favorite media brand 
for pre-schoolers.
    In addition to Nickelodeon and Noggin, we also program Nicktoons, 
our home to animated programs, and The N, a network for teens.
    At the outset I want to say that Nickelodeon is 100 percent focused 
on children. At our core, we believe that what's good for kids is good 
for business, and that has been a guiding principle of our company ever 
since its inception. Our company was founded for kids; the founders saw 
children watching television and, because there were so few options, 
too many were watching adult programming. So we created an environment 
on television where kids could be kids, and where they could relax and 
escape from the pressures of being a kid in a grown-up world. We made a 
promise that day 30 years ago, and we have kept it ever since, even as 
we have expanded our mission to serve children at every age level. The 
Nickelodeon channels respect kids of all ages and tell real children's 
stories about real issues and real events worthy of celebration. At the 
same time, we also work hard to make sure that parents feel comfortable 
having their children learn, grow and be entertained by us. In the past 
30 years, we have witnessed a generation of kids who grew up watching 
Nickelodeon become parents themselves, and we take great pride in 
knowing that these parents now can share our content with their own 
children.
    We also recognize, as we hope the Committee does, that the media 
marketplace has undergone profound changes since Nickelodeon was 
launched 30 years ago. When I came to Nickelodeon, the latchkey kid 
phenomenon had just begun and there was a far smaller percentage of 
divorced and two wage-earner families. Kids programming was largely 
limited to Saturday mornings, Cartoon Network did not exist and you 
still had to get off the couch to change the channel.
    American families today have tremendous demands on their time and 
consume media entertainment in vastly different ways. These families 
not only have access to traditional broadcast stations and cable 
channels, but also to an enormous array of programming via video-on-
demand, through home video sales and rentals, on mobile phones, and 
through a multitude of Internet sites. Families today can watch a 
Nickelodeon program at its scheduled time on television; order a show 
from video-on-demand; view a video stream on the Internet; download or 
watch a favorite episode from Itunes or Netflix; watch a show on their 
mobile phone; and use a digital video recorder to store scores if not 
hundreds of hours of self-selected programming, literally creating a 
personalized video-on-demand service unique to their preferences.
    In May of this year, Nickelodeon ranked # 1 in video-on-demand for 
kids' programming, with families viewing more than 24 million 
Nickelodeon programs on-demand in a single month. Families watched an 
additional 11 million Nick Jr. and Noggin programs on-demand in May. 
And that's to say nothing of the millions of streams of Nickelodeon 
video content that families enjoyed on the Internet. Clearly, young 
children cannot order on-demand content alone; parents are using 
technology to engage in co-viewing and to choose what they want their 
children to watch.
    The advent of these new technologies has been a tremendous boon to 
parents, whose lives are made easier because they have more tools to 
determine what video content their children can see and when they can 
see it. From the V-chip to cable and satellite set top boxes, parents 
now have the ability to control the video environment in their homes. 
All of the programming on Nickelodeon's channels is rated pursuant to 
the TV ratings guidelines, and Nickelodeon has been a proud participant 
in The TV Boss campaign to educate parents about parental control 
technologies.
    Importantly, children's content has flourished on cable and 
satellite television, as well as on these technologies, precisely 
because the marketplace has largely been free of government 
interference.
    Of course, none of this would be possible without compelling 
content. When you turn on Noggin or Nickelodeon, what you will see is 
one of our award winning shows. It might be Dora the Explorer or NiHao 
Kai-Lan embarking on a new adventure that entertains while teaching; or 
it could be our critically-acclaimed Nick News with Linda Ellerbee, 
which gives children across the country a chance to learn about and 
discuss important national issues (such as when kids were able to ask 
questions of both Presidential candidates during last year's Kids Pick 
the President program).
    For those of you who may not know, Dora the Explorer (which first 
aired in 2000) is a play-along, animated adventure series starring 
Dora, a seven-year-old Latina heroine whose adventures take place in an 
imaginative, tropical world filled with jungles, beaches and 
rainforests. Dora explores her world just as pre-schoolers do everyday, 
and the show is designed to actively engage its audience in an 
interactive quest using a variety of learning techniques. In every 
episode, Dora invites the audience to participate in an exciting 
adventure, where each step of their journey consists of a problem or 
puzzle that Dora and the audience must solve. Dora is proudly bilingual 
and uses her knowledge of English and Spanish to communicate with her 
friends, overcome obstacles and reach her goals. In each episode, Dora 
teaches a Spanish word or phrase to the viewers and then asks them to 
use it to solve a problem and forge ahead.
    NiHao, Kai-Lan (which premiered last year) is also a play-along, 
think-along series starring Kai-Lan Chow, a playful, adventurous bi-
lingual pre-schooler with a big heart. Kai-Lan, who speaks both English 
and Mandarin, resides in a world infused with Chinese culture--from the 
dumplings she eats and the lanterns that adorn her house to the huge 
Chinese New Year celebration she has with her family and friends. Ni 
Hao, Kai-Lan centers on Kai-Lan and her relationships with her 
grandfather, YeYe, and her animal friends.
    Not only are these shows educational, but they help open the minds 
and worlds of pre-schoolers. There is a reason that millions of kids, 
regardless of their ethnic background, can say ``thank you'' and 
``you're welcome'' in Spanish--it is because of the lessons they have 
learned from watching Dora and her friends. These shows are an 
important bridge to help children develop an appreciation for different 
cultures.
    Just as important as what you and your children see when you turn 
on an episode of Dora is what takes place behind the scenes. Hundreds 
of hours of research and testing goes into producing our children's 
programs. The when, where, what, how and why behind Dora's adventures 
are not accidental--they are born out of the expertise and input of 
child development experts and educators. Our expert consultants help us 
every step of the way, to ensure that our curriculum goals are 
appropriate for our target audience and that viewers understand the 
educational concepts. Our educational programming is thoroughly tested, 
and often screened by dozens of children as part of our research 
process, so that we can make appropriate adjustments before we show it 
to a wide audience on Nickelodeon or Noggin. It should be no surprise, 
then, that high quality educational and informational programming is 
extremely expensive to produce. A single, 30-minute episode of Dora The 
Explorer costs an average of $650,000. We also engage nearly every day 
in voluminous research on families and children to help us understand 
our audience and the challenges they confront in their day-to-day 
lives.
    Despite this cost, and again--without any governmental 
requirement--Noggin provides this educational content 24 hours per day, 
7 days per week (in addition to the Nick Jr. educational programming 
block on Nickelodeon). In fact, in just 1 month, Noggin provides more 
educational programming than all four major broadcast networks combined 
air in an entire year. It bears noting, though, that we could not 
possibly provide this high quality programming on Noggin without the 
advertising we air on Nickelodeon and our other networks. While all of 
our kids' channels abide by the commercial time limits imposed by the 
Children's Television Act, these advertisements subsidize the 
programming on Noggin and Nick Jr., making it possible for us to 
provide these unique services. Ad revenues also serve as an important 
source of funding for our long-standing commitment to public service.
    Our commitment to age appropriate programming extends to our shows 
for school age children as well. Thirty years ago, these kids had few 
television options and largely viewed programming intended for adults. 
At Nickelodeon, we responded by creating a safe viewing space that 
parents could trust while also being attractive to kids and teens. We 
promised that we would address issues that affect kids' lives and 
celebrate things important to children. As times and kids have changed, 
we've adapted too, but we've always stayed true to our promise to kids 
and parents alike.
    On the Nickelodeon channel today, kids watch because our 
programming is funny and poignant; because we inform and entertain; and 
because we speak to kids about the things going on their own lives. We 
help children feel good about themselves by showing them stories that 
let them see how others are going through the same experiences as they 
grow up. For example, True Jackson, VP, a program for teens, portrays 
the challenges kids face living (and working) in an adult world. True 
is a self-confident teen who works hard to earn the respect of her 
older co-workers. The show certainly presents light-hearted moments, 
especially in portraying the sometimes immature adults who surround 
True at work. But it also provides a platform for teens to experience 
some of the pressures of growing up by watching True meet the 
challenges she faces with confidence. Like her name, the character 
remains true to herself no matter how she may be judged by those around 
her.
    For tweens, iCarly takes full advantage of the intersection between 
television and the Internet by integrating video content created by the 
show's fans. This innovative approach to storytelling has helped iCarly 
connect directly with its core audience as it presents stories 
reflecting the experiences kids face in school, with their friends and 
in dealing with their parents.
    And all children enjoy the annual Kids Choice Awards, which honors 
the stars who matter most to kids.
    Beyond what we produce for cable and satellite television, 
beginning with The Big Help in 1994, Nickelodeon's commitment to the 
pro-social needs of children has been unparalleled. Through our award 
winning pro-social initiatives, we constantly try to engage children 
and help empower them to make a difference in their own lives, for 
their families and communities, and in the world at large. Since our 
inception, Nickelodeon has challenged its audience to make a difference 
and give back, and our viewers have answered that call. There are 
numerous Nickelodeon pro-social initiatives and partnerships that I 
could talk about; attached is a detailed list. But today I will just 
spend a few minutes talking about two of them: (1) our comprehensive 
response to childhood obesity, including our Let's Just Play campaign; 
and (2) our newest and biggest initiative to-date, The Big Green Help.
    Let's Just Play has been Nickelodeon's long-term, multimedia 
campaign designed to help children make healthy lifestyle choices. When 
an issue, such as childhood obesity, becomes so prevalent that it 
impacts the well-being of kids, our approach is to do the necessary due 
diligence to ensure that our programming, initiatives and messaging 
will help serve our audience. Long before the media frenzy started 
about childhood obesity, we felt compelled to confront the issue. We 
met with stakeholders on all sides and educated ourselves about how 
best to respond. What we learned helped guide our company in our health 
and wellness campaigns and craft content to help children lead the way.
    As part of Let's Just Play, we've encouraged kids to make the 
changes necessary to lead healthier lives. In 2007, more than 1 million 
kids signed up to take our Let's Just Play Healthy Challenge by 
following a nine-month healthy living program mirroring two role model 
kids. We partnered with the Boys & Girls Clubs of America to extend the 
reach of the program to millions more children in diverse communities 
and clubs nationwide. Our focus is not just to talk to kids about 
calories in and energy out. We go farther--helping children understand 
the underlying causes of obesity, such as lack of physical education in 
schools, families not spending enough quality time together, regional 
demographic challenges, and insufficient safe play-space in 
communities, to name a few. By providing children information about 
these causes and giving them solutions to confront obstacles they 
encounter, we are connecting the dots between information and action.
    The cornerstone of our effort has been to activate community events 
and programs for kids and families in all 50 states. We're especially 
proud of our Worldwide Day of Play, which is a key element of the Let's 
Just Play campaign. This is an entire day committed to the celebration 
of active play. We do our part by literally taking Nickelodeon and 
Noggin off the air and web--going completely dark on the channels and 
their companion websites--for 3 hours. Many parents applaud this 
commitment, although some do complain that we should not be deciding 
unilaterally when their kids watch television. But we do this to 
reinforce a simple message: Turn off the television, get up, get out, 
and go play! Together with our partners, Nickelodeon also organizes and 
hosts hundreds of events annually to inspire children to go outside and 
be active.
    Equally significant, we understand that children identify and 
connect with their favorite Nickelodeon characters. In order to ensure 
that we're consistent in encouraging healthy lifestyles, we've taken 
the tremendous step of limiting the use of our beloved characters to 
food packaging that meets ``better for you criteria'' established by 
our marketing partners in accordance with governmental dietary 
guidelines. Beloved characters like Dora or SpongeBob SquarePants can 
be seen on packaging for fruits and vegetable, including carrots, 
spinach, clementines, tangelos and oranges. We've taken these steps 
because they're the right thing to do, and because we know that being 
good to kids is good for business in the long run.
    Last year, Nickelodeon launched it's newest and biggest pro-social 
effort to date, called The Big Green Help. This global kid-led 
initiative provides information and tools to help explain environmental 
issues to kids and connect them to earth-friendly activities. The 
mission of The Big Green Help is simple: educate and empower kids to 
make earth-friendly and energy-saving activities a part of their daily 
lives. To give you an idea of what we're doing to educate and empower 
kids, I've provided each Committee member with one of The Big Green 
Help booklets we're disseminating to kids across the country.
    The decision to focus on the environment was no accident--like many 
of our important decisions at Nickelodeon--it came directly from 
listening to our audience and responding to what is important in their 
lives. And here's what we heard loud and clear:

  <bullet> Kids are concerned about the environment but do not know how 
        to make changes in their daily lives; and

  <bullet> Kids believe they have the power to affect real change on 
        the climate crisis.

    The Big Green Help provides kids a bridge between the environmental 
issues facing our society and how they can be part of the solution. 
Many of us are reminded each day by our children when we drive them to 
school that we need to wear a seat belt. Because of The Big Green Help, 
millions of parents will now be reminded, again and again, to recycle, 
to turn off the water when they brush their teeth, and to buy a car 
with better fuel economy.
    In just 1 year, The Big Green Help has partnered with a dozen 
organizations, including the Natural Resources Defense Council, 
National Wildlife Federation, the NFL and the U.S. Forest Service, 
among others, and millions of kids have pledged to take action. The 
first-ever global green digital gaming event resulted in more than 27 
million game sessions in 2008. And in the first 6 months of 2009, The 
Big Green Help has:

  <bullet> mobilized Green Teams with an all new toolkit for schools, 
        clubs and organizations that includes curriculum and activities 
        to help kids fulfill their Big Green Help pledges;

  <bullet> celebrated kids, schools and organizations' efforts on Earth 
        Day (4/22) by highlighting kids and events on-air and online. 
        Over 4,500 schools and organizations hosted Big Green Help 
        Earth Day events and kids united to Power Down across the 
        country;

  <bullet> announced a Big Green Help grants program to offer seed 
        money to schools and organizations to build out green projects 
        in local communities; and

  <bullet> produced green-themed episodes of all of Nickelodeon's 
        biggest hits including iCarly, True Jackson, Diego, and Dora 
        the Explorer.

    Just to take a quick look into the future, we are also very excited 
about the new Get Schooled partnership between Viacom (our parent 
company) and the Bill and Melinda Gates Foundation to focus on the 
education crisis in America. The campaign will combine Viacom's media 
properties (including our Nickelodeon channels and websites) with the 
key policy priorities of the Gates Foundation: increasing high school 
and college graduation rates, improving post-secondary readiness, and 
promoting the fundamental importance of education. The partnership will 
launch on September 8, 2009, with a 30-minute program airing across all 
Viacom networks. One of the cornerstones will be GetSchooled.com, which 
is designed to engage and motivate young people, parents and teachers 
as well as activate the public at large.
    With so much support and momentum, we're excited about what's in 
store.
    Speaking of the future, I wanted to close out my testimony by 
taking some time to share some of what we've learned about kids and 
families over the years and what we see on the horizon.
    Although we have witnessed profound changes to our society over the 
past three decades, some things fortunately have not changed:

  <bullet> for 3-17 year olds, family is everything;

  <bullet> kids remain the focal point of their family's lives;

  <bullet> kids and teens love their parents;

  <bullet> families value their time together and will sacrifice 
        personal pleasure to connect;

  <bullet> as much as they like TV, kids, tweens and teens would rather 
        engage in a social or physical activity;

    and

  <bullet> the three words that people most frequently use to define 
        their families are ``loving'', ``fun'', and ``busy.''

    Where we have seen change is in the role that technology plays in 
the lives of kids and their families. For pre-schoolers, the Internet 
is largely an extension of the television shows and characters they 
love; parents view learning to use the computer as a skill unto itself. 
As kids grow older, the Internet becomes an outlet to explore personal 
interests, help with homework and have fun; by the time they reach 
their teenage years it has become an important tool for communication 
and self-expression through social media.
    Nickelodeon provides families with a full range of websites with 
content targeting kids at all stages of their development. From 
NickJr.com, the leading website for parents of young kids and the #1 
website for pre-schoolers, to The-N.com, a dynamic platform for teens 
with groundbreaking interactivity, there is something for everyone. We 
even have ParentsConnect.com, featuring the tagline ``We're not 
perfect, we're parents,'' which strives to celebrate the reality of 
parenthood and make parents' lives easier. According to Nielsen, 16 
million kids aged 2-11 were online in May of this year--they made up 10 
percent of all Internet users in the country. That same month, nearly 7 
million unique users visited Nick.com's broadband video player, viewing 
an astonishing 125 million video streams. Nickelodeon also has begun to 
make its content available via mobile devices; families can get both 
traditional programming as well as short form episodes of their 
favorite shows through Verizon and AT&T phones.
    Clearly, parents and children alike are telling us through their 
daily actions that they do not use media the same way families did a 
generation ago. The Internet has empowered parents and kids to decide 
what media is consumed. We respect that, and we support helping kids 
and their parents navigate the entertainment and educational 
opportunities available through technology. At the same time, we take 
online safety very seriously. We work closely with partners such as the 
National Center for Missing and Exploited Children (NCMEC) to 
incorporate age-relevant safety tools into all of our websites to 
ensure, to the greatest extent possible, that our sites protect our 
users, while providing them with the benefits of socializing online.
    Specifically, for social networking features, we employ a 
combination of human monitors and technical solutions (such as word 
filtering), taking a multifaceted approach to ensuring a good 
experience for our users. In all of our Nickelodeon-branded sites, our 
monitors review user communications prior to publication; and, within 
our adult-directed sites, in addition to our filtering systems, 
monitors review communications flagged as inappropriate by other users. 
Our filtering systems are updated regularly. For synchronous 
``chatting'' between users, we limit communication to a list of pre-
approved, kid-appropriate words. With respect to asynchronous chatting, 
such as on message boards, we employ a mix of human monitors and a 
filter technology that flags inappropriate messages. For example, we 
have incorporated into our filter terms related to pedophiles from a 
phrase list developed by the NCMEC. In addition, when children register 
to our kids sites, they are asked to create a generic user name (e.g., 
a ``Nick Name'' on Nick.com) rather than use their real name--in fact, 
we discourage kids from using their real names, and if they sign up for 
synchronous chatting, we send confirmation e-mails to parents when 
their children register. And we provide links to safety guides at the 
bottom of all of our children's websites, so that parents have resource 
to turn to when they want additional information about protecting their 
kids online.
    As much as technology--cell phones, videogames and the Internet--
has impacted the ways kids and families consume information and 
interact, television remains an important part of their lives. And one 
of the statistics that stands out for us is that, despite all of the 
distractions, co-viewing on kids' cable networks does help bring 
families together. Families today treasure the time they spend 
together, want more of it, and even as they are pulled in many 
directions, co-viewing television--the heart of family entertainment--
remains something that parents and children can enjoy with one another 
in their free time. Particularly exciting for us, is that Nickelodeon 
and Noggin are the networks that families are most likely to watch 
together. In 2009, these two networks have the highest percentage of 
adults 18-49 who are watching with kids 2-11, among all kids' networks. 
In fact, co-viewing levels for kids' cable networks are much higher 
than co-viewing for broadcast channels. We are proud to make 
programming that brings families closer.
    In conclusion, I want to thank you again for giving me the 
opportunity to come and tell you the Nickelodeon story. In the past 30 
years, we've witnessed a generation of kids who grew up watching 
Nickelodeon become parents themselves.
    And of all the statistics I've cited today, and in the mountains of 
research we've piled up over the past three decades, perhaps the most 
important and gratifying thing for us is that those parents who grew up 
watching Nickelodeon have the greatest trust in our networks and can 
now share the same experiences with their own children. That trust and 
our honest dialogue with children mean that we often know first what 
will be next for kids.
    We earned that trust and look forward to continuing to earn it, 
build it, and maintain it by providing them and millions of other 
families with compelling educational and entertainment programming.
    It bears repeating that Nickelodeon has grown from a single channel 
to four networks plus distribution on the Internet, mobile phones, 
video on-demand and elsewhere all without any government mandate. No 
rule or regulation ever compelled us to invest in this incredible array 
of children's programming. In fact, the light regulatory touch that the 
government has relied on for cable and satellite channels has produced 
the incredible competition and options that we see today. As technology 
has changed, along with children's viewing habits, the Federal 
Communications Commission has responded by updating its commercial time 
limitation rules to ensure that the essential protections of the 
Children's Television Act are honored. Beyond that, however, we urge 
the Committee to recognize how competitive the children's programming 
market is today, and to continue to let us develop new and innovative 
ways to educate and entertain children without additional regulation.
Summary of Nickelodeon Pro-social Initiatives
    The Big Green Help--The Big Green Help is a multiplatform campaign 
that provides information and tools to help explain environmental 
issues to kids, and taps into Nickelodeon's history of addressing 
important topics. The Big Green Help was developed from research which 
shows that kids believe that they can lead the way in addressing 
positive change for the environment. Launched Earth Day 2008, The Big 
Green Help connects families to ways they can help the environment at 
home, in-school and in their communities.
    The centerpiece of The Big Green Help's 2008 campaign is the first-
of-its-kind global multiplayer online green game for kids--''The Big 
Green Help Global Challenge.'' Additionally, several customized online 
mini-games incorporate The Big Green Help partner organizations--Boys & 
Girls Clubs of America; Girl Scouts USA; The LeBron James Family 
Foundation; National Wildlife Federation; Natural Resources Defense 
Council; National 4-H Council; and NFL. These partners help extend the 
campaign's reach through local grassroots activities and programs where 
kids can fulfill virtually volunteered hours.
    For more information, visit www.nick.com/biggreenhelp.
    Kids Pick the President--Nickelodeon's year-long Kids Pick the 
President campaign was conceived to educate and empower kids across the 
country to have a voice in the U.S. Presidential election. Kids have 
correctly predicted the next President in five out of the last six 
national elections. In 2008, more than two million kids voted in 
Nickelodeon's ``Kids' Vote''--the most ever in the history of the 
campaign. The 2008 Kids Pick the President campaign included the first-
ever kids' primary; four Nick News with Linda Ellerbee Kids Pick the 
President television specials; the `Kids' Vote' in October; a special 
online election website; and for the first time, coverage of the 
President's Inauguration.
    For more information, visit www.nick.com/kpp.
    Kick One, Pick One--Continuing Nickelodeon's legacy of empowering 
its audience with information and tools to help better their lifestyles 
and communities, on Jan. 1, 2008, it launched ``Kick One, Pick One''. 
This pro-social initiative aims to encourage families to eat smarter, 
get fit and spend more time together. The Nick-at-Nite initiative runs 
on multiple platforms through: a series of public service announcements 
focusing on proper nutrition; getting families physically active and 
encouraging them to simply take time for family conversation; a website 
packed with information about the campaign, helpful tips and a family 
contract to measure their commitment; and an on-air, online and radio 
promotional campaign.
    Let's Just Play--For several years, the Let's Just Play program has 
empowered kids with resources, tools and the information they need to 
live healthier lifestyles. Nickelodeon has committed millions of 
dollars and air time to health and wellness messaging, and has awarded 
approximately $3 million in grants and through its ``Let's Just Play 
Giveaway'' to schools and after-school programs to help provide 
resources that will create and expand opportunities for physical play.
    In November 2005, ``Let's Just Play'' entered into a partnership 
with The Alliance for a Healthier Generation--an initiative between the 
William J. Clinton Foundation and the American Heart Association--to 
combat the spread of childhood obesity. The three organizations 
combined forces on a comprehensive media and public awareness campaign, 
encouraging young people to engage in healthy and active lifestyles. 
Nickelodeon used the ``Let's Just Play'' campaign and its multimedia 
platforms, and worked with the Boys & Girls Clubs of America and other 
partners, to reach millions of young people across the country and 
spread the message of the Healthier Generation movement.
    For more information, visit www.nick.com/letsjustplay.
    Worldwide Day of Play--Nickelodeon's Worldwide Day of Play, part of 
the Let's Just Play program, is an entire day committed to the 
celebration of active play. During the Worldwide Day of Play, which 
takes place on a Saturday, when we typically have our highest audience, 
we take Nickelodeon and Noggin off the air and web--going completely 
dark on the channels and their companion websites--for 3 hours to 
reinforce one simple message: turn the television off, get up, get out 
and go play!
    Along with Boys & Girls Clubs of America, the NFL, and thousands of 
local schools and community-based organizations, Nickelodeon hosts 
hundreds of events annually that take place within communities 
throughout the world. Nickelodeon's Worldwide Days of Play have 
inspired millions of kids to go outside and be active.
    Get Ready to Read--Noggin is delivering on its mission to be ``like 
preschool on TV'' by committing to doing something about reading. We 
have made early childhood literacy a curricular priority. In 
partnership with First Book, we use our TV network, website and 
outreach to put books in the hands of kids who need them.
    The network is a passionate advocate of words--all kinds of words--
and uses every possible opportunity to build its audiences' vocabulary 
and their own love of language. Noggin does this through song, its 
interstitials and a wealth of online games. The channel even goes so 
far as to opportunistically include phonics, rhyme and other early 
literacy-based content into its on-air menus and promotions.
    Noggin develops and airs series, like Pinky Dinky Doo, that enhance 
preschoolers' listening and comprehension skills as well as their 
understanding of narrative elements like sequence, cause and effect, 
setting, and character.
    The Get Ready To Read campaign aims to build early literacy skills 
and awareness with the goal of generating 1 million new books for at-
risk preschoolers.
    The N--The N's pro-social strategy has been to partner with 
relevant organizations that tie thematically to its programs or 
individual episodes. Specifically:

  <bullet> Degrassi/PAX--The N partnered with PAX Real Solutions to Gun 
        Violence (PAX reports that in 80 percent of school shootings, 
        the attacker told someone before he/she committed the crime). 
        The N created a public service announcement with Aubrey Graham 
        (Jimmy from Degrassi) for PAX's 1-866-SpeakUp, an anonymous 
        phone line where viewers can report weapons threats at school. 
        The PSA premiered during the episode of Degrassi where a school 
        shooting took place. The PSA won a Beacon Award.

  <bullet> South of Nowhere/GLAAD--The N's South of Nowhere is the 
        first prime time series to partner with GLAAD on it's Be An 
        Ally and Friend campaign. The cast filmed a PSA, directing 
        viewers to the GLAAD.org site, where they could learn how to 
        support their friends and loved ones in their coming out 
        process. The PSA premiered on-air during the Season Two 
        premiere of South of Nowhere.

  <bullet> Give Some, Get Some Auctions--The N auctioned off items from 
        its shows and gave the proceeds to 4 different charities during 
        the 2006 Holiday season. For 4 weeks, viewers were directed 
        from the air to the-n.com to bid on real items from The N 
        original series. Each week a different show was featured. Week 
        one (Instant Star) supported the Starlight Foundation, week two 
        (Degrassi) the Food Bank for New York, week three (South of 
        Nowhere) went to My Friend's Place and Week Four (Beyond the 
        Break) went to Oceana.
                          The Big Help Legacy
    Nickelodeon has a strong pro-social legacy. The company believes 
its responsibility to kids extends beyond offering them quality 
entertainment on-air and online, but to also provide them with tools 
and information to empower them to take action.
A History of Service and Volunteerism
    In 1994, Nickelodeon launched The Big Help, a public service 
campaign that connected kids to service and volunteering. The Big Help 
was in response to the company's belief that if kids were connected to 
constructive activities early on in life, they would be less likely to 
engage in destructive activities later on. For many years, the Big Help 
brought millions of kids into the national and local volunteer 
infrastructure and raised the profile of the impact that kids can make 
with service opportunities.
    The Big Help campaign broke the mold of a traditional linear 
television campaign and extended its reach to build a grassroots 
infrastructure that partnered with more than 28 national service 
partners. Every year, Nickelodeon held the Big-Help-A-Thon, a live 8 
eight-hour on-air block where kids were encouraged to call-in and 
pledge volunteer hours in their communities. Over the course of the 
campaign, more than 33 million kids to called-in and pledged 383 
million volunteer hours.
The Big Help's Lasting Impact
    The Big Help achieved almost total awareness among the kid 
demographic, changed kids' perception about their responsibility to 
their communities and educated and encouraged tens of millions of kids 
to get involved. Even after the initial launch of The Big Help, 
partnerships with organizations such as the American Red Cross extended 
past the campaign as kids continued to rally around major crises 
including the 2004 Tsunami and Hurricane Katrina. Today, the company's 
current commitment to the environment, The Big Green Help, is in line 
with the powerful pro-social legacy of volunteerism established in the 
1990s with the Big Help.
Big Help Partners
    American Camping Association, American Humane Association, 
America's Promise, Big Brothers Big Sisters, Feeding America, Boys & 
Girls Clubs of America, Cable in the Classroom, Feed the Children, Girl 
Scouts of the USA, Girls Incorporated, Habitat for Humanity, The Jane 
Goodall Institute, Keep America Beautiful, March of Dimes, National 4-H 
Council, National Association of Elementary School Principals, The 
National PTA, National Recreation and Park Association, National 
Wildlife Federation, Points of Light Foundation, Second Harvest, United 
States Department of Education Office of the Secretary, YMCA of the 
USA, Youth Service America, YWCA of the USA
                           The Big Green Help
Nickelodeon Empowers Kids to Take the Lead on Environmental Action
    The Big Green Help is a global kid-led initiative that provides 
information and tools to help explain climate change to kids and 
connects them to earth-friendly activities in their everyday lives.
    Mission: Educate and empower kids to make earth-friendly and 
energy-saving activities a part of their daily lives.
Research Based
    Nickelodeon partnered with the Pew Center on Global Climate Change 
to understand kids and parents' attitudes and behaviors toward the 
environment.

  <bullet> Kids are concerned about the environment but do not know how 
        to make changes in their daily lives.

  <bullet> Kids believe they have the power to affect real change on 
        the climate crisis. Nickelodeon listened to kids and crafted 
        The Big Green Help to connect the dots between what climate 
        change is and how kids can be part of the solution.
Who Is Involved
    Leaders in the field of youth and the environment have partnered 
with Nickelodeon to bring The Big Green Help to life with programs, 
activities and events in schools and clubs across the country.

  <bullet> National Wildlife Federation

  <bullet> Natural Resources Defense Council

  <bullet> Girl Scouts USA

  <bullet> The Boys & Girls Clubs of America

  <bullet> The National 4-H

  <bullet> LeBron James Family Foundation

  <bullet> National Football League

  <bullet> National Environmental Education Foundation

  <bullet> National Education Association

  <bullet> The U.S. Forest Service

  <bullet> ERTHNXT
First Year Accomplishments
    Millions of kids around the world have joined The Big Green Help 
and committed themselves to take action on the environment. In its 
first year, the campaign included:

  <bullet> 5 green themes to drive educational messaging: Slow the 
        Flow, Curb the Car, Recycle/Precycle, Grow the Green and 
        SpongeBob & You Save the Big Blue

  <bullet> The Big Green Help Global Challenge was the first-ever green 
        global digital gaming event. Kids had the opportunity to Play, 
        Pledge and Act as they played the games, pledged real world 
        hours and fulfill their pledges in communities across the 
        country. There were over 27 million game sessions in 2008

  <bullet> Almost 2 million kids pledged to take action for the 
        environment

  <bullet> Nickelodeon stars Miranda Cosgrove, KeKe Palmer, Lily Collin 
        and J.J., as well as celebrities like LeBron James and Cameron 
        Diaz

  <bullet> Walmart partnership at launch to give out over 1.3 million 
        seed cards on Earth Day 2008

  <bullet> Cameron Diaz presented the first ever Big Green Help Award 
        to Leonardo DiCaprio at the 2009 Kids' Choice Awards watched by 
        8 million kids nationwide
2009 Snapshot
    The Big Green Help kicked off its second year on Earth Day 2009 
with a big idea--kids everywhere united in a moment of solidarity by 
turning off lights. Power Down was part of a drive for kids to form 
Green Teams in communities worldwide where they work together to make 
earth-friendly choices and participate in activities.
    The network did the following:

  <bullet> Mobilized Green Teams with an all new toolkit for schools, 
        clubs and organizations with curriculum and activities to help 
        kids fulfill their Big Green Help pledges

  <bullet> Celebrated kids, schools and organizations' efforts on Earth 
        Day (4/22) by highlighting kids and events on-air and online. 
        Over 4,500 schools and organizations hosted Big Green Help 
        Earth Day events and kids will united to Power Down across the 
        country

  <bullet> Announced a Big Green Help Grants program to offer seed 
        money to schools and organizations to build out green projects 
        in local communities

  <bullet> Produced green-themed episodes of all of Nickelodeon's 
        biggest hits including iCarly, True Jackson, Diego, and Dora 
        the Explorer

  <bullet> Incorporated Big Green Help messaging into SpongeBob 10th 
        Birthday celebrations
Looking Ahead
    Nickelodeon will continue to support kids to form Green Teams in 
communities nationwide and will encourage schools and organizations to 
apply for Green Grants.
                          Health and Wellness
    For over 6 years, Nickelodeon has championed health and wellness as 
its premier pro-social initiative. This effort represents a commitment 
of more than $30 million in resources of the company and a filter 
through which the company reviews all of its business initiatives 
across all platforms--television, online, digital, consumer products 
and recreation. The issue of childhood obesity is crucial to the 
Nickelodeon audience, and it is the company's corporate responsibility 
to be part of the solution for kids and families to navigate the issue. 
That is why Nickelodeon has sponsored focus groups, met with 
governmental and regulatory agencies and commissioned a comprehensive 
study, Kids, Food and Eating Behaviors, in partnership with Yale 
University.
Let's Just Play
    In 2002, in response to reports that kids were leading sedentary 
lifestyles, experiencing over-scheduling and cutbacks on PE and recess 
and the depletion of community resources, Nickelodeon launched the 
Let's Just Play campaign. Let's Just Play featured city-wide play days 
in communities across the country as well as a grassroots component 
with founding partners, the Boys & Girls Clubs of America. The goal of 
the campaign is to get kids to participate in free-form play and other 
fitness activities.
    Nickelodeon continues this tradition with its annual Worldwide Day 
of Play, now in its 6th year. Nickelodeon goes dark for 3 hours and 
turns off all programming as a further way to amplify the importance of 
kids being healthy and active. In partnership with the Boys & Girls 
Clubs of America, National PTA and the National Football League, 
Nickelodeon co-hosts thousands of grassroots Worldwide Day of Play 
events across the globe.
Let's Just Play Go Healthy Challenge
    In a signature partnership with the W.J. Clinton Foundation and the 
American Heart Association, Nickelodeon launched the Let's Just Play Go 
Healthy Challenge as the kids' pillar of the Alliance for a Healthier 
Generation. The Go Healthy Challenge is a television series and website 
that encourages kids to make the changes necessary to lead healthier 
lives by mirroring four role model kids featured in the series. These 
kids modeled healthy behavior and by helping kids at home understand 
the causes of obesity such as lack of physical education, families not 
spending quality time together, regional demographic challenges and 
insufficient safe play spaces. To bring the Go Healthy Challenge 
experience into the audience's homes, the on-air campaign was 
complemented by online resources such as a downloadable tracker to log 
personal progress, as well as a curriculum based on monthly themes to 
follow. More than 1 million kids have pledged to maintain an active and 
healthy lifestyle as part of the Let's Just Play Go Healthy Challenge.
    To supplement the Go Healthy Challenge, Nick News with Linda 
Ellerbee produced special edition shows featuring reports on obesity, 
good nutrition and health which included a variety of perspectives from 
kids, experts, famous chefs and even President Clinton.
Let's Just Play Advisory Committee
    Nickelodeon formed the Let's Just Play Advisory Committee, a team 
of experts on child nutrition, exercise, psychology and civic 
engagement, that worked to provide ongoing expertise in the development 
and implementation of the campaign.
Let's Just Play Grant Program
    As a response to the hurdles and lack of resources that 
organizations continue to face to get kids active, Nickelodeon has 
given $3 million in local seed funding for health, nutrition, physical 
education and other fitness programs through the Let's Just Play 
Giveaway, a kid-driven grants program. Kids partnered with their school 
or community-based organization to apply for grants. Winners were 
announced on-air and online, thereby raising awareness about the issue 
of resources among kids.
           Worldwide Day of Play--Saturday September 26, 2009
    In 2004, Nickelodeon pioneered an unprecedented commitment to 
health & wellness. In a bold move, Nickelodeon turned off all 
television programming for 3 hours to deliver a simple and clear 
message to kids--Turn the television off, get up, get out, and go play! 
To make Worldwide Day of Play real for kids, Nickelodeon partnered with 
Boys & Girls Clubs of America and local schools and community 
organizations nationwide to host over 650 local Worldwide Day of Play 
events in each of the 50 states and 4 countries internationally. Taking 
it one step further, Nick has awarded over $2.5 million in grants to 
over 450 schools and community organizations to expand physical 
education and recreation programs.
Growing the Movement
    In partnership with the W.J. Clinton Foundation, the American Heart 
Association, Boys & Girls Clubs of America, the NFL, Big Brothers Big 
Sisters of NYC, and local schools and community-based organizations, 
Nickelodeon continues to grow WWDOP. In 2006, over 850 events were held 
worldwide. That number doubled in 2007, with over 1,700 events taking 
place in 15 countries. Over 250,000 kids participated in over 1,800 
events in each of the 50 states, 10 NFL teams hosted WWDOP events with 
their players, and NFLRush.com went dark from 12-3 p.m. This year, we 
seek to surpass those numbers with more events in more cities and more 
countries. September 26, 2009 marks Nickelodeon's 6th annual Worldwide 
Day of Play.
Highlights

  <bullet> From 12-3 p.m. EST, Nickelodeon, The N, Noggin, and 
        Nicktoons Network turns off all programming on television and 
        goes dark for 3 hours.

  <bullet> Throughout the rest of the day, schools and organizations 
        hosting local events are scrolled on Nickelodeon.

  <bullet> Nickelodeon Kids and Family sister sites participate as 
        well. Nick.com, The-N.com, Nicktoonsnetwork.com, Noggin.com, 
        NickJr.com, Neopets, Shockwave, Quizilla, AddictingGames and 
        Parentsconnect roadblocked access from 12-3 p.m.

  <bullet> Health and wellness messaging was featured throughout the 
        day on Nick, including new interstitials and special 
        programming.
                               Nick News
    Nick News, produced by Lucky Duck Productions, is now in its 19th 
year, and is the longest-running kids' news show in television history. 
It has built its reputation on the respectful and direct way it speaks 
to kids about the important issues of the day. Over the years, Nick 
News has received more than 20 Emmy nominations and numerous Emmy wins, 
including last year, when ``The Untouchable Kids of India'' won the 
2008 Prime Time Emmy for Outstanding Children's Program. In 2007, 
``Private Worlds: Kids and Autism'' won the Emmy for Outstanding 
Children's Programming. In 1994, the entire series, Nick News, won the 
Emmy for Outstanding Children's Programming. In 1998, ``What Are You 
Staring At?'' a program about kids with physical disabilities, won the 
Emmy for Outstanding Children's Programming. In 2002, ``Faces of Hope: 
The Kids of Afghanistan,'' won the Emmy for Outstanding Children's 
Programming. In 2004, two Nick News Specials, ``The Courage to Live: 
Kids, South Africa and AIDS'' and ``There's No Place Like Home,'' a 
special about homeless kids in America, were both nominated for the 
Outstanding Children's Programming Emmy. In 2005, it won the Emmy for 
Outstanding Children's Programming for its show, ``From the Holocaust 
to the Sudan.'' Nick News, produced by Lucky Duck Productions, is also 
the recipient of three Peabody Awards, including a personal award given 
to Ellerbee for her coverage for kids of the President Clinton 
investigation. The series has also received two Columbia duPont Awards 
and more than a dozen Parents' Choice Awards.

    The Chairman. Thank you very much. Dora is big in our 
household.
    Dr. James Steyer, CEO of the Common Sense Media, from San 
Francisco. And you came all this way, breaking into your 
vacation, and we thank you. But, we think it's worth it.

  STATEMENT OF JAMES P. STEYER, CEO AND FOUNDER, COMMON SENSE 
                             MEDIA

    Mr. Steyer. Well, I think it's worth it, too, Chairman 
Rockefeller. And thank you very much, to you, Senator Pryor, 
Senator Begich, for having us here today.
    I'm also a Consulting Professor at Stanford University, 
where I've taught for over 20 years. I am sure I have had 
people from Alaska, Arkansas, and many from West Virginia, in 
my classes, in the last year alone, so there you go.
    I'm also a dad of four kids, so I always think of that----
    The Chairman. I'm leaving, I'm so embarrassed.
    Mr. Steyer. OK, fair enough.
    [Laughter.]
    Mr. Steyer. Actually, I want to try to summarize what 
Chairman Genachowski said, and some of my friends and 
colleagues on the panel, because you were right, Chairman 
Rockefeller, we do all know each other on this panel. And I 
think I want to go back to something that you said at the end 
of your remarks.
    To us, this is truly a transformational moment in the 
history of media in this country. And I believe you said, 
Senator Rockefeller, this really is where our Nation is headed, 
and I think that's correct. And I think that we need to take a 
look at this issue in that light; not just in the context of 
where we are in the Children's Television Act of 1990, but 
where the educational and economic future of this country is 
headed. Because media, on all of its various platforms that 
exist today, and that will exist over the next 10 or 20 years, 
is central to our domestic and international security and 
future, period.
    You cannot look at the issues that we're talking about 
without a basic framework, so we'd just like to suggest one for 
you today that could inform this committee's leadership in this 
area. And you have demonstrated real leadership in this area. 
And I do believe what you said to Chairman Genachowski, that 
this is a new era. And I think that's critically important. 
But, I want to create that framework and, in some ways, echo 
what Julius said earlier, in his comments. And I think it's 
three-fold. Basically, educate, empower, and protect, whether 
it's television, whether it's your apps that my 5-year-old can 
download on my iPhone, or whether it's John's latest ION TV on 
whatever device he has over there.
    And let me frame that for you very simply, because I think 
this is it, and I think that this committee has a chance to 
lead this Nation into the 21st century, finally, on these 
issues.
    When we talk about education, I think there are two key 
issues. First of all, there needs to be far more quality 
educational content distributed, not just on television but all 
platforms. Cyma's correct about Nickelodeon, and Mr. Lawson's 
correct about ION. But--the content is there, but it has to be 
distributed across all of the platforms. That's first.
    But, the second part of education is educating kids, but 
also their parents and teachers, about digital literacy and 
citizenship. That is what the essence of this really is about, 
at the end of the day. We live in a digital media world, as 
Chairman Genachowski said on numerous occasions in his 
testimony, and if our kids are not digitally literate, they 
will not compete, they will not grow up in the right way, and 
we need to educate their parents and teachers in that context, 
as well, because they can't teacher-parent without that kind of 
literacy. So, that has to be part of our mission here.
    We also talked--and there are--we can--in the discussion 
period, we can talk more, what we mean by digital literacy, and 
what this committee and this Nation ought to do in that regard.
    Empowerment is very simple, Mr. Chairman, that's your 
``little red button.'' In fact, we're much closer to the little 
red button than you may realize. At Common Sense we rate and 
review every movie, TV show, video game, website, book, music, 
or whatever. Well over 10,000 titles, to date. We're in the 
middle of discussing whether or not we should rate all the apps 
on iPhones.
    That's a huge editorial undertaking, but the information 
exists today, and the technology exists today. So, leadership, 
from this committee and the FCC, in empowering parents across 
the country to access simple, easy-to-use, third-party, 
nonpartisan information around media platforms, is critical. 
And I believe that the technology exists and the information 
exists, so a little leadership from this committee and from the 
FCC will do a ton in that regard.
    We're essentially a Consumer Reports guide for media, from 
a kids and family perspective, and it's out there, it has to be 
used. We have 50-60 million users over the course of a year, 
now. So, your little red button can be made available to every 
family in this country soon.
    The third element of this framework is to protect. You 
mentioned that in your opening remarks, Mr. Chairman, and I 
agree that that's critical. But, the protection element not 
only comes from industry leadership, from folks like 
Nickelodeon and others, but from this committee and from the 
FCC.
    I teach First Amendment law at Stanford, and I very much 
believe that we can frame protective efforts by this committee, 
and by this government, that balance important First Amendment 
freedoms with the best interests of our kids and families. 
Whether it's issues like childhood obesity, that Gary talked 
about, or violence, or inappropriate sexual messages during 
ball games I'm trying to watch with my kids, there are enormous 
public health issues implicit in a lot of our media today. 
They're not coming out of Nickelodeon, but they're coming out 
of adult content that kids are consuming and are sometimes 
creating. That protective landscape can be created and overseen 
by this committee, as I said, consistent with the First 
Amendment principles that I have to teach every year to my 
students at Stanford.
    At the end of the day, this really is that very special 
moment and that transformational period you're talking about, 
Mr. Chairman. And this committee has an opportunity to work 
with people on both sides of the aisle. And one of the great 
aspects of the issue we're talking about today is, it is a 
truly bipartisan concern. This is truly an issue that 
Republicans and Democrats can come together on to forge a new 
consensus and new investment and leadership to change our kids' 
future.
    So, I would leave you by saying, you couldn't have picked a 
more important topic. It's a lot--it's so important, that I was 
willing to give up my vacation for a couple of days. And I 
would urge you to think big, think dramatic, make major 
investments, and all of our kids will benefit from what you all 
do.
    Thanks a lot.
    [The prepared statement of Mr. Steyer follows:]

        Prepared Statement of James P. Steyer, CEO and Founder, 
                           Common Sense Media
    Mr. Chairman and members of the Senate Commerce Committee, thank 
you for allowing me to speak to you about improving media for the 
benefit of children in this new Digital Media Age. My name is Jim 
Steyer, and I am the CEO and Founder of Common Sense Media.
    Common Sense Media is a nonpartisan, not-for-profit organization 
dedicated to improving the media entertainment and technology lives of 
kids and families. Our mission focuses on educating and empowering 
parents, teachers, and young people themselves about how best to 
navigate this extraordinary 24/7 media environment we all live in. Via 
our website, Common Sense provides information about Internet safety 
and media smarts in schools and community settings, as well as 
trustworthy ratings and reviews of various media--including movies, TV 
shows, and video games--to assist parents and educators in gauging 
whether content is age appropriate. We also provide a strong and 
independent public forum so that families can have a choice and a voice 
about the media they consume.
    I have been involved in children's media and education for more 
than 20 years as a parent, teacher, child advocate, and media 
entrepreneur. I founded Children Now in 1988 and served as its 
president for 8 years, during which time we helped craft the original 
Children's Television Act regulations. I then founded and served as CEO 
of JP Kids, an educational media company that developed kid-friendly 
content for TV, online, and other platforms. I am, by training, a civil 
rights and civil liberties lawyer, and I have taught popular courses in 
these topics as a professor at Stanford for the past 23 years. Finally, 
and most importantly, I am a dad of four kids of my own.
    We founded Common Sense six years ago because we recognized that 
parents and educators were not getting the help they needed in this 
rapidly evolving world of media, entertainment, and technology. Common 
Sense's rapid growth during these past 6 years provides clear testament 
that there is an enormous need for high-quality, trustworthy 
information, as well as a strong nonpartisan voice for kids and 
families across the country.
    As we all know, media and entertainment profoundly impact the 
social, emotional, and physical development of our Nation's children. 
And we are at an historic and truly transformative moment in the 
development and impact of media and technology on our society. Parents 
and educators need help understanding and managing what their children 
see, hear, and surf. But who should provide this help? In truth, 
several key institutions should--nonprofit organizations, schools, the 
media industry, and government. Each of us has an important role to 
play. Parents must parent, but we cannot simply tell parents that they 
must do more. We must help them by providing the tools, information, 
and knowledge they need to make smart choices for their families. The 
same is true for teachers in our 21st-century classroom.
    Congress has a very significant role to play in the field of kids 
and media, as evidenced by this hearing today. Another example of 
Congress' role is this Committee's leadership in the passage last year 
of the Child Safe Viewing Act. We are very grateful to Sen. Pryor for 
his leadership in introducing that legislation and to the wisdom and 
commitment of this entire Committee in moving it forward. We eagerly 
anticipate the FCC's report on the topic next month and look forward to 
working with the Committee and the FCC on steps to empower America's 
families with the tools they need to protect and educate every child in 
this country. The good news, as is reflected in the actions and 
leadership of this Committee, is that these are truly bipartisan 
concerns, with leaders from both sides of the aisle joining together to 
serve the best interests of America's kids.
    Industry clearly has a very significant role to play as well. 
Producers need to create more high-quality, educational programming. 
Networks and cable stations need to consistently air far more of that 
kind of programming and also be more considerate of who makes up the 
audience of their programming. To take just one example, the TV 
networks need to be far more mindful of the commercials and promos that 
are aired during programs that millions of children watch. And 
advertisers need to severely restrict advertising of junk food to 
children, who do not necessarily have the cognitive ability to 
differentiate between entertainment and advertising.
    Education and children's organizations also have a critical role to 
play. For example, Common Sense helps millions of families each month 
by rating and reviewing a wide range of media content. As a truly 
independent third party, we serve as a trusted source for information, 
tools, and advice. We provide a trusted conduit between the media 
industry, parents, and teachers, and offer easy-to-use information on 
nearly every media title and topic under the sun.
    All of us represented here today have an important role to play in 
serving children, but we cannot play these roles in a vacuum. We must 
work together. That's not to say that there should not be competition 
between leading media industry players--that's what drives innovation 
and creativity. But collaborating and coordinating activities that will 
benefit young people and their families can enable even small 
contributions to produce enormous benefits for our Nation's kids, both 
at home and at school.
    As others have discussed today, the TV and media landscape has 
changed in ways that none of us could have imagined 20 years ago. We 
are at a critical moment of opportunity, and it is incumbent upon each 
of us to seize that moment and act with wisdom and foresight to serve 
future generations. Television and other media are now vastly more 
accessible on a myriad of platforms. You can watch full episodes of 
your favorite shows by simply pointing your smartphone's browser to 
Hulu.com or TV.com. On YouTube--a company that didn't exist a mere 5 
years ago--young people are watching hundreds of millions of videos a 
day. Perhaps most radically different however, is the fact that the 
very nature of creating and producing media content has drastically 
altered. No longer is media the purview of a handful of large broadcast 
or cable networks. On YouTube alone, users are creating and uploading 
hundreds of thousands of videos daily--in fact, during every minute of 
this hearing, at least 10 hours of video will be uploaded to YouTube. 
And with the recent DTV transition and the billions of dollars we will 
spend to expand broadband across the nation, this landscape will change 
even more dramatically in the years ahead.
    The Digital Media Age creates myriad opportunities and challenges 
for today's families and educators. It opens the world up to our 
children to learn and explore, yet it also makes them vulnerable to 
harm. So how do we ensure that America's kids have the knowledge, 
ethics, and skills they need to harness the educational and economic 
power of the digital world responsibly and to avoid its potential 
dangers? This critical question requires urgent attention from 
policymakers, parents, educators, and the media industry. And, as we 
proposed to the FCC during their recent Notice of Inquiry, it should be 
the centerpiece of our national broadband plan. Working together, we 
must create the teaching and parenting tools that will enable us to 
educate, empower, and protect our children and bring teachers and 
parents up to speed as well. As we all know, our kids are the true 
natives in this rapidly evolving digital media environment, but parents 
and educators also need to do their homework.
    This new Digital Media Age also presents this Committee and this 
Congress with a unique and extraordinary opportunity to reshape the 
media and education landscapes in positive ways. And we at Common Sense 
urge you to think big . . . very big. We encourage you to use your 
power to examine both the positives and negatives of TV and other media 
platforms. And we would suggest that you frame your discussions and 
legislative efforts around three basic concepts that media should 
provide to America's children in this digital age. We must:

  <bullet> Educate,

  <bullet> Empower, and

  <bullet> Protect.

    Educate: It's time to make dramatic new improvements to the 
original goals and accomplishments of the Children's TV Act. We should, 
of course, encourage more educational TV and media. Yet in 2009 and 
beyond, we must also educate kids--and their parents and teachers--
about this digital media age, as well as the enormous amounts of video 
and other content that kids can now access, create, and share on so 
many different platforms at any hour of the day or night.
    Empower: Parents must be able to make informed choices about the 
media that their kids consume. Every family is different--and indeed, 
every child is different--so all families will not make the same 
choices. Yet all families need easy-to-use tools and independent 
information to make safe, smart, and responsible choices about the 
media that their children consume and create.
    Protect: The Children's Television Act focused on educational 
children's programming and required 3 hours per week from broadcasters. 
But as every parent knows, there's a great deal of TV and other media 
that isn't designed for children but still reaches millions of them. 
Whether the concern is sex, too much violence, interactive advertising, 
junk food marketing, or other inappropriate advertising and promotions 
during sporting events, we must define a healthy balance between safe 
and smart digital media practices for kids and families and other 
important societal rights. As someone who has taught courses on First 
Amendment law and civil rights to thousands of Stanford students over 
the past 20 years, I know that this Nation can strike a proper 
constitutional balance between protecting our children and respecting 
important First Amendment freedoms.
Educating America's Children
    This hearing comes at a very opportune moment. Quite simply, it is 
time to build on the goals and accomplishments of the Children's TV 
Act. We should, of course, encourage more educational TV and media, but 
we must also educate kids--and their parents and teachers--about the 
realities of this digital media age and the enormous amounts of video 
and other content that kids can now access.
    Since the Children's Television Act first became law, there have 
been remarkable advances in both the level of technology and the 
quantity of programming. Some would argue that the quality of TV 
programming has risen by leaps and bounds, while others would say that 
it has fallen off a cliff. Both may be true, depending on your 
perspective, but they ignore the larger reality.
    It's worth noting that, in its early years, television was hailed 
for its potential to deliver educational content. The 1950s are often 
referred to as ``the golden age'' for children's television because of 
the quantity and high quality of educational programming. Just a few 
years later, however, then-FCC Chairman Newton Minow famously called 
most TV programming a ``vast wasteland.''
    Today we stand at a similar pivotal moment in terms of digital 
media's impact on the lives and education of our Nation's children. The 
Internet is no longer in its infancy, and digital media is growing 
rapidly and becoming increasingly important in so many facets of 
children's lives. Tens of millions of young children go online every 
week, and they can use the Internet to access vast quantities of 
educational and informational material . . . or to find content that 
makes television's vast wasteland look like the Promised Land.
    In sum, my own four kids--and all of America's children--are 
growing up at the epicenter of a technological revolution. Digital 
media defines their lives in unprecedented ways; they spend far more 
time online, texting, watching TV and movies, and playing video games 
than they do in school or with their parents. The convergence of 
portable personal technologies, unfiltered access to information, and 
user-generated content profoundly impacts how they grow and learn.
    The key to success in this Digital Media Age will be preparing our 
children--as well as their parents and their teachers--to make smart 
and safe choices about what they find, watch, hear, share, and create 
with digital media.
    As noted before, television and media are vastly more accessible 
today, and truly mobile. While advanced filtering technologies can be 
of great assistance to parents at home during the early childhood 
years, these technologies become less effective as children reach their 
``tween'' and teen years and have access to content outside the home or 
are able to download content on their own mobile devices. These youths 
often become more technically savvy than their parents and are able to 
circumvent blocking technologies (often without their parents' 
knowledge.) Children need digital literacy education to understand the 
power of the digital messaging that they absorb on a daily basis. 
Common Sense believes that the best filter is the one we build in a 
child's brain, and building that filter begins with digital literacy 
education long before the child becomes a tween--literally from the 
preschool years onward.
    Common Sense's core mission focuses on consumer empowerment and the 
education of parents, educators, and kids about the impact of media on 
their cognitive, social, emotional, and physical well being. Media 
touches every part of our kids' lives. It impacts the way they 
socialize, communicate, gather and process information, and participate 
in political and economic life, and it is the means by which they form 
opinions and values. Families and educators need to help children 
become good digital citizens and to highlight how media content can 
impact opinions, values, and behaviors. Through schools and community 
groups, children should be instructed on how to be media savvy and 
safe, how to search for age-appropriate content, as well as how to be 
responsible and ethical in their own conduct in the digital media 
world.
    Over the past year, Common Sense has developed a national media 
education program for schools--Common Sense Schools--that is designed 
to educate parents and teachers about their kids' media lives and how 
to be involved in what they're hearing, seeing, and surfing. In the 
past few months alone, more than 3,700 schools in every state and the 
District of Columbia have signed up as members. This rapid growth 
exceeded even our most optimistic expectations and stands as a clear 
indicator of how concerned parents and schools are about their kids' 
media lives. The Common Sense Schools program is age-and-stage specific 
about the issues typically faced by kids in their interactions with 
media--i.e., discussions re: texting that surface in grades 5-6, 
cyberbullying issues in grades 6-8, and social networking issues in 
grades 8-12.
    The success of this program has made it far more apparent that 
digital literacy and citizenship should not only be directed to parents 
and teachers, but also targeted specifically to our Nation's youth in 
every school and community group across the country. Common Sense calls 
upon legislators to fund digital literacy programs through the 
Department of Education, the National Telecommunications and 
Information Administration, and other government agencies and to 
support legislation that would encourage digital literacy, such as the 
SAFE Internet Act, S. 1047, introduced by Senator Menendez this past 
May, and its companion in the House, the AWARE Act, H.R. 3222, 
introduced last week by Rep. Wasserman Shultz and Rep. Culberson.
    In order to survive and thrive in today's global economy, today's 
students must be digitally literate, which means being able to use and 
understand digital technologies and messages. These new forms of media 
literacy must become integral parts of their education, both for 
traditional studies (reading, writing, math, science) as well as for 
the 21st-century skills they will need to succeed (creativity, 
innovation, communication, critical thinking, civic participation). 
There are several basic steps that this Congress and this Nation need 
to take in order to develop Digital Literacy and Citizenship programs 
for every child in America:

  <bullet> Create basic resources for educating teachers, parents, and 
        kids;

  <bullet> Fund professional development for educators in schools;

  <bullet> Fund and deliver additional education/technology resources 
        in under-served schools and communities; and

  <bullet> Make media education and Digital Literacy an essential part 
        of every school's basic curriculum.\1\
---------------------------------------------------------------------------
    \1\ Digital Literacy and Citizenship in the 21st Century--
Educating, Empowering and Protecting America's Kids: A Common Sense 
Media White Paper.'' June 2009. Available online at http://
www.commonsensemedia.org/digitalliteracy.

    How does America benefit if we make this investment? It is 
perfectly clear: The nation whose children best harness the educational 
and creative powers of digital media will write the economic and 
educational success story of the 21st century. Digital media is 
bringing significant changes to the ways that kids live and learn--and 
those changes can create opportunities or pose potential dangers. We 
need to fund teachers, curricula, and parenting tools that teach kids--
and adults--to understand and manage media's role in their lives. The 
emerging fields of Digital Literacy and Citizenship are the keys to 
that preparation. And they deserve this Committee's and America's 
investment and leadership today.
Empowering America's Families
    As a long-time advocate for giving parents and educators a choice 
and a voice about the media that our kids consume, Common Sense 
supports all efforts that empower parents to decide what media content 
is appropriate for their families. There have been many important 
advances in this area since the passage of the Children's Television 
Act, but as all parents and educators know, many challenges remain, and 
new ones arise with rapidly changing technology.
    As noted above, our Nation's children live in a 24/7 digital world 
in which they use multiple media devices--often simultaneously--in a 
given day, and in which the average 8- to 18-year-old child spends at 
least 44.5 hours per week consuming media. Parents understandably want 
easy-to-use tools that can assist them in finding suitable content for 
their children. However, many parents are often unaware of available 
media tools or are uncertain how to program or operate tools like 
filters or parental control devices.
    To further complicate matters, many parents are confused by the way 
in which TV and other media are now accessed through a variety of 
platforms--with each using different filtering and blocking 
technologies, as well as a myriad of different rating systems. Most 
families increasingly access TV and media not only through broadcast 
television and cable, but also through an interconnected digital world 
of Internet-enabled stationary and mobile devices, Internet-enabled 
video games, and various satellite services. The vast array of 
different technologies requires that parents learn how to program or 
block for each new platform and Internet-enabled device--a time-
consuming and often frustrating exercise. Little wonder, then, that 
parents are confused or overwhelmed, and many simply stop trying to 
navigate this digital world with their kids.
    As these technologies and services converge, it is vital that the 
public and private sectors work together to develop tools for parents 
that are easy to understand, easy to use, and designed to operate 
across different media and technology platforms. Such work should 
clearly include upgrading key tools and technologies so that parents 
can use them to access additional independent information, ratings, and 
reviews beyond the industry's own self-regulated--and oft criticized--
rating systems.
    A consumer should further be able to understand both who is rating 
the material and the factors that determine that rating--i.e., 
violence, nudity, profanity, and smoking. Parental empowerment tools 
will be significantly improved--and used by many more parents--if more 
parents know how and by what standards content is rated. Congress 
should support the ability of every family to access independent third-
party ratings information--such as those of Common Sense and others--
through newly developed filters, as well as the existing V-Chip 
infrastructure.
    If these tools can be used to access and apply third-party ratings 
in addition to the industry's self-regulation and ratings, America's 
parents will be able to customize the tools to fit the age of their 
children, their specific concerns about avoiding certain types of 
content, and their personal interest in finding content that they deem 
appropriate. Further, independent third-party ratings and reviews, 
which are analogous to third-party resources like Consumer Reports, can 
also provide explanatory text as to why certain digital messages might 
be inappropriate for a child's particular age and stage of development.
    Parental demand for independent third-party ratings is demonstrated 
by the growth of Common Sense Media, which should have well over 10 
million unique visitors to our website in 2009, and which now offers 
more than 10,000 ratings and reviews of movies, TV shows, video games, 
websites, books, music, and other media content. Here are a few 
examples of recent Common Sense Media reviews and parent tips:

    Reviews:

        I Love You, Beth Cooper
        http://www.commonsensemedia.org/movie-reviews/i-love-you-beth-
        cooper/details#video-review-section

        Harry Potter and the Half-Blood Prince
        http://www.commonsensemedia.org/movie-reviews/harry-potter-and-
        half-blood-prince/details#video-review-section

        Last House on the Left
        http://www.commonsensemedia.org/movie-reviews/last-house-left/
        details#video-review-section

    Parent Tips:

        TV Violence
        http://www.commonsensemedia.org/tv-violence

        Texting and Kids
        http://www.commonsensemedia.org/responsible-text-messaging-tips

        Social Networking
        http://www.commonsensemedia.org/social-network-tips

    Ratings from trusted independent sources can now easily be 
integrated with V-Chip technology and other filters. These third-party 
ratings help simplify the converged digital world and can help guide 
families in selecting appropriate content. Moreover, they can be--and 
in Common Sense Media's case are--distributed in partnership with major 
industry players.
    Another important empowerment issue is that many parents do not 
want to just block certain content but also want to quickly and easily 
locate content that is age appropriate or educational. Common Sense 
accordingly supports the enabling or ``opening up'' of the V-Chip and 
other tools to read for an E/I classification for Educational/
Informational programs--or for other similar ratings provided by 
independent third parties. These types of ratings would enable parents 
to search for programs they desire in lieu of merely blocking that 
which is deemed objectionable. That definition may always be difficult, 
but it's another very simple example in which access to high-quality 
third-party information would empower parents to find the positive 
educational media that they want for their kids.
    On a related note, Common Sense Media recommends expanding the 
current definition of ``video programming'' under Section 47 U.S.C.  
602(20) of the Communications Act. The definition of ``video 
programming'' should not be limited to programming comparable to that 
of a ``television broadcast station.'' Such a definition is 
disconnected from the media environment facing today's families, where 
so much video is watched on sites such as YouTube.com and Hulu.com via 
both mobile and stationary devices. Rather, the definition should be 
written as expansively as possible to reflect current technological and 
market realities as well as those likely to come. And it should be 
expanded to include content provided on video hosting websites. This 
will be an important step toward encouraging the industry to work 
collaboratively to develop tools that enable parents to easily select, 
filter, and find content on the myriad devices their children now use.
Protecting Our Nation's Children
    Much of this hearing will focus on TV shows and other media that 
are designed for children. But we should also recognize that a great 
deal of TV and media that are not ``designed'' for children still 
reaches literally millions of children on a regular basis. And I think 
that many of us would agree that much of that media is not appropriate 
for children--and, indeed, that some of it may well be detrimental to 
their health and proper development.
    To underscore this public health reality, last year Common Sense 
Media asked researchers from the Yale University School of Medicine, 
the National Institutes of Health, and the California Pacific Medical 
Center to conduct a comprehensive analysis of existing research 
tracking the impact of media on children's health. This stellar 
research team published an executive summary of their meta-analysis in 
December 2008.\2\ The researchers reviewed more than 170 quantitative 
studies examining the relationship between media exposure and seven 
critical health outcomes for children:
---------------------------------------------------------------------------
    \2\ ``The Impact of Media on Child and Adolescent Health: Executive 
Summary of a Systematic Review'', Common Sense Media, December 2008. 
Available online at http://www.commonsense
media.org/sites/default/files/CSM_media+health_final.pdf.

---------------------------------------------------------------------------
  <bullet> Childhood obesity;

  <bullet> Tobacco use;

  <bullet> Sexual behavior;

  <bullet> Drug use;

  <bullet> Alcohol use;

  <bullet> Low academic achievement; and

  <bullet> Attention deficit hyperactivity disorder (ADHD).

    In 80 percent of the studies, researchers found that greater media 
exposure was associated with negative health outcomes for children and 
adolescents. This meta-analysis of the very best studies on media and 
child health published in the last 28 years clearly shows the 
connection between media exposure and long-term negative health 
outcomes, especially childhood obesity. That is to say, media in 
certain forms can truly be a significant public health issue for our 
kids.
    Whether your primary concern is protecting children from sex, 
violence, or other inappropriate content . . . or whether it is 
improving the educational opportunities created by television and the 
new Digital Media Age, we believe--as outlined above--that the first 
step is educating and empowering parents. Parents are in the best 
position to make smart choices about what they do and don't want in 
their homes--not to mention in their children's laptops, game consoles, 
and mobile phones. And more education and information will help more 
parents do what they want to do--make the right choices for their kids. 
The same is true for America's teachers and the classrooms that they 
manage and lead across this great land.
    But our focus on parents and educators does not absolve business 
and government of their own critical responsibilities. There are vital 
areas in which government and business can and should do far more to 
help parents and teachers protect our children from inappropriate 
content.
    For example, a significant amount of advertising is aimed at 
adults, yet seen by far too many kids. Last fall, Common Sense Media 
reviewed advertisements and network promotions shown during Sunday 
afternoon broadcasts of professional football games. These games may 
not be officially classified as ``children's programming,'' but they 
are programs that millions of families--including my own--like to watch 
and enjoy together. In fact, according to Nielsen reports, more than 
5.3 million kids ages 2 to 17--and nearly 2.8 million kids ages 2 to 
11--watch the average pro football game on broadcast television or ESPN 
each week.
    During the 2008 NFL season, we reviewed nearly 60 games--more than 
180 hours of coverage--and watched nearly 6,000 commercials. Here's 
what we found:

  <bullet> 40 percent of the games included advertisements for 
        medications for erectile dysfunction (Viagra and Cialis).

  <bullet> More than 500 of the advertisements involved significant 
        levels of violence, including gun fights, explosions, and 
        murders.

  <bullet> 300 of the advertisements were for alcohol.

  <bullet> 80 of the advertisements involved significant levels of 
        sexuality, including scenes about prostitution and strippers.

  <bullet> Nearly half (44.7 percent) of the violent or sexual 
        advertisements were promotions by the networks for their own 
        programs.\3\
---------------------------------------------------------------------------
    \3\ ``Broadcast Dysfunction: Sex, Violence, Alcohol and the NFL''. 
Common Sense Media, January 2009. Available online at http://
www.commonsensemedia.org/sites/default/files/CSM
_football_012809_FINAL.pdf

    The appeal of pro football and other sports to families is easy to 
understand. In addition to being fun and exciting, the games can offer 
many positive lessons for parents to share with children, including the 
importance of teamwork and fair play. But parents like me want to watch 
pro sports on TV with our kids without getting sucker-punched by ads 
aimed at adults. We know this is a matter of concern because when we 
released the report earlier this year, we created a website where 
parents could e-mail NFL Commissioner Roger Goodell to tell him how 
they felt about these ads--and he immediately received more than 1,000 
e-mails.
    We're currently looking at Major League Baseball weekend daytime 
broadcasts as well, and thus far, we're seeing similarly adult-oriented 
messages and images. The leagues and the networks should clearly do far 
more to make this a safer, healthier space for families. And if they 
don't, then this Committee should hold them responsible. Based upon my 
Stanford legal background and teaching, I can assure you that such 
efforts can be done in a way that is consistent with our First 
Amendment principles.
    Many parents and educators are also concerned about the prevalence 
of junk food advertising during children's shows. In 2005, for example, 
the Institute of Medicine (IOM) released a report that found compelling 
evidence that TV advertising influences children's food and beverage 
preferences, purchase requests, and consumption habits. The IOM 
recommended that the food industry voluntarily shift advertising and 
marketing targeted to kids to products and beverages that are lower in 
calories, fat, salt, and added sugars and higher in nutrient content. 
If the industry was not able to achieve significant reform, the IOM 
recommended that Congress intervene.
    In response to this study, the food and advertising industries 
created the Children's Food and Beverage Advertising Initiative, a 
voluntary self-regulatory program that currently includes 15 food and 
beverage companies. Industry leaders assert that the Initiative has 
sufficiently addressed concerns about unhealthy food advertising to 
children. But many educators and public health experts would beg to 
disagree. The industry's Initiative is clearly insufficient, since 
there still exists no uniform nutrition standard for defining healthy 
foods that the food and beverage companies adopt. Either the industry 
must create a serious and responsible standard, or Congress should 
intervene in a direct and assertive manner.
    A second important advertising concern relates to interactive 
advertising. In 2004, my colleagues at Children Now suggested that it 
was time, while interactive advertising was still in its infancy, to 
create industry guidelines and regulations that would protect children 
from the potentially harmful effects of interactive advertising. In 
late 2004, the FCC, by a 5-0 vote, tentatively concluded that they were 
correct.
    We are grateful for the leadership that Chairman Rockefeller and 
others on this Committee have provided in this important area. We are 
also grateful to the Commissioners who insisted that there should be no 
commercial Internet links embedded in children's programs unless 
technology is available to let parents decide whether they want their 
children to have access to such links. The Commissioners also 
unanimously agreed that digital broadcasters should not be able to 
circumvent existing advertising rules through interactive technology. 
Unfortunately, nearly 5 years after this ruling, the tentative 
conclusion has not been made permanent. Interactive advertising on 
websites is consistently being used to market unhealthy foods to 
children, taking advantage of children's unique vulnerability to 
commercial persuasion. Now is this time to make the earlier public 
health conclusion permanent. We greatly appreciate your recent efforts 
in this matter and encourage you to finish the task, as well as the 
other important children's media tasks at hand.
    In closing, I'd like to thank this Committee for its continued 
vision and leadership. Moreover, Common Sense would urge the Committee 
to consider that the television world and its rapid and extraordinary 
transformation in this new Digital Media Age are still built upon our 
public airwaves. As our elected representatives, you retain the power 
to license companies to use these public airwaves. And their use should 
be linked to the public interest and, most of all, to the best 
interests of our children and the educational and life needs of future 
generations. Together, we must all ensure that the public interest is 
met--not only through more and better educational TV and media--but 
also through a new national commitment to digital media literacy and 
citizenship for every family, school, and community across this great 
land.
    Thank you very much for the opportunity to testify at this 
important hearing. We have also attached some exhibits for the 
Committee's review.

    The Chairman. No, thank you a lot.
    And when I started all of this, I said that I was so fed up 
with the FCC, I wanted to remake the whole thing, just scrap it 
and start all over again. I don't think we're going to have to 
do that now, because I think we have some superb Chairmen and 
Commissioners.
    But, it is so incredibly important. I mean, it used to be 
that children reacted to us, and now I think we have to be 
reacting to children. And we're not. And this is the most 
serious part of it. And as little children, in little corners 
of rooms, look at things--television sets or their little 
handheld sets--they are seeing things that influence them 
deeply, which flows into them in ways that we can't understand, 
which we didn't have to deal with. I started out with a round 
television set, watching a New York Giants baseball game, with 
one set. You couldn't see anything, but it was television, so I 
was excited. It's a lot different now. It has a big effect on 
them, and I think it does determine the direction of the world.
    Mr. Steyer. If I may, Senator Rockefeller?
    One thing I would urge this committee to think about, in 
this new media age, is that kids are not just consumers of 
media, but they are also creators of media. That's what text 
messaging is, that's what much of the content that we all deal 
with on a daily basis is. It's kids as creators of media. It's 
why you also must have digital literacy, because they have to 
understand, if you will, the basic rules of the road, and 
issues like privacy, identity, and the other things that go 
hand in hand with the ability to be a creator, which all 
children are today, with these new platforms. So, that has to 
be part of this committee's leadership, as well. And your 
grandkid, your 4-and-a-half-year-old grandchild, will be 
creating media sooner than you think. So, they need to be 
educated as creators, as well as consumers, of media.
    The Chairman. Thank you, sir, thank you very much.
    Let's start the questioning with Mark Begich.

                STATEMENT OF HON. MARK BEGICH, 
                    U.S. SENATOR FROM ALASKA

    Senator Begich. Thank you very much, Mr. Chairman.
    Now that you've raised the bar so high in your introduction 
of me, I'm nervous about the questions I have to ask.
    The Chairman. I just said you were 47, that was all.
    Senator Begich. That's all I know.
    Well, first, thank you all--Mr. Chairman, thank you for 
doing this, and thank you all for being here.
    I'm a parent of an almost-7-year-old, so I have some real-
hand experience--real life experience in regards to TV. I can 
probably tell you many of the characters. I haven't seen an 
adult movie in I don't know how many years, now, so----
    Let me ask a couple--and you intrigued me--a couple of you 
mentioned this, but, I know, Mr. Knell, you mentioned it, and 
that was the 6-to-11 age group. This is a gap. I mean, I--and I 
don't know the right answer--I know--you know, my son now likes 
watching George Lopez. I try to explain, that's for older kids, 
but he prefers to watch it. I try to extract him from it. And I 
know an adult, at the end of the day, has the total control of 
what a kid watches. And we practice that very aggressively with 
one TV in our house, and down in the family room only, and so 
we're very aggressive about that.
    But, how do we get to--without mandatory requirements in 
regards to ensuring that there's good content for 6- to 11-
year-olds? Because I agree with you, that is a huge gap. A lot 
of good stuff on preschool, no question about it. When you 
talked about preschool 24 hours, I think that's great, except 
my son will not watch that. He's not interested, so he jumps to 
the pre-teen, or the teen stuff, and--at any moment, any of the 
boy or girl kiss, that's the end of it, he's like, you know, 
``Change the channel.'' But, everything else, he intends to--
tries to watch.
    So, can--maybe a couple, maybe Mr. Knell and I might go 
to--Zarghami, is that----
    Ms. Zarghami. Zarghami, yes.
    Senator Begich. Zarghami--I might ask you to respond. But, 
that, to me, is a challenge.
    Mr. Knell?
    Mr. Knell. Yes. Well, and thank you for pointing that out, 
Senator. You know, our kids are digital learners, and I think 
that they're walking into school now, at age 5 or 6, able to 
use media better than some of their teachers.
    I was interviewed by a reporter, yesterday, Mr. Chairman, 
who told me that her 2-year-old was downloading iPhone apps off 
of her phone.
    Senator Begich. My son's using QuickBooks. He likes 
printing checks and invoices. We're----
    [Laughter.]
    Senator Begich. We're a small-business family, and so, he 
thinks--that's very intriguing to him. Except when he gives us 
a bill.
    Go ahead.
    [Laughter.]
    Mr. Knell. Right, so possibly we should focus on the fear 
factor of parents, more than anything else.
    Senator Begich. Right.
    Mr. Knell. But, in seriousness, I think one way to go about 
this is looking at a pipeline through schools. And we have been 
talking to the Department of Education, and I know that 
Secretary Duncan is a big advocate of trying to merge this need 
of having these digital learners coming into school today, 
with--figuring out a way in which we can create content that 
will bridge from the school to the home, because we're seeing, 
of course, as someone mentioned earlier, that homework--I think 
the Chairman mentioned that homework is being given out, and 
you are connecting the child that way.
    When you get to high school--think how much more powerful 
it is when you have Harry Truman's speech about the atomic 
bomb, you know, in that high school classroom, rather than 
reading it in a textbook. Well, we can do that for 6- to 9-
year-olds, and we need to make media as a partner in this, and 
figure out ways when we can incentivize folks.
    The fact is, there's not a lot of advertising money that is 
available for this age group of 6- to 9-year-olds, and even 
though my friend, Cyma, has done great work in Nickelodeon in 
trying to address that group, along with some of her colleagues 
at Cartoon and Disney, who tend to dominate that age group, we 
have not really seen an abundance of programming that is not 
tipping more toward the entertainment side. You sort of go from 
preschool education to all entertainment, all the time. And we 
have to figure out a way to get the best of Hollywood and the 
best of Silicon Valley focused on this need to create 
programming that is going to move the needle on the education 
side. Let's focus on those kids, let's get a--let's really try 
to make that happen.
    Senator Begich. Let me, if I can. Again--and if I pronounce 
your name wrong--Ms. Zarghami?
    Ms. Zarghami. Zarghami, yes.
    Senator Begich. And two parts to it I--one is that 
response, but the second is, for kids that are not preschool, 
the morning is also important. And I know you mentioned you 
have preschool in the morning, which we took advantage of more 
than once. But now, in the morning, it's important for, also, 
that age group.
    And so, could you kind of address--and then, I call it the 
working-family/single-parents which you really highlighted, 
it's at 3 to 7 p.m., 6 p.m., when a caregiver may be there, or 
in my case, in my wife's case, our mother-in-law, who tells me 
she's strict, but I know--I know, based on his comments----
    [Laughter.]
    Senator Begich.--what he has watched that day, let me just 
say that. And then I--that's my last question for right now.
    Ms. Zarghami. Well, I will tell you that Nickelodeon, in 
the very early days--and I was there in the very early days--
did a lot of research with kids to find out what it was that 
they were interested in getting from television. And we are 
primarily an entertainment brand for kids. And we feel very 
strongly that we want to do right by them, as well.
    So, the idea that we could--you know, I mentioned it 
earlier, it's tough to be a kid in a grownup's world, and 
kids--one of the biggest issues for kids, when we began--and I 
think one of the biggest issues for kids today--once they get 
out of the preschool age--is, What is going on for them at 
school? And how do they navigate the real world as bigger kids?
    And they are going to school to get their academic 
education, but what they don't necessarily have, particularly 
with the busyness of their lives today, and their parents' 
lives, is this--tools that they need to navigate, sort of, 
social skills. And so, Nickelodeon--early on, we said to kids, 
``What is it that you want from us? And what can we do 
better?''
    And they said, ``Just because something is good for you 
doesn't mean that it tastes good.'' Right? Like green 
vegetables. And we said to them, ``So, we will now tell stories 
that are relevant to kids, that help kids navigate bullies at 
school, sort of, making new friends, dealing with tough issues 
with their siblings, and dealing with their parents.'' And 
every story on Nickelodeon tries to come to some sort of 
positive conclusion, so that, as kids watch kids on 
Nickelodeon, who either look like them, have the same issues 
that they have, or have exaggerated versions of those issues 
that they have, they can take it all in and learn to navigate 
the world that they're living in in a more confident way.
    And building a kid's self-esteem, we believe, and I think 
everybody here would agree, is really important, particularly 
in those 6-to-11 age groups.
    Senator Begich. Thank you very much.
    Mr. Chairman, I know my time's up.
    The Chairman. Thank you very much.
    Senator Nelson, I'd like to call on you?
    No, no. No, no. No, no, no. We're not following the rule 
book, here. Then, Senator Klobuchar, you'll be next.

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. I'm grateful for your hospitality, Mr. 
Chairman, thank you. Your generosity. You're very kind.
    Let me ask Professor Calvert. In your testimony, you 
mentioned the possible creation of a public-private center for 
children's programming that would serve as a think tank for 
helping create and distribute new types of children's 
programming. Can you tell us some more about that?
    Dr. Calvert. Yes, Senator. My thinking on that is that, a 
lot of times, you don't have all the key people at the same 
table, and that if you were to really be able to get--and 
Sesame Workshop has been a great example of doing this--the 
people who create media, along with the people who study media, 
the policymakers, you know, the advocates for children's 
media--if you could get them at--around the same table, and 
finance them in a way that we could begin to have some creative 
ideas, that then we could advance the educational arena.
    And I would also come back to the point that EI 
programming, educational-informational programming, does 
include pro-social content. You know, so by law that was how it 
was originally defined. But, I think that all those people, in 
a mix, could then begin to create a partnership to, kind of, 
look to the best interest of children. And by doing that--you 
know, one of the things that happens with studying even the 
quality of the programs and how it affects children, that 
there's not a good funding mechanism to do that. I mean, 
sometimes private industry does that, and then they move on--
or, you know, foundations are doing that, and they move on to 
another area.
    So, I think that, by working together, we could begin to 
create a better-quality media environment for children. And I'm 
especially interested in seeing some of the more interactive 
options appear--websites, and these handheld devices--and how 
we can use them to optimize children's development.
    Senator Nelson. We limit the amount of advertising, but we 
don't regulate the content. Is it time to revisit this issue? 
And what would you all suggest? And--you know, obvious things--
childhood obesity, and other issues. What do you think?
    Mr. Lawson. Senator I can tell you that--our channel--we 
have a 24/7 free over-the-air broadcast channel, called Qubo, 
and we have voluntarily adopted probably the strongest 
nutritional guidelines in the industry. We think that there is 
a market, actually, for programming for children that parents 
can really feel safe--feel a sense of safety in their children 
viewing it. So, in this case, I commend the work of Gary and 
others, and the leadership of Senator Brownback and others in 
this area. We, as a broadcaster, have heard that message, and 
we have adopted these guidelines.
    I would also, if I may, Mr. Chairman, follow up on Senator 
Begich's question. Qubo is designed to fill that gap in 
programming for children right after preschool. It is--we 
understand that there is a marketplace failure. We are trying, 
as a private-sector entity, to fill that niche with quality 
educational and informational programming, and it is available 
24/7.
    Mr. Knell. I would also just point out, Senator, that you 
can look at the United Kingdom, who has faced this issue 
through their regulatory framework at Ofcom. They address the 
same thing. Now, of course, you have the BBC over there, which 
is a noncommercial service, that is--got multiples more funding 
than PBS does in the United States. That makes a big 
difference. But, in the commercial sector, they did put forth a 
set of nutritional guidelines for food marketing, which is not 
``the cause'' of obesity, but it is a contributing factor, 
about limiting the exposure of young children to products that 
may be less healthy for them than others. And they did come up 
with a set of uniform nutrition standards. And, the last I 
checked, the sky did not fall in on the United Kingdom. They 
have a vibrant program, and there are a lot of kids over there 
who are engaged in children's television every day, so it's 
worth looking at.
    Senator Nelson. Mr. Steyer, in your answer to this, also 
work in, not only the content, but the content of the movies 
with--or, the film--with embedded advertising.
    Mr. Steyer. OK. Thanks, Senator. Well, I would agree--I 
actually think that we can go a lot farther, and, as I 
mentioned in my introduction, I teach civil rights and civil 
liberties at Stanford, in addition to running Common Sense. And 
I would tell you that you're on solid First Amendment grounds 
if you craft it carefully.
    Mr. Genachowski is a two-time Supreme Court law clerk, so 
he's quite familiar with the law and the balancing, as well.
    And I would suggest that there's a lot that you all could 
do, and that this country could do, not just along the lines of 
what Gary just said about the uniform nutritional standards 
that clearly ought to happen in the obesity area, but Chairman 
Genachowski, in his opening statement, talked about making 
permanent the ban on interactive advertising from kids' 
programs. To me, that's a no-brainer. It should be done. The 
FCC can do that. And I hope that they will do that in the 
coming months.
    We issued a report this past December--I think we shared it 
with Senator Pryor, among others, and--looking at the ads that 
air during sporting events, which are extremely offensive to 
me, when I have to explain erectile dysfunction to my 5-year-
old. And I think that there are two things that can happen 
here. One, I think there's industry leadership, which has, in 
this area, I think, been extremely slow to materialize, 
because--for obvious business reasons. So, I think there needs 
to be leverage from this committee and elsewhere.
    But, I think that there are ways in which you can balance 
the best interests of kids, when it comes to advertising, with 
the need to make a profit in a market context.
    But, the second thing I'd add, which goes to your question 
about movies, is that the concept of digital media literacy, 
which I believe should be in every school, in every classroom 
in the United States today--by the way, we're doing it in Omaha 
right now. We're doing a pilot program--thanks to the 
Buffetts--we're doing a pilot program in the Omaha public 
schools--should include education for kids as young as 
kindergarten about how to distinguish between advertising and 
real programming. Because when you have embedded advertising 
and product placement in movies, kids have to be able to 
understand that. They actually need the judgment to do that. 
And very basic media education, media literacy programs in 
schools can teach them how to think critically about those 
messages.
    So, one of the great parts of a digital media literacy 
program, that you all oversee with the NTIA, which could be 
part of the--NTIA's new broadband efforts--is that it, in fact, 
will give kids the ability to distinguish between ads and 
traditional programming. And I think, if you put all those 
together, a lot of the challenges that advertising presents to 
kids--which are enormous--would be dealt with in a very serious 
way.
    Senator Nelson. Thank you.
    The Chairman. Thank you, Senator Nelson.
    Senator Klobuchar?

               STATEMENT OF HON. AMY KLOBUCHAR, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar. Thank you very much, Mr. Chairman. Thank 
you, to all of our witnesses.
    I will say that I always found this a hard issue, because I 
do think parents are on the front line and have to make a lot 
of the decisions to balance, and I wish there was some magic 
technology that would allow them to do that. And that's--will 
be--my first questions will be about that.
    But, we also have to be careful about what is on TV. It 
makes a big difference in our kids' lives. I think some of you 
know, the Minnesota-based National Institute on Media and 
Family, which Dr. David Walsh, at the University of Minnesota, 
runs, and, you know, his research shows that the average 
American child today spends 44.5 hours a week in front of 
computer, TV and game screens. Children from homes that have 
the least income watch the most media with the least 
supervision, and 43 percent of children under 2 years of age 
watch TV every single day.
    And I was always interested in the V-Chip, and I know that 
Senator Pryor authored a bill called the Safe Viewing Act, 
which became law this past December, which requires the FCC to 
submit a report to Congress examining the existence and 
availability of advanced blocking technologies for various 
communications platforms. And I just wondered if any of you had 
a comment on how you think that is going, in terms of parents 
having available technology if they want to block certain 
shows?
    Dr. Calvert. Professor Jordan, at the University of 
Pennsylvania, looked at the V-Chip with parents, and most of 
them were unable to navigate it, which comes back to the 
Chairman's point, earlier, about something simpler, you know, 
where you have, like, a button to push or something that would 
allow parents to very readily see what's on the airwaves, and 
also to block it.
    So, sometimes the technology, if I can put it, is not 
transparent. The--we need to simplify things that--sometimes 
children understand how to use the technology more readily than 
their parents do.
    Senator Klobuchar. That is certainly the truth in my 
household. I had to call my daughter last night, in Minnesota, 
to figure out how to switch the channels on the TV. So, there 
you are. She's 14. All right.
    Mr. Steyer?
    Mr. Steyer. Yes, I actually think that we're--as I said in 
my remarks, I think we're quite close to that reality. And I 
think a little leadership from this committee and the FCC will 
get us there quicker than--more quickly than you think.
    And I think, Senator Pryor, that the Child Safe Viewing Act 
actually presented the ability to do that.
    Look, to me, having been around--at that point, I was 
President of Children Now--when the V-Chip was created, I think 
the V-Chip technology is meaningful, and I think the TV ratings 
from the industry are pretty meaningless. And the TV-Y, TV-MA, 
and that stuff, really doesn't matter to parents. And I think 
that the key is to marry the technology that exists--not just 
in the V-Chip, but quite frankly, in the IPGs of the cable 
networks, who distribute the vast majority of television 
programming--and then do really easy-to-use, sophisticated, 
third-party ratings. They're much better than the current 
ratings that the TV industry gives out. I don't think those--
those mean nothing to me, and this is my field, and I'm a 
parent of four.
    So, I think that the technology is there, and I think we're 
actually moving there quite closely now. Our ratings and 
reviews on every--basically every television--and Gary knows 
this very well--are about to appear on DIRECTV, starting in the 
fall, on your IPG. We've been--the challenge is actually 
integrating the ratings reviews into the interactive 
programming guides of the cable networks. But, that's easily 
done. And once that's done, any good rating system--it's an 
expensive proposition to rate every show on television, but it 
can be done--is--can be made available through the click of 
your little red button. And so, that information is just about 
to be available.
    What I think we would--could use from this committee, and 
from the FCC, is clear direction to the industry to distribute 
that in every home in the country.
    But, we're there. And I think that the V-Chip--all you have 
to know on the V-Chip technology is, keep it open, and not 
solely restrict it to the silly TV-Y, TV-MA ratings that really 
mean nothing to the vast majority of parents. But, it's there, 
and I think a small amount of leadership and your little red 
button will be a reality sooner than you think. Because that's 
where you need it, right at point of decision for the parent, 
when they're deciding, and letting them make a decision about 
which particular programs, whether it's sex----
    Senator Klobuchar. OK----
    Mr. Steyer.--violence, commercialism----
    Senator Klobuchar. Thank----
    Mr. Steyer.--is appropriate for their kid.
    Senator Klobuchar. Thank you.
    Mr. Lawson--I appreciate it. I want to switch to one other 
topic. I'm on the Agriculture Committee. We're working on the 
nutrition bill for our schools, and I've really learned a lot 
in the last year, some of it already seen in differences 
between schools, where my daughter had attended, with nutrition 
and the affect it has on kids. I appreciate the recent decision 
of your networks to advertise the nutritional guidelines for 
foods. And thank you for that. And, just where you think that's 
going.
    And also, I think, Ms. Zarghami, you talked about the--not 
using Dora the Explorer, one of my favorites, and Spongebob, to 
advertise certain kinds of foods. If you could both comment on 
that, because this is clearly an issue with kids and parents 
thinking that foods are OK and getting the blessing of Dora the 
Explorer and other things. So.
    Mr. Lawson. Well, thank you, Senator, for your 
acknowledgment of our efforts with Qubo. We have adopted strong 
nutritional guidelines that have been called the gold standard 
for the industry. A hearing like this helps us a lot, because 
it puts a spotlight on a service that is not well known. It's a 
free, over-the-air service. It's made possible by digital 
television. It is advertiser-supported, and the 1990 Children's 
Television Act acknowledged the role of advertising in 
supporting educational and informational media.
    But, it's a problem for us that Qubo is so underrecognized, 
not only in the marketplace, but in the public-interest 
community, the Children Now study that has been quoted--I was 
invited to their presentation. There was criticism of the 
broadcasters--not that they weren't airing 3 hours a week, but 
because somehow there is a quality issue. Qubo wasn't even 
mentioned. We're a broadcaster. We are a commercial broadcast 
network, distributing a--quality children's program, network, a 
channel, serving this in-between audience, after preschool, and 
we're not acknowledged by the public-interest community. We 
need some help in the marketplace. We need some help with 
distribution.
    So, I think your asking questions about that, and this 
hearing itself, is a wonderful beginning for us, in terms of 
validating that there is a commercial model for broadcasters 
who are willing to provide quality children's programming 
beyond the requirement, and for adopting some guidelines.
    Senator Klobuchar. Ms. Zarghami, only--I've gone over my 
time, so if you could be brief. Thank you.
    Ms. Zarghami. Absolutely. So, we work with every food 
partner and all of the food companies who have taken the CBB 
pledge, and we're working really hard. We have made a 
commitment not to put our characters on food that has not been 
deemed ``better for you'' by the partners that we work with. We 
have council meetings every couple of months with all of our 
food advertising partners, because I think everybody in this 
business is trying to get it right.
    And then, the last thing I would like to say really quickly 
is, you know, we do a lot of research with families and with 
parents, and the things are really--parents are on the front 
line on so many issues, and this childhood obesity issue is a 
very complex issue. But, what parents really want for their 
kids--they want to raise good kids, they want their kids to be 
safe, and they want to provide for their kids. And with that in 
mind, we have to really figure out how to navigate, sort of, 
what they need to help their kids be better kids.
    Senator Klobuchar. Thank you.
    The Chairman. Thank you, Senator Klobuchar.
    I am going to have to close this, because we have a vote at 
4:10 p.m., which is patently not true, but is about to be true.
    And I'd like to close with two things.
    Mr. Steyer, I did something last year, because I really am 
passionate about this question. It's not the subject of the 
day, but it will be the subject of others--and that is violence 
and promiscuity. I completely messed up. I said the FCC, in 
fact, does have authority over indecency, and a little bit of 
nudity and profanity, but it doesn't have any authority over 
violence, so I got that wrong, and I apologize to all.
    But, we had a--to me, a shocking incident last year, at a 
hearing on this subject. And I had prepared, perhaps over-
dramatically, about a 5-minute presentation of what violence 
and promiscuity, et cetera, that people could look at, members 
of the Committee could look at. And I was doing it in 
absolutely good faith. I was absolutely shot down, mostly by 
members of my own side of the Committee, because of the First 
Amendment. I mean there was an automatic mindset that, 
``Because the First Amendment exists, you cannot even be 
talking about this, so don't waste my time.''
    Now, I was furious. And I was undeterred. But, it makes me 
so glad that you took off a few days from your vacation to come 
here, because we're going to need you to help us work this fine 
line, if, in fact, we're going to do it, which I would like 
very much to.
    And I would close in thanking all of you. I mean, I think 
these kinds of hearings--are there 50 million people watching? 
I don't really care. I mean it emboldens all of us, makes us 
all hungrier for solutions, for answers, makes us prouder of 
what we want to fight for, and more determined to do so.
    My daughter and her husband live in St. Petersburg, Russia, 
so having grandchildren at home is kind of a big event. And 
I've watched them very closely over the last several weeks. And 
it occurs to me how little I know about them, and, in fact, how 
little I know about children, and how little I know about 
teenagers, and what goes on inside their minds that may not 
have to do with television and selections of that sort. But, 
what are the pressures of the modern world that make today's 
child different from--if they are--from children before? And if 
you have any advice to me, as to books that have been written, 
I will make sure that the Committee gets them. If there are 
analyses or particular articles--I don't think we--and my 
generation does not--we do not understand children. We love 
children, we worship them. We cuddle them, we bathe them, we do 
anything. But, we do not understand what's going on inside 
those little minds, and what gets them to select this over 
that, do this over that.
    I think that's a pretty important background. Not just that 
parents are frustrated because they can't, you know, control 
viewing habits, but we have an obligation to start on this with 
an understanding of who children are these days.
    And I don't know if those books have been written. I'm sure 
they have. I don't know what they are. So, can you help me a 
little bit on that?
    Dr. Calvert. Let me----
    The Chairman. Not now.
    Dr. Calvert. Oh.
    The Chairman. You don't have to do it now.
    [Laughter.]
    The Chairman. But, is there----
    Dr. Calvert. Yes, Senator.
    The Chairman.--light at the end of the tunnel on this?
    Dr. Calvert. There's always light at the end of the tunnel.
    The Chairman. OK. All right. Well, we have lots of tunnels 
in West Virginia, so I'm very happy about that.
    [Laughter.]
    The Chairman. I cannot thank you enough, all of you. I 
think this is so important. Mark Begich stopped as he went by, 
and left, and said, ``You know, I think we're really onto 
something incredibly important here.'' And that's what I need 
to hear from our committee members. And it has got to be 
something that, you know--there are all different kinds, and 
people, but I want to plow ahead on it. And I'm determined to 
do it. And I just greatly thank all of you.
    So, our hearing is adjourned.
    [Whereupon, at 4:16 p.m., the hearing was adjourned.]

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
